APPENDIX
Court of appeals order (Oct. 14, 2021).........................1a
District court order (Oct. 6, 2021)............................2a

Case: 21-50949

Document: 00516056022

Page: 1

Date Filed: 10/14/2021

United States Court of Appeals
for the Fifth Circuit
No. 21-50949
United States of America,
Plaintiff—Appellee,
versus
State of Texas,
Defendant—Appellant,
Erick Graham; Jeff Tuley; Mistie Sharp,
Intervenor Defendants—Appellants.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:21-CV-796
Before Stewart, Haynes, and Ho, Circuit Judges.
Per Curiam:
The emergency motions to stay the preliminary injunction pending
appeal are granted for the reasons stated in Whole Woman’s Health v. Jackson,
13 F.4th 434 (5th Cir. 2021), and Whole Woman’s Health v. Jackson, 141 S.
Ct. 2494 (2021). Judge Stewart dissents. The appeal is expedited. The Clerk
will schedule this case for oral argument before the same panel that will hear
the appeal in Whole Woman’s Health v. Jackson, No. 21-50792.

(1a)

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 1 of 113
2a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
THE STATE OF TEXAS,
Defendant.

§
§
§
§
§
§
§
§
§

1:21-CV-796-RP

ORDER
Before the Court are the United States’ Emergency Motion for a Temporary Restraining
Order or Preliminary Injunction (the “Motion”), (Dkt. 8), the State of Texas’s (the “State” or
“Texas”) Motion to Dismiss, (Dkt. 54), the Amici States’1 Unopposed Motion for Leave to File Brief
as Amici Curiae, (Dkt. 9), the United States’ Opposed Motion for Protective Order of Audiovisual
Recordings, (Dkt. 36), the State’s Objections to the United States’ Declarations, (Dkt. 55), and Erick
Graham, Jeff Tuley, and Mistie Sharp’s (the “Texas Intervenors”) motion to strike lodged at the
hearing, (Hr’g Tr., Dkt. 65, at 96). On October 1, 2021, the Court held a hearing at which it heard
evidence and considered arguments on the United States’ request for a preliminary injunction and
the State’s motion to dismiss. (Dkt. 61; Hr’g Tr., Dkt. 65). Having considered the parties’ arguments,
the evidence presented, and the relevant law, the Court issues the following order.
I. INTRODUCTION
A person’s right under the Constitution to choose to obtain an abortion prior to fetal
viability is well established. Fully aware that depriving its citizens of this right by direct state action

The Amici States are Massachusetts, California, Colorado, Connecticut, Delaware, the District of Columbia,
Hawai’i, Illinois, Maine, Maryland, Michigan, Minnesota, Nevada, New Jersey, New Mexico, New York,
Oregon, Pennsylvania, Rhode Island, Vermont, Virginia, Washington, Wisconsin, and the Attorney General
of North Carolina Joshua H. Stein. (Dkt. 9).
1

1

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 2 of 113
3a
would be flagrantly unconstitutional, the State contrived an unprecedented and transparent statutory
scheme to do just that. The State created a private cause of action by which individuals with no
personal interest in, or connection to, a person seeking an abortion would be incentivized to use the
state’s judicial system, judges, and court officials to interfere with the right to an abortion. Rather
than subjecting its law to judicial review under the Constitution, the State deliberately circumvented
the traditional process. It drafted the law with the intent to preclude review by federal courts that
have the obligation to safeguard the very rights the statute likely violates.
II. BACKGROUND
A. Factual Background
This case concerns State legislature’s passage of Senate Bill 8 (“S.B. 8”), a sweeping antiabortion law. See Senate Bill 8, 87th Leg., Reg. Sess. (Tex. 2021). S.B. 8 purports to ban all abortions
performed on any pregnant person2 where cardiac activity has been detected in the embryo, with no
exceptions for pregnancies that result from rape, sexual abuse, incest, or fetal defect incompatible
with life after birth. Tex. Health & Safety Code § 171.204(a). As explained further below, S.B. 8 can
be enforced through civil lawsuits by private citizens against anyone who performs, aids and abets or
intends to participate in a prohibited abortion. See id. §§ 171.208, 171.210.
1. Abortion
The Court finds that the declarations of providers Gilbert, Dkt. 8-2, Hagstrom Miller, Dkt.
8-4, and Linton, Dkt. 8-5, credibly describe the details of embryonic development.3 Fertilization of
an egg usually happens at two weeks from the first day of a patient’s last menstrual period (“LMP”).
At three weeks LMP, the egg implants in the uterus and pregnancy begins. An ultrasound is first able

The Court recognizes that not all pregnant people identify as women.
“In the field of medicine, physicians measure pregnancy from the first day of a patient’s last menstrual
period (“LMP”). . . . Pregnancy begins . . . at three weeks LMP, when the fertilized egg implants in the uterus
and lasts until 40 weeks LMP. For the first nine weeks LMP, an embryo develops in the uterus. It is not until
approximately 10 weeks LMP that clinicians recognize the embryo as a fetus.” (Gilbert Decl., Dkt. 8-2, at 6).
2
3

2

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 3 of 113
4a
to detect a pregnancy around four to five weeks LMP; the gestational sac is too small to detect
before this time. (Gilbert Decl., Dkt. 8-2, at 8). An embryo then develops until nine weeks LMP.
The embryo begins to form cells that in later stages of pregnancy will become the heart. An
ultrasound during this phase will reveal a sac of fluid, sometimes with a dot inside that represents the
embryo. At this early stage, certain cells produce cardiac activity, which appears on an ultrasound as
“an electrical impulse that appears as a visual flicker within [the] dot.” (Id. at 6). This electrical
impulse can occur “very early in pregnancy,” as soon as six weeks LMP or sometimes sooner; the
embryo does not have a fully developed heart at this time. (Id.). At approximately ten weeks LMP,
the embryo develops into a fetus. The fetus does not reach viability until approximately 24 weeks,
although viability is an individual medical determination. (Id. at 6). “Viability is medically understood
as the point when a fetus has a reasonable likelihood of sustained survival after birth, with or
without artificial support[,]” and is “medically impossible at 6 weeks LMP . . . .” (Id. at 6–7).
The Court finds that abortion is a safe4 and common medical procedure, based on the
credible declarations of abortion providers founded on their education and experience. Most
providers in Texas perform both medication and procedural abortions. A medication abortion
consists of taking two medications, mifepristone and misoprostol, which initiate a process similar to
a miscarriage. (Id. at 4). A procedural abortion requires a provider to conduct an abortion procedure
in person on the patient. Approximately one quarter of women in the United States will have an
abortion by the age of forty-five. (Id. at 8). In Texas alone, providers performed more than 50,000

“Abortion is also one of the safest medical procedures. Fewer than 1% of pregnant people who obtain
abortions experience a serious complication. And even fewer abortion patients—only approximately 0.3%—
experience a complication that requires hospitalization. Abortion is far safer than pregnancy and childbirth.
The risk of death from carrying a pregnancy to term is approximately 14 times greater than the risk of death
associated with abortion. In addition, complications such as blood transfusions, infection, and injury to other
organs are all more likely to occur with a full-term pregnancy than with an abortion.” (Gilbert Decl., Dkt. 8-2,
at 9).
4

3

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 4 of 113
5a
abortions last year. (Id. at 8–9).5 The declarants credibly describe a host of reasons why people might
obtain an abortion—commonly arising out of medical,6 financial,7 and family planning8 concerns. In
some cases, “patients choose to have an abortion because their pregnancies are the result of rape,

In addition, “others in the state self-manage their abortions (i.e., on their own without following a
physician’s advice) using a range of methods that can include herbs and vitamins, birth control pills, alcohol
or drugs, and misoprostol obtained over the counter in Mexico.” (Gilbert Decl, Dkt. 8-2, at 8–9).
6 “For many, maternal health concerns make abortion desirable and even necessary. Pregnancy, including an
uncomplicated pregnancy, significantly stresses the body, causes physiological and anatomical changes, and
affects every organ system. It can worsen underlying health conditions, such as diabetes and hypertension.
Some people develop additional health conditions simply because they are pregnant—conditions such as
gestational diabetes, gestational hypertension (including preeclampsia), and hyperemesis gravidarum (severe
nausea and vomiting). People whose pregnancies end in vaginal delivery may experience significant injury and
trauma to the pelvic floor. Those who undergo a caesarean section (C-section) give birth through a major
abdominal surgery that carries risks of infection, hemorrhage, and damage to internal organs.” (Id. at 9–10).
None of these conditions qualifies for the medical emergency exception in S.B. 8. See Tex. Health & Safety
Code § 171.205(a).
7 “Many Texans obtain abortions because they are unable to meet their basic needs. Pregnant patients who
seek abortion care are often low-income and below the federal poverty line. 14.7% of working Texans live in
poverty, and 34.5% are low income. This number is even higher for women of color; 19.1% of Black women
and 20.5% of Latina women live in poverty in Texas. These patients are in dire financial circumstances and
often struggle to pay for needs like housing, food, and medical care. As a result, these patients believe that
obtaining an abortion is the best decision for themselves and for their families.” (Gilbert Decl., Dkt. 8-2, at
10).
8 “The majority of pregnant people who have abortions are already parents: sixty-one percent of pregnant
patients who obtain abortions already have at least one child. They do not desire—and . . . may not be able
to afford or properly care for—another child. . . . Other patients seek abortions because having another child
is not right for them and their families at the present time. Sixty-six percent of abortion patients intend to
have at least one child in the future. Some Texans become pregnant when they are young or still in school
and want to wait to have children later in life. Some become pregnant with a partner with whom they do not
wish to share a child. Others may be managing their own unrelated health issues, such as substance abuse
disorders, and may determine that having a child would not be the best choice for them in their current
condition.” (Id. at 10–11).
5

4

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 5 of 113
6a
incest, or other intimate partner violence.” (Id. at 11).9 Still others seek abortions after fetal
anomalies are diagnosed, when such diagnoses may result in severe disabilities or death. Fetal
anomalies of this nature cannot be diagnosed until significantly later than six weeks LMP, and some
cannot be diagnosed until 18 or 20 weeks LMP. (See Gilbert Decl., Dkt. 8-2, at 11). Many people do
not realize they are pregnant at six weeks LMP because the markers of pregnancy vary greatly across
the population.10 As a result, they cannot seek abortion care until after embryonic cardiac activity is

“For patients who have been abused, being pregnant often subjects them to increased surveillance and
decreased control over their lives. Being pregnant also may make it more likely that their abusers will
perpetrate more physical violence against them. Terminating the pregnancy may be critical for their physical
health and psychological well-being.” Id. at 11. A provider in Oklahoma credibly relates his experiences with
survivors of rape seeking abortion in his clinics because the medical procedure is no longer available to them
in Texas: “One of the most heart-wrenching cases I have seen recently was of a Texas minor who had been
raped by a family member and traveled (accompanied by her guardian) all the way from Galveston, Texas—a
7- to 8-hour drive, one way—to get her abortion in Oklahoma because she was more than six weeks pregnant
and could not get an abortion in Texas. And this patient is not the only sexual assault survivor from Texas
that I have treated recently. I provided an abortion to another woman from Texas who had been raped and
could not get an abortion in Texas because of S.B. 8. She was upset and furious that she could not get an
abortion close to home and in her own state. She had to figure out how to take extra time off from work to
make the trip to Oklahoma, as well as find childcare for her children. I know of at least one other patient
from Texas on our schedule for this upcoming week who has indicated that their pregnancy was a result of
sexual assault.” (Yap Decl., Dkt. 8-9, at 9).
10 “The commonly known markers of pregnancy—a missed menstrual period and pregnancy symptoms—are
not the same for all pregnant people. First, not every pregnant person can rely on a missed menstrual period
to determine whether they are pregnant. In people with an average menstrual cycle (e.g., a period every 28
days), fertilization begins at 2 weeks LMP, and they miss their period at 4 weeks LMP. Many people do not
experience average menstrual cycles, though. Some people have regular menstrual cycles but only experience
periods every 6 to 8 weeks, or even further apart. Others do not know when they will experience their next
period because they have irregular cycles, which are caused by a variety of factors, including polyps, fibroids,
endometriosis, polycystic ovary syndrome, eating disorders, and other anatomical and hormonal reasons.
Some people may have irregular menstrual cycles because they are taking contraceptives or are breastfeeding.
As a result, many people may not suspect they are pregnant until much later than 4 weeks LMP. Second,
many people will not exhibit the commonly known symptoms of pregnancy. For instance, people may have
negative results from over-the-counter pregnancy tests even when pregnant because these tests often cannot
detect a pregnancy at 4 weeks LMP or earlier. Additionally, symptoms such as nausea or fatigue differ for
each pregnant person, and some people never experience those symptoms. Further complicating early
detection of pregnancy, it is common for pregnant people to experience light bleeding when the fertilized egg
is implanted in the uterus and mistake that bleeding for a menstrual period.” (Gilbert Decl., Dkt 8-2, at 7).
9

5

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 6 of 113
7a
detectable.11 Even so, the Court finds that “the vast majority of abortions in the United States and in
Texas take place in the first 12 weeks of pregnancy”—but “most patients are at least 6 weeks LMP
into their pregnancy when they make an abortion appointment.” (Gilbert Decl., Dkt 8-2, at 8).
2. Abortion Regulation in Texas
Texas law contains a number of regulations for abortion procedures antecedent to the
developments in S.B. 8 at issue here. Those regulations remain in force irrespective of the
constitutionality of S.B. 8. State law requires physicians to perform an ultrasound before performing
an abortion on a patient. An ultrasound typically cannot detect a pregnancy before four weeks LMP,
when the gestational sac becomes visible. (Id. at 4). State law also requires a series of counseling
requirements to be completed, as well as imposing a 24-hour waiting period. Unless a person
certifies that they live more than 100 miles from an abortion facility, they must make two trips to a
clinic to complete these requirements because of the waiting period. See Tex. Health & Safety Code
§§ 171.011–016. Appointments for counseling and for medication abortion must be done in person.
Id.; id. § 171.063. Written parental consent or a court order are required for patients eighteen years
old or younger. Id. §§ 33.001–014. The State also prohibits Medicaid coverage of abortion; most
private insurers similarly refuse to cover the procedure. (See Hagstrom Miller Decl. I, Dkt. 8-4, at 4).
Credible evidence establishes that these requirements create burdens for people seeking abortions.
(See Gilbert Decl., Dkt. 8-2, at 12) (“Patients must coordinate transportation to the clinic, childcare
for their family, lodging if they live far from a clinic, and time off from work (which may not be
paid).”)).

“Even for someone with normal periods, 6 weeks LMP is only two weeks after a missed period, and many
patients (including young people and those on birth control) do not have normal periods. And even after a
patient learns that they are pregnant and decides they want to terminate the pregnancy, arranging an
appointment for an abortion may take some time. Even assuming an appointment is available at a health
center that is accessible to a patient, they need to come in for at least two visits (due to a different Texas law),
and have to take time off work, arrange child care, and deal with other logistical issues that can result in some
delay.” (Linton Decl., Dkt. 8-5, at 6).
11

6

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 7 of 113
8a
In addition, the Texas legislature passed H.B. 2 in 2013, imposing further restrictions on
abortion facilities and providers. House Bill 2, 83rd Leg., 2nd Called Sess. (Tex. 2013). That law was
enjoined and ultimately overturned by the Supreme Court. See Whole Women’s Health v. Hellerstedt, 136
S. Ct. 2292 (2016). But during the period of its operation, it forced many clinics to close, almost all
of which have not reopened.12 The result is that, whereas before H.B. 2 there were 44 clinics, now
only 20 clinics serve the entire state. (See Hagstrom Miller Decl. I, Dkt. 8-4, at 5).13 Similar closures
arose from Governor Abbott’s Executive Order shuttering clinics due to COVID-19.14 For lowincome patients, often from marginalized communities, and often facing language barriers,
“significant logistical and financial burdens” on accessing abortion services existed even prior to the
enactment of S.B. 8.15
3. Senate Bill 8
S.B. 8 imposes an almost outright ban on abortions performed after six weeks of pregnancy,
as well as other anti-abortion measures meant to empower anti-abortion vigilantes and target those
who support abortion care in Texas.

“Because WWH lacked sufficient physicians with admitting privileges in Beaumont and Austin, we had to
shut those clinics down. Additionally, our clinic in McAllen was shut down for eleven months and was only
reopened because of an injunction awarded by the United States District Court for the Western District of
Texas. Ironically, one of our physicians in Austin was able to obtain admitting privileges in Fort Worth, and
so he commuted by plane in order to keep our clinic in Fort Worth open. The cost of flights put further
economic pressure on WWH.” (Hagstrom Miller Decl. I, Dkt. 8-4, at 5).
13 “In fact, the WWH clinic in Austin (now operated by Whole Woman’s Health Alliance) is the only WWH
clinic closed by H.B. 2 to have reopened since the Supreme Court struck it down. Less than two years after
reopening, the Austin clinic was forced to close again because an anti-abortion pregnancy crisis center, Austin
LifeCare, bought out the lease for our existing building. The Austin Clinic had to find a new location and
relocate our operations, reopening again in February 2019. . . . Independent abortion providers will not be
able to recover from clinic closures. Once abortion clinics close, they remain closed permanently.” (Id. at 5).
14 “Abortion providers had a similar experience last year when Governor Abbott issued a COVID-19
executive order that forced all of the abortion providers in the state to stop providing abortions for around
three weeks. Even this short closure had a devastating and lasting impact on both the clinics and our patients.
Had the closure lasted even a few weeks more, many clinics would have closed for good.” (Id. at 6).
15 “Most of WWH/WWHA’s patients in Texas are Black, Latinx, or people of color from marginalized
communities. Our patients overcome significant logistical and financial burdens to access abortion care at our
clinics. The majority of our patients are poor or low-income and receive at least partial financial assistance for
their abortions.” (Id. at 4).
12

7

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 8 of 113
9a
a. The Six-week Ban on Abortions
The cornerstone of S.B. 8 is its requirement that physicians performing abortions in Texas
determine whether a “detectable fetal heartbeat” is present and bans any abortions performed if a
“fetal heartbeat” 16 is detected or if the physician fails to perform a test for one. Tex. Health & Safety
Code §§ 171.201(1), 171.203(b), 171.204(a). S.B. 8 empowers licensing authorities to discipline any
licensed healthcare provider who perform abortions in violation of S.B. 8. Tex. Occ. Code §§
164.053(a)(1)), 301.101, 553.003. S.B. 8 contains no exception for pregnancies that result from rape
or incest, or for fetal health conditions that are incompatible with life after birth—though it does
contain a narrow exception for “a medical emergency . . . that prevents compliance.” Tex. Health &
Safety Code § 171.205(a).
S.B. 8 creates liability for anyone who performs an abortion in violation of the six-week ban
and anyone who “knowingly” aids or abets the performance of an abortion performed at six weeks
or later. Id. § 171.208(a)(1)–(2). Although S.B. 8 does not define what constitutes aiding or abetting
under the statute, it specifies that paying for or reimbursing the costs of the abortion would fall
under the ban, which would apply “regardless of whether the person knew or should have known
that the abortion would be performed or induced in violation of [S.B. 8].” Id. In addition, a person
need not even actually take steps to “aid and abet” a prohibited abortion to be held liable under S.B.

Because an ultrasound can typically detect cardiac activity beginning at approximately six weeks of
pregnancy, as measured from the first day of a patient’s last menstrual period (“LMP”), and “fetal heartbeat”
is a medically inaccurate term since what the law intends to refer to is “cardiac activity detected in an embryo”
the Court will refer to S.B. 8’s ban as a “six-week ban” to more accurately reflect that the ban covers all
abortions performed approximately six week LMP, usually just two weeks after a missed menstrual period,
when an embryo begins to exhibit electrical impulses. (Compl. Dkt. 1, at 22) (“[D]espite S.B. 8’s use of the
phrase ‘fetal heartbeat,’ the Act forbids abortion even when cardiac activity is detected in an embryo.”).
16

8

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 9 of 113
10a
8; all that is required is that the person intended to “aid and abet” an abortion at six weeks or later. Id.
§ 171.208(a)(3).17
b. Enforcement of the Six-Week Ban
S.B. 8 precludes enforcement of the six-week ban by state or local authorities, instead
empowering private citizens to bring civil actions against anyone who allegedly performs, or aids and
abets in the performance of a banned abortion. Id. § 171.207(a). Despite having no exception to the
six-week ban for pregnancies that result from rape or incest, S.B. 8 precludes those “who
impregnated the abortion patient through rape, sexual assault, [or] incest” from bringing an S.B. 8
lawsuit. Id. § 171.208(j). S.B. 8 does not permit private citizens to bring civil suits against abortion
patients. Id. § 171.206(b)(1).
Any private individual may bring suit under S.B. 8 in the county where “all or a substantial
part of the events or omissions . . . occurred,” in their county of residence (if they are a Texas
resident) or the defendant’s county of residence, or the county of a defendant entity’s principal
office. Id. § 171.210(a). A private individual who brings suit can block transfer to a more appropriate
venue if not consented to by all parties. Id. § 171.210(b).18 Private individuals who prevail in S.B.
lawsuits may be awarded (1) “injunctive relief sufficient to prevent” future violations or conduct that
aids or abets violations; (2) “statutory damages . . . in an amount of not less than $10,000 for each
abortion” that was provided or aided and abetted; and (3) “costs and attorney’s fees.” Tex. Health &
Safety Code § 171.208(b). Significantly, a private individual may prevail in a civil suit brought under
S.B. 8 without alleging any injury.

Amici raise the possibility that their citizens could be subject to suit by, among other activities,
“perform[ing] research used to support abortion access in Texas” or “donat[ing] or provid[ing] in-kind
support to abortion funds and other abortion advocacy groups in Texas . . .” (Br. of Amici, Dkt. 9-1, at 11).
18 Texas generally limits the venue where an action may be brought to one where the events giving rise to a
claim took place or where the defendant resides, see Tex. Civ. Prac. & Rem. Code § 15.002(a), and a Texas
state court may generally transfer venue “[f]or the convenience of the parties and witnesses and in the interest
of justice,” id. § 15.002(b).
17

9

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 10 of 113
11a
In contrast, those sued under S.B. 8 are prohibited from raising certain defenses enumerated
under S.B. 8, including that they believed the law was unconstitutional; that they relied on a court
decision, later overruled, that was in place at the time of the acts underlying the suit; or that the
patient consented to the abortion. Id. § 171.208(e)(2)–(3). S.B. 8 also states that people who are sued
may not rely on non-mutual issue or claim preclusion or rely on any other “state or federal court
decision that is not binding on the court in which the action” was brought as a defense. Id. §
171.208(e)(4)–(5). If a suit is successful, the person sued will be bound by a mandatory injunction,
violation of which will result in contempt orders. Id. § 171.208(b)(2). Furthermore, those sued under
S.B. 8 who prevail in their case are barred from recovering their costs and attorney’s fees if they
prevail even if the person has been sued many times. Id. § 171.208(i). S.B. 8 also enlarges the statute
of limitations, allowing private individuals to sue up to four years from the date the cause of action
accrues. Id. § 171.208(d).
S.B. 8 changes the way state courts interpret binding precedent. “States may regulate
abortion procedures prior to viability so long as they do not impose an undue burden” on a patient’s
right to abortion, but states “may not ban abortions.” Jackson Women’s Health Org. v. Dobbs, 945 F.3d
265, 269 (5th Cir. 2019), cert. granted in part, No. 19-1392, 2021 WL 1951792 (U.S. May 17, 2021).
Under S.B. 8, a defendant may not establish an undue burden by “merely demonstrating that an
award of relief will prevent women from obtaining support or assistance, financial or otherwise,
from others in their effort to obtain an abortion[] or . . . arguing or attempting to demonstrate that
an award of relief against other defendants or other potential defendants will impose an undue
burden on women seeking an abortion.” Tex. Health & Safety Code § 171.209(d). And S.B. 8
eliminates undue burden as a defense in the event the Supreme Court “overrules Roe v. Wade, 410
U.S. 113 (1973) or Planned Parenthood v. Casey, 505 U.S. 833 (1992), regardless of whether the

10

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 11 of 113
12a
[S.B. 8] conduct . . . occurred before the Supreme Court overruled either of those decisions.” Id. §
171.209(e).
B. Procedural Background
The procedural background and timing of this case is connected to the fate of another case
in this Court challenging the constitutionality of S.B. 8: Whole Woman’s Health v. Jackson, USDC No.
1:21-cv-616 (W.D. Tex. 2021). The Jackson case had an intense ramp-up starting when Plaintiffs19
filed a suit on July 13, 2021. (1:21-cv-616, Dkt. 1). Plaintiffs are a large group of abortion care
providers and advocates who sued Texas Attorney General Ken Paxton, a state court judge, a state
court clerk, a private individual who previously expressed his intent to bring S.B. 8 lawsuits, and
various State officials. (Id.). Defendants filed motions to dismiss, (1:21-cv-616, Dkts. 48, 49, 50, 51),
and then Plaintiffs filed a motion for preliminary injunction, (1:21-cv-616, Dkt. 53). Three days after
the motions to dismiss were filed, two of the Defendants—the state court clerk and the private
individual—filed a petition for writ of mandamus, arguing that this Court erred by purportedly
“refusing to resolve [their] jurisdictional objections before proceeding to the merits.” In re Clarkston,
No. 21-50708 (5th Cir. Aug. 7, 2021). After dozens of filings, the Fifth Circuit denied the petition of
mandamus on August 13, 2021. Id.
During the pendency of the petition for writ of mandamus, the Court set the preliminary
injunction motion to be heard on August 30, 2021. (1:21-cv-616, Dkt. 61). On August 25, 2021, the
Court denied the pending motions to dismiss. (1:21-cv-616, Dkt. 82). Defendants filed an

Plaintiffs in that action include Whole Woman’s Health, Alamo City Surgery Center PLLC d/b/a Alamo
Women’s Reproductive Services, Brookside Women’s Medical Center PA d/b/a Brookside Women’s Health
Center and Austin Women’s Health Center, Houston Women’s Clinic, Houston Women’s Reproductive
Services, Planned Parenthood of Greater Texas Surgical Health Services, Planned Parenthood South Texas
Surgical Center, Planned Parenthood Center for Choice, Southwestern Women’s Surgery Center, Whole
Woman’s Health Alliance, Allison Gilbert, M.D., Bhavik Kumar, M.D., The Afiya Center, Frontera Fund,
Fund Texas Choice, Jane’s Due Process, Lilith Fund for Reproductive Equity, North Texas Equal Access
Fund, Marva Sadler, Reverend Daniel Kanter, and Reverend Erika Forbes. (1:21-cv-616, Dkt. 1, at 9–14).
19

11

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 12 of 113
13a
interlocutory appeal to the Fifth Circuit. (1:21-cv-616, Dkt. 83). Finding that Defendants who are
state officials asserted sovereign immunity, this Court stayed its proceedings as to those Defendants
but could not, and did not, stay its proceedings as to the private individual. (1:21-cv-616, Dkt. 88).
On that same day, the Fifth Circuit entered a “temporary administrative stay” of this Court’s
proceedings and denied Plaintiffs’ request to expedite the interlocutory appeal. (1:21-cv-616, Dkt.
92). Two days later, on August 29, 2021, the Fifth Circuit denied Plaintiffs’ requests for an
injunction pending appeal and to vacate its administrative stay, among other denials. (1:21-cv-616,
Dkt. 93).
With S.B. 8 about to go into effect, Plaintiffs filed an application for injunctive relief or, in
the alternative, to vacate the Fifth Circuit’s stays of this Court’s proceedings with the Supreme
Court. Whole Woman's Health v. Jackson, No. 21A24, 2021 WL 3910722, at *1 (U.S. Sept. 1, 2021). At
midnight, S.B. 8 became law, and that night the Supreme Court issued its opinion denying Plaintiffs’
request for an injunction or stay. Id. While acknowledging that Plaintiffs had “raised serious
questions regarding the constitutionality of the Texas law at issue[,]” the Supreme Court expressed
concern about the “complex and novel antecedent procedural questions.” Id.
In dissent, Chief Justice Roberts noted that “[t]he statutory scheme before the Court is not
only unusual, but unprecedented,” because “[t]he legislature has imposed a prohibition on abortions
after roughly six weeks, and then essentially delegated enforcement of that prohibition to the
populace at large,” with the “desired consequence appear[ing] to be to insulate the State from
responsibility for implementing and enforcing the regulatory regime.” Id. (Roberts, C.J., dissenting).
The Chief Justice stated that he “would grant preliminary relief to preserve the status quo ante—
before the law went into effect—so that the courts may consider whether a state can avoid
responsibility for its laws in such a manner.” Id. at *2. Justices Breyer, Sotomayor, and Kagan each

12

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 13 of 113
14a
wrote a dissenting opinion, noting the need to preserve judicial review in the face of S.B. 8’s unusual
enforcement regime. See id. at *3–5.
On September 10, 2021, the Fifth Circuit denied Plaintiffs’ motion to dismiss the private
individual’s appeal, granted the private individual’s motion to stay, and expedited the appeal “to the
next available oral argument panel.” (1:21-cv-616, Dkt. 95). The Fifth Circuit’s order confirmed its
stay of this Court’s proceedings, and the Jackson case has come to a halt pending the resolution of
Defendants’ interlocutory appeal.
The United States filed the instant action for declaratory and injunctive relief on September
9, 2021. (Compl., Dkt. 1). The United States accuses the State of banning nearly all abortions after
six weeks, and months before a pregnancy is viable, “in open defiance of the Constitution.” (Id. at
1). “Because S.B. 8 clearly violates the Constitution,” the United States alleges that the State
“adopted an unprecedented scheme ‘to insulate the State from responsibility.”’ (Id. (quoting Jackson,
2021 WL 3910722, at *1 (Roberts, C.J., dissenting))). The United States seeks a declaratory judgment
that S.B. 8 is “invalid under the Supremacy Clause and the Fourteenth Amendment, is preempted by
federal law, and violates the doctrine of intergovernmental immunity.” (Id. at 3). The United States
also seeks an “order preliminarily and permanently enjoining the State of Texas, including its
officers, employees, and agents, including private parties who would bring suit under the law, from
implementing or enforcing S.B. 8.” (Id.).
S.B. 8 was designed to stymie judicial review. (Id.) (citing Emma Green, What Texas Abortion
Foes Want Next, THE ATLANTIC (Sept. 2, 2021), https://www.theatlantic.com/politics/archive/
2021/09/texas-abortion-ban-supreme-court/619953/; Jacob Gershman, Behind Texas Abortion Law,
an Attorney’s Unusual Enforcement Idea, THE WALL ST. J. (Sept. 4, 2021), https://www.wsj.com/articles
/behind-texas-abortion-law-an-attorneys-unusual-enforcement-idea-11630762683 (quoting Texas
State Senator Bryan Hughes: “We were going to find a way to pass a heartbeat bill that was going to
13

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 14 of 113
15a
be upheld.”); Jenna Greene, Column: Crafty Lawyering on Texas Abortion Bill Withstood SCOTUS
Challenge, REUTERS (Sept. 5, 2021), https://reuters.com/legal/government/crafty-lawyering-texasabortion-bill-withstood-scotus-challenge-greene-2021-09-05/(quoting Sen. Hughes as saying S.B. 8
is a “very elegant use of the judicial system”)).
In its complaint, the United States describes the effects of S.B. 8 on Texans and the injuries
to the United States. According to the complaint, after being deprived of their constitutional right to
an abortion, pregnant people are crossing state lines to seek abortion care since S.B. 8 took effect.
(Compl., Dkt. 1, at 12–13). The complaint also asserts that S.B. 8 irreparably injures the United
States by depriving people of their constitutional rights while preventing them from vindicating
those rights in federal court and unconstitutionally restricting the operation of the federal
government and conflicting with federal law. (Id. at 14–24). The United States brings claims under
the Fourteenth Amendment, preemption, and intergovernmental immunity. (Id. at 24–26).
On September 15, 2021, the United States filed an emergency motion requesting a
temporary restraining order or preliminary injunction to enjoin the enforcement and effect of S.B. 8.
(Mot. Prelim. Inj., Dkt. 8). The United States, through declarations, detailed the “devastating effects”
S.B. 8 already was having in Texas and nearby states, including the vast majority of people seeking
abortions being turned away, some people forced to seek care in other states, scheduling backlogs in
other states because Texans are claiming 50-75% of appointments, and losing health care
professionals who fear liability. (Id. at 17–22). Arguing that S.B. 8 violates the Constitution and the
principles of preemption and intergovernmental immunity, the United States makes its case that it is
likely to succeed on the merits. (Id. at 23–32). The United States also contends that it has standing to
bring this suit against the State and that its requested relief will redress its injuries. (Id. at 32–43).
Finally, the United States argues it faces irreparable harm and the balance of the equities tip in favor
of an injunction. (Id. at 43–44). The Court set a hearing for October 1, 2021. (Dkt. 12).
14

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 15 of 113
16a
On the same day the United States filed its preliminary injunction motion, the Amici States
filed their Unopposed Motion for Leave to File Brief as Amici Curiae. (Dkt. 9). The Amici States
express their interests in protecting their residents’ ability to seek abortion care and avoid suit and
their more general interest in “ensuring each State abides by its constitutional obligation not to
prohibit access to otherwise lawful and safe abortion care.” (Dkt. 9-1, at 9). The Amici argue that
S.B. 8 represents an “unprecedented attack on our constitutional order and rule of law,” (id. at 12),
and urge this Court to immediately enjoin the State from enforcing S.B. 8, (id. at 26–27).
Several would-be intervenors filed motions, starting with the Texas Intervenors. (Mot.
Intervene, Dkt. 28, at 1). The Texas Intervenors, who also later filed an opposition to the
preliminary injunction motion, (Dkt. 44), seek to “preserve their state-law rights and to ensure that
Senate Bill 8’s severability requirements are observed and enforced.” (Mot. Intervene, Dkt. 28, at 1).
The Texas Intervenors claim they intend to sue people and entities, pursuant to S.B. 8, “whose
conduct is clearly unprotected by the Constitution[] and who cannot plausibly assert an ‘undue
burden’ defense under [S.B. 8].” (Id. at 2). The Court granted the Texas Intervenors’ motion to
intervene. (Dkt. 40). The next motion to intervene was filed by Oscar Stilley (“Stilley”), an Arkansas
resident “in federal custody[] on home confinement” who already has sued an abortion provider
under S.B. 8 in Bexar County. (Stilley Mot., Dkt. 31, at 1, 4). The Court granted Stilley’s motion to
intervene. (Dkt. 40). Finally, just a few days ago, Felipe Gomez, who also brought an S.B. 8 suit in
Bexar County, filed a motion to intervene. (Dkt. 62). Since the response window to that motion is
still open, it is not ripe or before the Court at this time.

15

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 16 of 113
17a
On September 30, 2021, the State filed its response to the preliminary injunction, (Resp.,
Dkt. 43), and its motion to dismiss, (Dkt. 54).20 In its motion to dismiss, the State argues that there is
no justiciable controversy between the United States and Texas; the United States cannot obtain
relief against state courts or private individuals; the United States is not injured; and the United
States lacks a cause of action. (Dkt. 54). In its opposition to the preliminary injunction motion, the
State contends that S.B. 8 is lawful because the United States has not shown a clear violation of the
Fourteenth Amendment and the United States has not clearly shown S.B. 8 is preempted or violates
intergovernmental immunity. (Resp., Dkt. 43, at 49–59). The State also asserts that the United States
has not clearly shown irreparable harm or that the balance of the equities and public interest favor
an injunction. (Id. at 59–69). Rounding out its arguments, the State disputes the requested injunction
as unlawfully broad. (Id. at 69–71). Finally, the State requests that, should this Court grant the
preliminary injunction motion, this Court stay the injunction to allow the State to seek a stay from
“the appropriate appellate courts.” (Id. at 71–72).
III. LEGAL STANDARDS
Federal Rule of Civil Procedure 12(b)(1) allows a party to assert lack of subject-matter
jurisdiction as a defense to suit. Fed. R. Civ. P. 12(b)(1). Federal district courts are courts of limited
subject matter jurisdiction and may only exercise such jurisdiction as is expressly conferred by the
Constitution and federal statutes. Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377 (1994).
A federal court properly dismisses a case for lack of subject matter jurisdiction when it lacks the
statutory or constitutional power to adjudicate the case. Home Builders Ass’n of Miss., Inc. v. City of

In its response, the State improperly included two motions—the motion to dismiss, which it separately filed
later, (Dkt. 54), and a request for a stay in the event an injunction is granted—with its response brief. (Dkt.
43; see Deficiency Notice, Dkt. 47). While normally a filing error of this kind is not of note, this Court refers
to it only because the State did not refile its request for a stay as a separate motion. Assuming a
miscommunication or a misunderstanding, the Court still considers the State’s request for a stay to be before
this Court even though it resides with the State’s response brief.
20

16

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 17 of 113
18a
Madison, 143 F.3d 1006, 1010 (5th Cir. 1998). “The burden of proof for a Rule 12(b)(1) motion to
dismiss is on the party asserting jurisdiction.” Ramming v. United States, 281 F.3d 158, 161 (5th Cir.
2001), cert. denied, 536 U.S. 960 (2002). “Accordingly, the plaintiff constantly bears the burden of
proof that jurisdiction does in fact exist.” Id. In ruling on a Rule 12(b)(1) motion, the court may
consider any one of the following: (1) the complaint alone; (2) the complaint plus undisputed facts
evidenced in the record; or (3) the complaint, undisputed facts, and the court’s resolution of
disputed facts. Lane v. Halliburton, 529 F.3d 548, 557 (5th Cir. 2008).
Pursuant to Rule 12(b)(6), a court may also dismiss a complaint for “failure to state a claim
upon which relief can be granted.” Fed. R. Civ. P. 12(b)(6). In deciding a 12(b)(6) motion, a “court
accepts ‘all well-pleaded facts as true, viewing them in the light most favorable to the plaintiff.’” In re
Katrina Canal Breaches Litig., 495 F.3d 191, 205 (5th Cir. 2007) (quoting Martin K. Eby Constr. Co. v.
Dallas Area Rapid Transit, 369 F.3d 464, 467 (5th Cir. 2004)). “To survive a Rule 12(b)(6) motion to
dismiss, a complaint ‘does not need detailed factual allegations,’ but must provide the plaintiff’s
grounds for entitlement to relief—including factual allegations that when assumed to be true ‘raise a
right to relief above the speculative level.’” Cuvillier v. Taylor, 503 F.3d 397, 401 (5th Cir. 2007) (citing
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)). That is, “a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v.
Iqbal, 556 U.S. 540, 678 (2009) (quoting Twombly, 550 U.S. at 570).
A claim has facial plausibility “when the plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Id. “The
tenet that a court must accept as true all of the allegations contained in a complaint is inapplicable to
legal conclusions. Threadbare recitals of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Id. A court ruling on a 12(b)(6) motion may rely on the
complaint, its proper attachments, “documents incorporated into the complaint by reference, and
17

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 18 of 113
19a
matters of which a court may take judicial notice.” Dorsey v. Portfolio Equities, Inc., 540 F.3d 333, 338
(5th Cir. 2008) (citations and internal quotation marks omitted). A court may also consider
documents that a defendant attaches to a motion to dismiss “if they are referred to in the plaintiff’s
complaint and are central to her claim.” Causey v. Sewell Cadillac-Chevrolet, Inc., 394 F.3d 285, 288 (5th
Cir. 2004). But because the court reviews only the well-pleaded facts in the complaint, it may not
consider new factual allegations made outside the complaint. Dorsey, 540 F.3d at 338. “[A] motion to
dismiss under 12(b)(6) ‘is viewed with disfavor and is rarely granted.’” Turner v. Pleasant, 663 F.3d
770, 775 (5th Cir. 2011) (quoting Harrington v. State Farm Fire & Cas. Co., 563 F.3d 141, 147 (5th Cir.
2009)).
A preliminary injunction is an extraordinary remedy, and the decision to grant such relief is
to be treated as the exception rather than the rule. Valley v. Rapides Parish Sch. Bd., 118 F.3d 1047,
1050 (5th Cir. 1997). “A plaintiff seeking a preliminary injunction must establish that he is likely to
succeed on the merits, that he is likely to suffer irreparable harm in the absence of preliminary relief,
that the balance of equities tips in his favor, and that an injunction is in the public interest.” Winter v.
Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008). The party seeking injunctive relief carries the burden
of persuasion on all four requirements. PCI Transp. Inc. v. W. R.R. Co., 418 F.3d 535, 545 (5th Cir.
2005). When the United States is a party, the third and fourth requirements merge. Nken v. Holder,
556 U.S. 418, 435 (2009). A movant cannot be granted a preliminary injunction unless it can
establish that it will suffer irreparable harm without an injunction. Amazon.com, Inc. v.
Barnesandnoble.com, Inc., 239 F.3d 1343, 1350 (Fed. Cir. 2001).
IV. DISCUSSION
Due to the length, the Court offers a high-level roadmap of its legal analysis. The Court first
considers two requests—a motion to seal and a set of evidentiary objections—before reaching the
jurisdictional and procedural questions presented by the State’s motion to dismiss. Satisfied that the
18

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 19 of 113
20a
Court has subject matter jurisdiction and that the United States has stated a valid claim against the
State, the Court then addresses the United States’ preliminary injunction motion.
A. Motion to Seal and Evidentiary Objections
1. United States’ Motion to Seal
Before the hearing, on September 27, 2021, the United States filed its Opposed Motion for a
Protective Order of Audiovisual Recordings. (Mot. Seal, Dkt. 36). Pursuant to Federal Rule of Civil
Procedure 26(c)(1), the United States requests this Court to seal the audiovisual recordings of
depositions (the “Depositions”) of Patrice Rachel Torres, Laurie Bodenheimer, Alix McLearen,
James S. De La Cruz, and Anne Marie Costello (the “Deponents”), civil servants who were deposed
by the State. (Id. at 1). The United States argues the Deponents have a “legitimate privacy interest in
limiting permanent and public dissemination of video recordings of them being deposed.” (Id.). The
United States relies on two United States District Court for the District of Columbia decisions that
sealed audiovisual recordings of civil servants. (Id. at 2) (citing Order at 2–3, ECF No. 96, Judicial
Watch, Inc. v. U.S. Dep’t of State, (D.D.C. Apr. 25, 2019); Judicial Watch v. Dep’t of State, No. 13-cv1363-EGS (D.D.C. May 26, 2016)). The State opposes this request. (Resp. Mot. Seal, Dkt. 64).
Generally, the public has a right to inspect judicial records. Nixon v. Warner Commc’ns, Inc.,
435 U.S. 589, 597 (1978). This right “promotes the trustworthiness of the judicial process, curbs
judicial abuses, and provides the public with a better understanding of the judicial process, including
its fairness[, and] serves as a check on the integrity of the system.” Bradley on behalf of AJW v. Ackal,
No. 18-31052, 2020 WL 1329658, at *4 (5th Cir. Mar. 23, 2020) (citing United States v. Sealed Search
Warrants, 868 F.3d 385, 395 (5th Cir. 2017)).
This right is not absolute and the “common law merely establishes a presumption of public
access to judicial records.” Id. (citing SEC v. Van Waeyenberghe, 990 F.2d 845, 848 (5th Cir. 1993)).
The Fifth Circuit has neither assigned a particular weight to this presumption nor interpreted the
19

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 20 of 113
21a
presumption in favor of access as creating a burden of proof. Id. at *4. But in light of the public’s
right to access judicial records, courts are required to “use caution in exercising [their] discretion to
place records under seal.” United States v. Holy Land Found. for Relief & Dev., 624 F.3d 685, 689–90
(5th Cir. 2010) (citing Fed. Sav. & Loan Ins. Corp. v. Blain, 808 F.2d 395, 399 (5th Cir. 1987)). “In
exercising its discretion to seal judicial records, the court must balance the public’s common law
right of access against the interests favoring nondisclosure.” Bradley, 2020 WL 1329658, at *4 (citing
Van Waeyenberghe, 990 F.2d at 848). “The presumption however gauged in favor of public access to
judicial records is one of the interests to be weighed on the public’s side of the scales.” Id. (internal
quotations omitted).
“Not every document, however, is a judicial record subject to the common law right of
access.” Id. at *5. “[S]ealing may be appropriate where orders incorporate confidential business
information.” N. Cypress Med. Ctr. Operating Co. v. Cigna Healthcare, 781 F.3d 182, 204 (5th Cir. 2015).
In some cases, such as those involving “trade secrets, the identity of informants, and the privacy of
children,” Jessup v. Luther, 277 F.3d 926, 928 (7th Cir. 2002), or those in which information could be
used for “scandalous or libelous purposes,” Hagestad v. Tragesser, 49 F.3d 1430, 1434 (9th Cir. 1995),
the interest in secrecy is compelling. But when the party seeking leave to file under seal “does not
identify any particular confidential information in the orders that may cause it harm, and much of
the information therein is available elsewhere,” sealing is generally unwarranted. N. Cypress, 781 F.3d
at 204; see also Powers v. Duff & Phelps, LLC, No. 1:13-CV-768, 2015 WL 1758079, at *7–8 (W.D. Tex.
Apr. 17, 2015) (“[T]he parties’ decision to designate documents as confidential does not mandate
that the Court seal the record. The standard for sealing court documents is more stringent than [the]
standard for protecting discovery materials under a protective order.”). “[I]n order for a document
to be sealed, the movant must not only point to specific confidential information contained in the
document, but must also show the specific harm that would be suffered if the public were granted
20

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 21 of 113
22a
access to this document.” Omega Hosp., LLC v. Cmty. Ins. Co., No. CV 14-2264, 2015 WL 13534251,
at *4 (E.D. La. Aug. 12, 2015) (citing N. Cypress, 781 F.3d at 204).
The United States has not presented any compelling reasons for sealing the Depositions
other than that civil servants have a privacy interest. (Mot. Seal, Dkt. 36, at 2). While civil servants
may very well have such a privacy interest, the United States has not explained how it outweighs the
presumption of public access to the court documents. See Nixon, 435 U.S. at 597; Bradley, 2020 WL
1329658, at *4 (citing United States v. Sealed Search Warrants, 868 F.3d at 395). Additionally, the United
States does not seek to seal the transcripts of the Depositions. (Mot. Seal, Dkt. 36, at 2). The fact
that the United States does not object to the content of the Depositions being public also favors
access to the Depositions. See N. Cypress, 781 F.3d at 204. The Court will deny the United States’
motion to seal.
2. The State’s and the Texas Intervenors’ Objections to the United States’ Declarations
On September 30, 2021, the State filed its objections to the declarations attached to the
United States’ Motion. (Dkt. 55). The next day, during the hearing on the Motion, the State
additionally objected to the two declarations attached to the United States’ reply, (Dkt. 59). (Hr’g
Tr., Dkt. 65, at 6–7). The State objected to those two declarations as improper because (1) they are
new evidence submitted with a reply brief and (2) the State did not have the opportunity to cross
examine one of the declarants. (Id. at 7). At the hearing on the preliminary injunction motion, the
Texas Intervenors moved to strike three declarations proffered by the United States: Dr. Allison
Gilbert, Amy Hagstrom Miller, and Melaney Linton. (Hr’g Tr., Dkt. 65, at 96). The Texas
Intervenors moved to strike them as inadmissible hearsay. (Id.). The Texas Intervenors also objected
that they lacked a meaningful opportunity to contest the content of the declarations. (Id. at 96–97).
The Court took the evidentiary objections under advisement. (Id. at 7).

21

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 22 of 113
23a
The Court will now deny the State’s and the Texas Intervenors’ evidentiary objections. For
preliminary injunctions, courts may less strictly follow the rules of admissibility and even may rely on
inadmissible evidence. See, e.g., Sierra Club, Lone Star Chapter v. F.D.I.C., 992 F.2d 545, 551 (5th Cir.
1993) (“Furthermore, at the preliminary injunction stage, the procedures in the district court are less
formal, and the district court may rely on otherwise inadmissible evidence, including hearsay
evidence.”); Null v. Wainwright, 508 F.2d 340, 344 (5th Cir. 1975) (“Strict evidentiary rules of
admissibility are generally relaxed in bench trials, as appellate courts assume that trial judges rely
upon properly admitted and relevant evidence.”). The Court will examine the evidence presented
and make determinations, whether explicit or implicit, about whether to rely on that evidence as it
makes its findings of fact and conclusions of law.
To the extent the State or the Texas Intervenors believe they lacked a meaningful
opportunity to contest evidence, the Court notes that a full evidentiary hearing was held on October
1, 2021, at which the State, for example, presented deposition testimony from when the State crossexamined declarants for the United States and had a meaningful opportunity to present and refute
evidence. (See Minute Entry, Dkt. 61). The Court reminds the Texas Intervenors that they did not
file their motion to intervene, (Dkt. 28), until two weeks after this case was filed; the Court
expedited its consideration of that motion; and the Court allotted them 30 minutes at the hearing (as
compared to the one hour given to each party) to present evidence or argument. (See Order Denying
Mot. Reconsideration, Dkt. 53, at 1–2). Taking into account the compressed schedule, the Court
provided the Texas Intervenors, like the parties, a meaningful opportunity to present and refute the
evidence.
B. Motion to Dismiss
“The statutory scheme [in S.B. 8] is not only unusual, but unprecedented.” Jackson, 2021 WL
3910722, at *1 (Roberts, C.J., concurring). The intent of this scheme, according to its drafters, was
22

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 23 of 113
24a
to stymie judicial review and ensure that no private party would be able to bring a pre-enforcement
suit to challenge the constitutionality of the law. See supra Section II(B). Thus far, this tact has been
effective—the Supreme Court denied a private, pre-enforcement preliminary injunction against S.B.
8, and the law has been in effect for over a month. See id. at *3 (Sotomayor, J., dissenting). The
United States seeks to establish that its distinct, sovereign interests in upholding the supremacy of
the Constitution, safeguarding constitutional rights, ensuring the availability of judicial review, and
protecting the work of federal agencies all warrant its opportunity to sue in this Court. Based on the
following analysis, the Court holds that the United States indeed has standing to file its lawsuit with
this Court
1. Standing
The first question this Court must answer is whether the United States has the authority to
sue Texas to enjoin S.B. 8 in federal court. Article III of the Constitution confines the federal
judicial power to the resolution of “Cases” and “Controversies.” Raines v. Byrd, 521 U.S. 811, 819
(1997). For there to be a case or controversy, the plaintiff must have a “personal stake” in the case.
Id. A personal stake exists when three requirements are met: The plaintiff must show (i) that the
injury it suffers is concrete, particularized, and actual or imminent; (ii) that the injury was likely
caused by the defendant; and (iii) that the injury would likely be redressed by judicial relief. See Lujan
v. Defenders of Wildlife, 504 U.S. 555, 560–61 (1992) (stating the three elements of Article III standing).
The standing requirements are heightened somewhat in a motion for a preliminary injunction, where
the plaintiff must make a “clear showing” that she has standing to maintain the preliminary
injunction. Barber v. Bryant, 860 F.3d 345, 352 (5th Cir. 2017). However, “[t]he injury alleged . . . need
not be substantial; it need not measure more than an identifiable trifle.” OCA-Greater Hous. v. Texas,
867 F.3d 604, 612 (5th Cir. 2017) (quotations omitted).

23

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 24 of 113
25a
The United States asserts that S.B. 8 injures the federal government in two ways. (Mot.
Prelim. Inj., Dkt. 8, at 12). First, it claims S.B. 8 unconstitutionally impairs the United States’
responsibilities under federal law to provide abortion-related services in certain circumstances.
(Compl., Dkt. 1, at 2). Specifically, it argues S.B. 8 will expose the United States and its third-party
contractors to liability and increased costs for providing abortion-related services to persons in the
care and custody of federal agencies.21 Second, the United States asserts that it is “injured by Texas’s
attempt to circumvent its obligations under the federal Constitution” and “thwarting mechanisms of
judicial review provided by federal law.” Id. It contends it possesses the authority to sue when a state
violates the federal government’s interest in upholding the Constitution and injures the federal
government’s sovereignty. (Mot. Prelim. Inj., Dkt. 8, at 22).
a. Injury-in-Fact
The first requirement of Article III standing doctrine is that the plaintiff’s injury be concrete,
particularized, and actual or imminent. Lujan, 504 U.S. at 560–61. An injury is “concrete” if it is
“real, and not abstract.” TransUnion LLC v. Ramirez, 141 S. Ct. 2190, 2204 (2021) (citing Spokeo, Inc. v.
Robins, 136 S. Ct. 1540, 1549 (2016)). Certain harms readily qualify as concrete injuries under Article
III, including traditional tangible harms such as physical or monetary injury. Id. However, a harm
need not be tangible to be concrete; various intangible harms can meet this requirement, including
violations of constitutional rights, such as freedom of speech or the free exercise of religion. Spokeo,
136 S. Ct. at 1549; TransUnion, 141 S. Ct. at 2204. A harm is particularized if the plaintiff has
personally suffered the harm. Lujan, 504 U.S. at 560 n.1. Finally, a harm is actual or imminent if the
harm has happened or is sufficiently threatening, not merely if it may occur at some future time. Id.
at 564.

The United States offers as examples of federal agencies impacted by S.B. 8 the Department of Labor, the
Office of Refugee Resettlement, the Bureau of Prisons, the Centers for Medicare and Medicaid Services, the
Office of Personnel Management, and the Department of Defense. (Compl., Dkt. 1, at 15–24).
21

24

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 25 of 113
26a
i. Injury-in-Fact to Federal Agencies and Programs
Insofar as S.B. 8 impedes the federal government’s ability to provide abortion-related
services mandated by regulations, statutes, and case law, the United States has met its burden to
demonstrate a concrete, particularized, and actual injury. See id. at 561 (“The party invoking federal
jurisdiction bears the burden of establishing these elements.”). This Court finds that S.B. 8
concretely injures the United States by prohibiting federal personnel and contractors from carrying
out their obligations to provide abortion-related services and subjecting federal employees and
contractors to civil liability for aiding and abetting the performance of an abortion. (Mot. Prelim.
Inj., Dkt. 8, at 17).
By imposing damages liability of $10,000 or more on any person performing, inducing,
aiding, or abetting an abortion, S.B. 8 exposes the federal government, its employees, and its
contractors to monetary injury. See TransUnion, 141 S. Ct. at 2204 (stating that certain harms readily
qualify as concrete injuries, such as monetary injury). Under S.B. 8, these employees and contractors
must choose between facing this civil liability and damages or violating federal regulations, statutes,
or case law. For example, the Federal Bureau of Prisons (“BOP”) regulations provide that a BOP
prison’s Clinical Director “shall arrange for an abortion to take place” when a pregnant inmate
requests an elective abortion. 28 C.F.R. § 551.23(c) (emphasis added). BOP further bears all costs of
providing an abortion “in the case of rape or incest.” (See McLearen Decl., Dkt. 8-10, at 3–4). S.B. 8,
however, may result in civil liability even when the pregnancy was caused by rape, sexual assault, or
incest. Tex. Health & Safety Code § 171.208(j) (providing only that civil actions “may not be
brought by a person” who impregnated, through rape, sexual assault, or incest, the individual
seeking an abortion).
Several other agencies of the federal government are similarly impacted by S.B. 8. The
United States Marshals Service (“USMS”) offers individuals in its custody the opportunity to seek
25

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 26 of 113
27a
elective abortions. (Sheehan Decl., Dkt. 8-11, at 2). The Department of Defense (“DoD”) has a
statutory obligation to provide abortion services in cases where the pregnant person’s life would be
endangered by carrying the fetus to term, or in instances of rape or incest. 10 U.S.C. §§ 1074;
1093(a). The Department of Health and Human Services’ Office of Refugee Resettlement (“ORR”)
may not interfere with access to a pre-viability abortion for unaccompanied minors in the agency’s
custody. J.D. v. Azar, 925 F.3d 1291, 1338 (D.C. Cir. 2019). Indeed, the ORR must provide access to
abortion services when requested and permitted by law. (De La Cruz Decl., Dkt. 8-12, at 5). The
Department of Labor’s (“DOL”) Job Corps program employs private contractors that are
contractually obligated to inform Job Corps participants about their options to terminate a
pregnancy. (Matz Decl., Dkt. 8-14, at 2–3, 5–6; Torres Decl., Dkt. 8-13, at 3–4). The Office of
Personnel Management (“OPM”), which manages the health benefits of federal employees,
annuitants, and other statutorily eligible individuals, has contracts with providers that offer abortion
procedures in certain circumstances. (Bodenheimer Decl., Dkt. 8-15, at 2). Finally, the Medicaid
program in Texas, which is a cooperative state-federal program administered by Centers for
Medicare & Medicaid Services (“CMS”), may be required to cover abortions that are deemed
medically necessary. 42 U.S.C. § 1396d(a)(1)–(2); (Costello Decl., Dkt. 8-16, at 4).
Crediting the declarations of the administrators of the BOP, USMS, DoD, ORR, DOL,
OPM, and CMS—and taking into account the regulations, statutes, and cases governing the
abortion-related services provided by these agencies—this Court finds that the federal government
indeed provides services that would subject federal employees and contractors to civil liability under
S.B. 8. As S.B. 8 forces these agencies to choose between facing civil damages or providing the
mandated services, this Court further finds that the United States suffers a concrete injury to its
ability to effectuate these services and programs. The injury is particularized as the impacted
agencies are agencies of the federal government. Finally, the harm is actual—S.B. 8 took effect at
26

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 27 of 113
28a
midnight on September 1, 2021. See Jackson, 2021 WL 3910722, at *3 (Sotomayor, J., dissenting).
Several of the United States’ agency administrator declarants stated that upon S.B. 8 taking effect,
they would be required to begin transporting those in their custody or care in Texas to out-of-state
locations to receive abortion services, which would increase the cost of providing those services and
possibly subject the agencies to civil liability for providing this transport. (See McLearen Decl., Dkt.
8-10, at 5–6; Sheehan Decl., Dkt. 8-11, at 4–5; De La Cruz Decl., Dkt. 8-12, at 7; Torres Decl., Dkt.
8-13, at 5–6; Matz Decl., Dkt. 8-14, 5–6). Overall, this Court finds that S.B. 8 subjects the United
States to an injury-in-fact insofar as the United States provides abortion-related services to persons
in the care or custody of federal agencies.
ii. Parens Patriae Standing
The next question is whether the United States suffers an injury-in-fact such that it has
standing to challenge a potential violation of Constitutional rights that not only impacts federal
agencies, but the public at large. The United States argues that it possesses a “sovereign interest” in
ensuring that States are not able to enact laws in plain violation of the Constitution. There is no
doubt that harms to the exercise of Constitutional rights is a concrete harm for Article III purposes.
See generally Pleasant Grove City, Utah v. Summum, 555 U.S. 460 (2009) (permitting a suit based on a
violation of free speech rights); Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520
(1993) (permitting a suit based on a violation of the Free Exercise Clause). It is further without
question that any harm posed to the United States by the enactment of S.B. 8 is actual; as stated
above, the law went into effect at midnight on September 1, 2021. The primary question, then, is
whether the United States indeed has an interest in ensuring States may not enact laws that likely
violate the Constitution such that the injury is particularized.
States have long had the authority to sue private defendants to vindicate citizens’ rights, and,
in doing so, to vindicate the interests of the state as a sovereign. See, e.g., State of Georgia v. Tennessee
27

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 28 of 113
29a
Copper Co., 206 U.S. 230, 237–38 (1907) (holding that Georgia could sue a private company over the
release of noxious fumes because Georgia had an interest “independent of and behind the titles of
its citizens” in preventing pollution that endangered the state’s ecosystem). This authority of states
to sue private defendants in parens patriae also extends to protecting federal rights.22 See, e.g., Georgia v.
Pennsylvania Railroad Co., 324 U.S. 439, 451 (1945) (authorizing Georgia to sue a private company for
violations of federal antitrust laws because “Georgia, as a representative of the public, is complaining
of a wrong which, if proven, limits the opportunities of her people, shackles her industries, retards
her development, and relegates her to an inferior economic position among her sister states . . .
Georgia’s interest is not remote—it is immediate”).
The State asserts that parens patriae standing is limited to state governments. (Resp., Dkt. 43,
at 18). However, this assertion is demonstrably incorrect. In Massachusetts v. Mellon, the Supreme
Court indicated in dicta that the United States may also sue to vindicate federal rights. Indeed, as the
Supreme Court noted, states may not sue the federal government to enforce their citizens’ federal
rights because “[i]n that field, it is the United States, and not the State, which represents [its citizens]
as parens patriae when such representation becomes appropriate, and to the former, and not to the
latter, they must look for such protective measures as flow from that status.” Commonwealth of Mass. v.
Mellon, 262 U.S. 447, 485–86 (1923). The Supreme Court lent further credence to this concept when
it relied on the dicta in Mellon to deny Florida leave to file a suit in parens patriae against the United
States for instituting an allegedly unconstitutional tax. Florida v. Mellon, 273 U.S. 12, 18 (1927); see also
South Carolina v. Katzenbach, 383 U.S. 301, 324 (1966) (citing Mellon in support of the proposition that
a “State does not have standing as the parent of its citizens to invoke these constitutional provisions

Parens patriae—literally “parent of the country”—refers traditionally to the role of state as sovereign and
guardian of persons under legal disability. Alfred L. Snapp & Son, Inc. v. Puerto Rico, ex rel., Barez, 458 U.S. 592,
600 (1982) (citing Black's Law Dictionary 1003 (5th ed. 1979)).
22

28

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 29 of 113
30a
against the federal government, the ultimate parens patriae of every American citizen”). The Fifth
Circuit recently reinforced the concept that states may not sue the federal government in parens
patriae to enforce Constitutional rights because the federal government is the ultimate parens patriae
when it comes to enforcement of the Constitution. Brackeen v. Haaland, 994 F.3d 249, 292 n.13
(2021) (rehearing en banc) (quoting Katzenbach, 383 U.S. at 324).
The United States has standing to file suit in parens patriae for probable violations of its
citizens’ Constitutional rights. As stated in Pennsylvania Railroad, States can sue in parens patriae to
vindicate their citizens’ federal rights against private parties. But the dicta in Mellon (and the
subsequent case law relying on this dicta) clarifies that states’ standing to sue in parens patriae for
violations of federal and Constitutional rights does not extend to suits against the federal
government because, in that arena, the federal government’s interest in protecting its citizens’ rights
overrides the state interest. Id. This preclusion of state standing necessarily implies the existence of
federal standing. But this Court need not solely rely on this inference. The principle is stated
outright: while states may sue in parens patriae in support of federal and constitutional rights in certain
instances, the United States is the “ultimate parens patriae.” Id. When it comes to violations of the
federal and constitutional rights of U.S. citizens, the United States has standing to represent “[its
citizens] as parens patriae,” and it is to the United States they “look for such protective measures as
flow from that status.” Mellon, 262 U.S. at 485–86.
Having established that the United States has the authority to file this suit in parens patriae, it
is necessary to identify the character of the federal government’s particular interest. The Supreme
Court has stated that to maintain an action in parens patriae, a state “must articulate an interest apart
from the interests of particular private parties, i.e., the State must be more than a nominal party.”
Snapp, 458 U.S. at 607. One way to establish this interest is by expressing a “quasi-sovereign
interest,” which is a “judicial construct that does not lend itself to a simple or exact definition,” but
29

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 30 of 113
31a
generally refers to “a set of interests that the State has in the well-being of its populace.” Id. at 601–
02, 607 (noting, for example, that a state has a quasi-sovereign interest “in the health and well-being .
. . of its residents” and “in not being discriminatorily denied its rightful status within the federal
system”).
A sovereign interest also may support a parens patriae suit. Pennsylvania v. New Jersey, 426 U.S.
660, 666 (1976) (denying Pennsylvania leave to file a suit in parens patriae because “[n]o sovereign or
quasi-sovereign interests” of the state were implicated); Com. Of Pa. v. Porter, 659 F.2d 306, 315 (3d
Cir. 1981) (noting that a suit by Pennsylvania in parens patriae was advancing the state’s “significant
sovereign interest” in preventing violations of its citizens’ constitutional rights); South Carolina v.
North Carolina, 558 U.S. 256, 266 (2010) (stating that “when a State is a party to a suit involving a
matter of sovereign interest, it is parens patriae and it must be deemed to represent all [of] its
citizens”) (internal quotations omitted).
The United States sets out in its reply brief that it does not “principally” rely on parens patriae
as a basis for standing because “it is suing to vindicate the government’s own interest.” (Reply, Dkt.
56-1, at 2 n.1). Possessing a sovereign or quasi-sovereign interest is, in fact, a requirement to sue in
parens patriae. The United States, although it does not explicitly rely on parens patriae to support its
standing argument, argues that it possesses both quasi-sovereign and sovereign interests in this suit.
(See Compl., Dkt. 1, at 5). Regarding quasi-sovereign interests, the United States asserts that its
interest in ensuring its citizens can invoke the power of the federal courts to vindicate their rights is
a quasi-sovereign interest “in the health and well-being” of its citizens and “in not being . . . denied
its rightful status within the federal system.” (Id. (citing Snapp, 458 U.S. at 601–02)). The State, in
response, argues that S.B. 8 is “not hazardous to women’s health.” (Resp., Dkt. 43, at 19). However,
this Court need not address the merits of these arguments. Instead, it finds that the United States
possesses an indisputably sovereign interest sufficient to support its standing in this lawsuit.
30

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 31 of 113
32a
The United States argues that it has a “profound sovereign interest” in vindicating its citizens
constitutional rights and ensuring those rights “remain redeemable in federal court.” (Compl., Dkt.
1, 4–5). It asserts that it has a weighty interest in protecting the supremacy of the Constitution by
opposing laws that shield violations of U.S. citizens’ constitutional rights from federal judicial
review. (Reply, Dkt. 56-1, at 7). In response, the State contends that a sovereign interest in ensuring
states do not violate the Constitution cannot support Article III standing. The State supports that
argument by suggesting that sovereign injuries are limited to those described in Snapp, which include
interests in “the exercise of sovereign power over individuals” and “the power to create and enforce
a legal code.” (Resp., Dkt. 43, at 20) (citing Snapp, 458 U.S. at 601). However, sovereign interests are
not limited to those discussed in Snapp. The Supreme Court has found, for example, that a state has
a sovereign interest in ensuring it receives “an equitable share of an interstate river’s water.” South
Carolina, 558 U.S. at 274; see also New Jersey v. New York, 345 U.S. 369, 374–75 (1953). As another
example, it is also a sovereign interest for a state to protect its economy from deceptive mortgage
practices. See Nevada v. Bank of America Corp., 672 F.3d 661, 671 (2012). The interests that were
sufficient in these examples pale in comparison to the interest the United States asserts here—none
of those interests involved the potential for large-scale violations of constitutional rights and
frustration of core constitutional principles.
The State also asserts that the United States’ interest in the case is nominal and insufficient
to establish parens patriae standing. (Resp., Dkt. 43, at 18). However, the claim that the United States’
interest in this case is merely nominal is unfounded. Federal courts have held that states suing in
parens patriae hold “significant sovereign interests of [their] own in” preventing violations of their
citizens’ constitutional rights. Porter, 659 F.2d at 315. Indeed, an interest in upholding the legitimacy
of the constitution and vindicating the constitutional rights of United States citizens is arguably even
more significant when the party seeking to do so is the federal government. See Sanitary Dist. of
31

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 32 of 113
33a
Chicago v. United States, 266 U.S. 405, 426 (1925) (noting that the United States’ sovereign interest in
enforcing constitutional provisions “seem to be stronger than those that have established a similar
standing for a state”).23 Further, the concept of parens patriae—the government as the parent of the
country—fits cleanly within the fundamental principles underlying the very sovereignty of the
United States. “The government of the Union, then . . . is, emphatically, and truly, a government of
the people . . . [i]ts powers are granted by them, and are to be exercised directly on them, and for their
benefit.” U.S. Term Limits, Inc. v. Ray Thornton, 514 U.S. 779, 839 (1995) (Kennedy, J., concurring)
(quoting M’Culloch v. Maryland, 4 Wheat. 316 404–05 (1819)) (emphasis added). The United States is
a government chartered by the people, and its sovereignty is conditioned on its ability to safeguard
the rights of its citizens. Thus, when, as here, a state appears to deprive individuals of their
constitutional rights by adopting a scheme designed to evade federal judicial review, the United
States possesses sovereign interest in preventing such a harm. This interest is sufficient to establish a
particularized injury.
iii. In Re Debs Standing
While this Court finds the doctrine of parens patriae sufficient to establish the United States’
injury for standing purposes, this Court finds, in the alternative, that the concepts underpinning In
Re Debs and its progeny likewise establish a particularized injury to sovereign interests of the United
States. Debs arose out of the Pullman rail strike of 1894. The Supreme Court held that the United
States had the authority to sue private parties for injunctive relief as the strike was obstructing
interstate commerce. In Re Debs, 158 U.S. 564, 584 (1895). In support of the United States’ interest

The United States cites—and the State does not directly dispute the applicability of—Vt. Agency of Nat.
Ress. v. United States ex rel. Stevens. 529 U.S. 765 (2000); (see also Reply, Dkt. 56-1, at 2; Hr’g Tr., Dkt. 65, at 14).
While Vermont was a qui tam relator case in which an individual was suing on behalf of the federal
government over violations of federal law, the case is instructive here, as it states “[i]t is beyond doubt that
the complaint asserts an injury” to the sovereignty of the United States “arising from violations of its laws.”
Vt. Agency of Nat. Ress., 529 U.S. at 771.
23

32

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 33 of 113
34a
in the case, the Supreme Court stated, “[t]he obligations which [the United States] is under to
promote the interest of all, and to prevent the wrongdoing of one resulting in injury to the general
welfare, is often sufficient to give it a standing in court.” Id. at 584.24 This suggests the type of
interest sufficient to give the United States standing can be interpreted broadly to encompass harms
to the public interest and general welfare.
Lower courts have had differing interpretations of the interests that can establish standing
under Debs. Some have given Debs an expansive reading, suggesting it offers the United States
standing to sue whenever an alleged harm affects the public at large. See, e.g., United States v. Brand
Jewelers, Inc., 318 F. Supp. 1293, 1296 (S.D.N.Y. 1970); Porter, 659 F.2d at 316–17 n.15. Others have
cited Debs in support of standing based on more specific interests, such as national security and
proprietary interests. See, e.g., United States v. Marchetti, 466 F.2d 1309, 1313 (4th Cir. 1972); United
States v. Allen, 179 F. 13, 17 (8th Cir. 1910). Perhaps the most common reading of Debs is that it
offers the United States standing when there are obstructions to interstate commerce. See, e.g., United
States v. City of Montgomery, 201 F. Supp. 590, 594 (M.D. Ala. 1962) (finding the United States had
standing based on large-scale obstructions to interstate commerce); United States v. Solomon, 563 F.2d
1121, 1129 (4th Cir. 1977) (declining to rely on Debs to establish standing because the case did not
involve a “factor of interstate commerce”).

This Court notes that Debs was decided before the Supreme Court thought of standing and cause of action
as analytically distinct concepts; indeed, it was not until the Supreme Court decided Fairchild v. Hughes in 1922
that the Supreme Court began directly addressing the “right to sue” as such. Fairchild v. Hughes, 258 U.S. 126,
129 (1922) (finding that the plaintiff’s “alleged interest in the question submitted is not such as to afford a
basis for this proceeding”). This Court finds that relevance of Debs to this case is primarily in its discussion of
non-statutory, equitable causes of action. (Reply, Dkt. 56-1, at 5). Therefore, the bulk of this Court’s analysis
of Debs occurs in its discussion of the United States’ cause of action in Section IV(B)(2), infra. However, while
Debs did not directly address standing, subsequent opinions have relied on Debs to determine the
government’s interest in the proceedings for standing purposes. As such, this Court’s use of Debs to address
standing will rely heavily on courts’ interpretations of Debs in subsequent cases.
24

33

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 34 of 113
35a
The State asserts that Debs and its progeny do not support the United States’ standing
argument, stating that the case stands for the limited proposition that the United States may sue to
protect its proprietary interest in the mails and its statutory authority over interstate rail commerce,
and that these narrowly defined interests are not present here. (Resp., Dkt. 43, at 20) (citing Debs,
148 U.S. at 583–84). However, the language of Debs itself does not support such a limited view of
the United States’ interests in the case. The Supreme Court explicitly stated that it declined to “place
[its] decision upon” the proprietary interest ground alone. Debs, 158 U.S. at 584. The Court further
stated that the national government has an interest in “brush[ing] away all obstructions to the
freedom of interstate commerce or the transportation of the mails,” not merely those obstructions
over which the United States has statutory authority. Id. Several of the subsequent cases that have
relied on Debs to establish the government’s standing have not read Debs to require that the
government’s interest be based on a statute. See, e.g., Brand Jewelers, 318 F. Supp. at 1297; Marchetti,
466 F.2d at 1313; United States v. City of Jackson, Miss., 318 F.2d 1, 15 (5th Cir. 1963) (noting that a
“proprietary interest provides a non-statutory basis for standing of private persons and would
provide a basis for the United States to sue . . .”).25
Neither the Supreme Court nor the Fifth Circuit have expressly limited Debs’s implications
for standing, at times offering both more expansive and confined readings of the scope of the
interests supported by Debs. See, e.g., Hopkins Fed. Sav. & Loan Ass'n v. Cleary, 296 U.S. 315, 339
(1935) (citing Debs in support of government standing when the interest at issue involves a matter
“of grave public concern”); Wyandotte Transp. Co. v. United States, 389 U.S. 191, 201 (1967) (stating the
“United States may sue to protect its interests,” which include “ensuring . . . routes of commerce

While the State is correct in noting that Jackson’s subsequent history left open the question of whether the
United States has standing to sue under Debs absent congressional authorization, the subsequent history does
not overrule the Fifth Circuit’s statements in Jackson regarding the government’s standing to sue without a
statutory basis.
25

34

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 35 of 113
36a
over which it has assumed control, remain free of obstruction”) Sanitary Dist. of Chicago v. United
States, 266 U.S. at 426 (noting Debs offered the government standing to remove obstructions to
interstate commerce); Fla. E. Coast Ry. Co. v. United States, 348 F.2d 682, 685 (5th Cir. 1965) (same);
City of Jackson, 318 F.2d at 14 (same). Furthermore, in cases where the Supreme Court or the Fifth
Circuit relied on a more limited reading of Debs, they did not do so to the exclusion of a broader
reading.
In the absence of additional guidance from the Supreme Court and the Fifth Circuit as to the
scope of Debs’s standing analysis, this Court finds that Debs supports standing where the
government’s interest is preventing harms to “the general welfare” and the “public at large.”26 The
United States has demonstrated that its interest in this case does relate to such harms. The same
sovereign interests that supported the United States’ standing argument in parens patriae are
applicable here. The United States’ interest in vindicating its citizens constitutional rights and
ensuring those rights “remain redeemable in federal court” fits within the broad interest Debs
articulated in preventing harms that affect the public broadly. (See Compl., Dkt. 1, 4–5).
However, this Court notes that were Debs’s progeny to be read narrowly to support standing
only in cases involving interstate commerce, the United States has likewise demonstrated an interest
sufficient to establish standing. In Debs, the Supreme Court found the United States had standing to
sue regarding protests that interfered with interstate commerce. Debs, 158 U.S. at 582. This Court
finds that S.B. 8 interferes with interstate commerce. Congress acknowledged that abortion
implicates interstate commerce when it enacted a ban on “partial-birth abortions.” See 18 U.S.C. §
1531(a). And the particular features of S.B. 8 burden interstate commerce even beyond the impacts
of traditional legislation. By extending liability to persons anywhere in the country, S.B. 8’s structure

While the interests that form the basis for standing under Debs may be broad, the types of suits the United
States may institute based on these interests are subject to limiting principles. See infra, Section IV(B)(2).
26

35

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 36 of 113
37a
all but ensures that it will implicate commerce across state lines—whether through insurance
companies reimbursing Texas abortions, banks processing payments, medical device suppliers
outfitting providers, or persons transporting patients to their appointments. (Compl., Dkt. 1, at 13).
In addition to imposing liability on those coming into Texas, the law has also already had the effect
of pushing individuals seeking abortions into other states. (See Br. of Amici, Dkt. 9-1, at 25–26). This
stream of individuals across state lines burdens clinics in nearby states and impedes pregnant
individuals in surrounding states from accessing abortions due to backlogs. (See Tong Decl., Dkt. 86; Cowart Decl., Dkt. 8-7; Rupani Decl., Dkt. 8-8; Yap Decl., Dkt. 8-9). These harms to interstate
commerce are independently sufficient to support the United States’ right to sue in this case.
b. Causation
The second requirement of Article III standing is that the plaintiff’s injury was likely caused
by the defendant. Lujan, 504 U.S. at 560–61. The causal connection must be such that the injury is
“fairly traceable” to the challenged action of the defendant. Id. The United States has established
that the passage of S.B. 8 caused immediate injury to interests of the United States. Its interests
include ensuring that federal agencies can follow statutes, regulations, and judicial decisions
instructing them to provide abortion-related services without the agencies being subject to liability.
S.B. 8 going into effect also harmed the United States’ sovereign interest in upholding the supremacy
of the Constitution and ensuring that citizens may access their constitutional rights. S.B. 8 taking
effect immediately chilled pregnant individuals from accessing their constitutional right to an
abortion and discouraged abortion providers from providing services, even before a single private
lawsuit was ever filed to enforce the law. (Hagstrom Miller Decl. I, Dkt 8-4, at 2 – 3; Gilbert Decl.,
Dkt. 8-2, at 12–14; Linton Decl., Dkt. 8-5, at 7–9; see also supra Section II(A). The state’s contrary
suggestion, that this chilling of access to abortion rights is a “counterintuitive theory,” minimizes
legitimate and serious constitutional injury. (See Resp., Dkt. 43, at 46).
36

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 37 of 113
38a
The State argues that the Supreme Court’s decision in Muskrat precludes the United States
from identifying the State as the source of its injuries. According to the State, Muskrat prohibits
federal courts from hearing “a proceeding against the government in its sovereign capacity” when
“the only judgment required is to settle the doubtful character of the legislation in question.” (Resp.,
Dkt. 43, at 1) (quoting Muskrat v. United States, 219 U.S. 346, 361–62 (1911)). The State asserts that
Muskrat stands for the principle that federal courts may not hear cases to determine the
constitutionality of a statute that the sovereign itself is not enforcing, because any injury based on
such a statute is not traceable to future action of the state. (Id. at 4–5).
But the State’s characterization of Muskrat’s holding is taken out of context and, in any
event, Muskrat does not apply here. In Muskrat, the Supreme Court assessed whether Congress could
artificially create standing for an action between parties that were not truly adverse to one another to
test the constitutionality of a law. Muskrat, 219 U.S. at 350. In 1906, Congress passed a law that
“undertook to increase the number of [Native Americans] entitled to share in the final distribution
of lands and funds” authorized by an earlier statute. Id. at 248. Disputes arose over the
constitutionality of the 1906 law, and so, in 1907, Congress passed another Act purporting to offer
standing to four individuals to sue the United States—which was to distribute the lands and funds
under the 1906 law—to test the law’s constitutionality. Id. at 348–50. However, the United States did
not have interests adverse to those of the plaintiffs; it did not seek to dispute the constitutionality of
the law or the plaintiffs’ right to receive the land and funds. Id. at 361. Congress, in manufacturing
this cause of action, was setting the stage for the Court to issue an advisory opinion on the
constitutionality of the 1906 law, and advisory opinions have been “disapproved by this Court from
the beginning.” Steel Co. v. Citizens for a Better Environment, 523 U.S. 83, 101 (1998) (citing Muskrat, 219
U.S. at 362). Therefore, the central theme of Muskrat is that Congress may not artificially
manufacture standing for a plaintiff to sue a non-adverse party, because to do so would, in essence,
37

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 38 of 113
39a
require a federal court to issue an advisory opinion. Muskrat, 219 U.S. at 357. The case does not, as
the State suggests, act as a general bar from establishing standing in federal courts when a sovereign
defendant claims it cannot be held responsible for implementing and enforcing its own laws. The
State merely asserting that it is absolved of any enforcement liability does not mean that it did not
cause a constitutional injury.
Furthermore, taking Muskrat in context, the holding does not apply here. Congress has not
purported to legislatively manufacture standing for the United States to test the constitutionality of
S.B. 8. Nor is the United States seeking an advisory opinion from this Court on the law’s
constitutionality. The United States’ suit against the State is an Article III “case or controversy.”
Interests of the United States—such as its interest in protecting federal agencies and programs from
liability, and its sovereign interest in upholding the Constitution—have already been directly harmed
by the State’s implementation of S.B. 8, and the United States seeks to enjoin the state and state
actors from continuing to engage in actions that harm those interests. Muskrat does not prevent the
United States from establishing standing in this lawsuit.
c. Redressability
The issue of redressability in this case is interwoven with the cause-of-action analysis, the
central question being whether a suit in equity is an appropriate and available remedy for the United
States.
2. Cause of Action
S.B. 8 was deliberately crafted to avoid redress through the courts. (See generally Newman
Decl., Dkt. 8-3). Yet it is this very unavailability of redress that makes an injunction the proper
remedy—indeed, the only remedy for this clear constitutional violation. No cause of action created
by Congress is necessary to sustain the United States’ action; rather, traditional principles of equity
allow the United States to seek an injunction to protect its sovereign rights, and the fundamental
38

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 39 of 113
40a
rights of its citizens under the circumstances present here. This case strikes at the core function of
the equitable cause of action, as, “[w]hether acting through its judiciary or through its Legislature, a
state may not deprive a person of all existing remedies for the enforcement of a right, which the
state has no power to destroy, unless there is, or was, afforded to him some real opportunity to
protect it.” Brinkerhoff-Faris Tr. & Sav. Co. v. Hill, 281 U.S. 673, 682 (1930). The American legal
system cannot abide a situation where constitutional rights are only as good as the states allow—
“[t]o impose on [the United States] the necessity of resorting to means which it cannot control,
which another government may furnish or withhold, would render its course precarious, the result
of its measures uncertain, and create a dependence on other governments, which might disappoint
its most important designs . . . .” M’Culloch v. Maryland, 4 Wheat. 316, 424 (1819).
a. The Foundations of the Equitable Remedy
Equitable remedies have a long been established as tools available to courts, predating the
Constitution itself. See Irvine v. Marshall, 61 U.S. 558, 565 (1857) (“[C]ases in equity are to be
understood [as] suits in which relief is sought according to the principles and practice of the equity
jurisdiction, as established in English jurisprudence”). The federal judicial power extends to “all
cases, in law and equity, arising under [the] Constitution[,]” U.S. CONST. art. III, § 2, through which
grant of authority “adopt[s] equitable remedies in all cases . . . where such remedies are appropriate.”
Paine Lumber Co. v. Neal, 244 U.S. 459, at 475 (1917). As Justice Scalia has explained, suits in equity to
“enjoin unconstitutional actions by state and federal officers” are a judge-made remedy deeply
rooted in American jurisprudence, reflecting “a long history of judicial review . . . , tracing back to
England.” Armstrong v. Exceptional Child Ctr., Inc., 575 U.S. 320, 327 (2015) (quoting Jaffe &
Henderson, Judicial Review and the Rule of Law: Historical Origins, 72 L.Q. REV. 345 (1956)).
The State is mistaken in searching for a blueprint of the cause of action here. For the United
States’ cause of action is a creature of equity, a centuries-old vehicle which eschews categorical
39

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 40 of 113
41a
definition. That remedy is available where no adequate remedy exists at law; any attempt to codify
such situations would be futile, and likely require powers of clairvoyance which no legislator
possesses. Relying on Grupo Mexicano de Desarrollo S.A. v. All. Bond Fund, Inc., 527 U.S. 308 (1999), the
State argues for limiting equitable actions to the exact claims available at common law. (Resp., Dkt.
43, at 14). That reliance, however, is misplaced. Grupo Mexicano at most stands for the proposition
that federal courts have jurisdiction over suits in equity, in which the broad equitable remedies that
predate the Constitution remain available. The formal source of that jurisdiction is codified in the
Judiciary Act of 1789, as discussed in Grupo Mexicano. However, the principle itself is broader and is
not defined by that Act. Indeed, by the time he returned to the question in Armstrong, Justice
Scalia—the author of Grupo Mexicano—had dispensed with any need to locate this power in the
Judiciary Act. Nowhere in the latter case did he cite to the Judiciary Act. Rather, he wrote of general
equitable powers “tracing back to England,” translating to the “judge-made remedy” in the federal
courts. Armstrong, 575 U.S. at 327. It is the essential nature of equity that it is not subject to strict
limitations, unless and until Congress acts directly to restrict it.
Equity exists independent of any remedies conferred under state law, as, “[t]he Federal
courts . . . are not limited to the remedies existing in the courts of the respective states, but are to
grant relief in equity according to the principles and practice of the equity jurisdiction as established
in England.” Paine Lumber, 244 U.S. at 476; see Robinson v. Campbell, 16 U.S. 212, 222–23 (1818)
(“[T]he remedies in the courts of the United States, are to be, at common law or in equity,
not according to the practice of state courts, but according to the principles of common law and
equity, as distinguished and defined in that country from which we derive our knowledge of those
principles.”). Indeed, “[t]he right to equitable relief does not depend upon the nature or source of
the substantive right whose violation is threatened, but upon the consequences that will flow from
its violation.” Paine Lumber, 244 U.S. at 476; see Holland v. Challen, 110 U. S. 15, 25, (1884) (“If the
40

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 41 of 113
42a
controversy be one in which a court of equity only can afford the relief prayed for, its jurisdiction is
unaffected by the character of the questions involved.”).
Far from a novel vehicle, “injunctive relief has long been recognized as the proper means for
preventing entities from acting unconstitutionally.” Corr. Servs. Corp. v. Malesko, 534 U.S. 61, 74
(2001). And the action in equity is “unlike the Bivens remedy, which [courts] have never considered
a proper vehicle for altering” unconstitutional regulations.27 Id. That an equitable action is available
to challenge a violation of the United States’ sovereignty does not rest on judicial or congressional
recognition of a right of action under the specific constitutional right at issue. See Free Enter. Fund v.
Pub. Co. Acct. Oversight Bd., 561 U.S. 477, 491 n.2 (2010) (“The Government asserts that petitioners
have not pointed to any case in which this Court has recognized [a] . . . right of action directly under
. . . the Appointments Clause or separation-of-powers principles. . . . If the Government's point is
that [such a] claim should be treated differently than every other constitutional claim, it offers no
reason and cites no authority . . . .”) (quotations omitted); see Bell v. Hood, 327 U.S. 678, 684 (1946)
(“[I]t is established practice for [the Supreme] Court to sustain the jurisdiction of federal courts to
issue injunctions to protect rights safeguarded by the Constitution.”).
b. Unavailability of Remedies at Law
Equitable remedies are appropriate where “in the particular case the threatening effects of a
continuing violation . . . are such as only equitable process can prevent.” Paine Lumber, 244 U.S. at
476. That is, an injunction is appropriate where required by the “ends of justice”: where “the remedy
in equity could alone furnish relief.” Watson v. Sutherland, 72 U.S. 74, 79 (1866). A state may not,
within its authority, legislate in a manner that deprives its citizens of the avenues of redress required
under the constitution. See, e.g., McKesson Corp. v. Div. of Alcoholic Beverages & Tobacco, Dep't of Bus.

The State attempts to analogize to Bivens v. Six Unknown Federal Narcotics Agents, 403 U.S. 388 (1971), and its
progeny in its objections to this suit. (Resp., Dkt. 43, at 23 n.7). But this case is not an action for damages, so
the limitations on Bivens actions and other damages actions have no bearing here.
27

41

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 42 of 113
43a
Regul. of Fla., 496 U.S. 18, 31 (1990) (“If a State places a taxpayer under duress promptly to pay a tax
. . . and relegates him to a postpayment refund action in which he can challenge the tax’s legality, the
Due Process Clause of the Fourteenth Amendment obligates the State to provide meaningful
backward-looking relief to rectify any unconstitutional deprivation.”); Reich v. Collins, 513 U.S. 106,
111 (1994) (“[W]hat a State may not do . . . is to reconfigure its scheme, unfairly, in midcourse—to
“bait and switch,” . . . . Georgia held out what plainly appeared to be a ‘clear and certain’
postdeprivation remedy . . . and then declared, only after Reich and others had paid the disputed
taxes, that no such remedy exists.”); cf. Webster v. Doe, 486 U.S. 592, 603 (1988) (“[Section] 102(c)
may [not] be read to exclude review of constitutional claims. . . . [W]here Congress intends to
preclude judicial review of constitutional claims its intent to do so must be clear. . . . ‘[S]erious
constitutional question[s]’ . . . would arise if a federal statute were construed to deny any judicial
forum for a colorable constitutional claim.”) (internal citations omitted). The federal courts cannot
abide state foreclosure of judicial review of constitutional claims.
When no other remedy is available, by statutory right or otherwise provided by law,
traditional principles of equity remain to ensure that fundamental rights are protected. Indeed,
“‘[e]quity suffers not a right to be without a remedy.’” CIGNA Corp. v. Amara, 563 U.S. 421, 440
(2011) (quoting R. Francis, Maxims of Equity 29 (1st Am. ed. 1823)). Where the State has acted
deliberately to remove all possible remedies at law, equity remains available to vindicate federal
rights. See Paine Lumber Co., 244 U.S. at 474 (noting that an equitable remedy is available where
Defendants acted with “malice . . . in the intentional doing of an unlawful act, to the direct damage
of another, without just cause or excuse”). Equitable relief is not appropriate in all—or even most—
circumstances; but where it is called for, there is no doubt as to its propriety:
The Constitution of the United States does not declare in terms that infringements of the
rights thereby secured may be prevented by injunction. Ordinarily they may not be. It is only
where a threatened infringement will produce injury and damage for which the law can
afford no remedy—such, for instance, as irreparable and continuing damage, . . . —that
42

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 43 of 113
44a
resort may be had to equity; and when this does appear, the right to an injunction arises
because that is the only appropriate relief.
Paine Lumber Co., 244 U.S. at 476–77. Put simply, “[t]he absence of a plain and adequate remedy at
law affords the only test of equity jurisdiction . . . .” Watson, 72 U.S. at 79.
Here, S.B. 8 is deliberately structured so that no adequate remedy at law exists by which to
test its constitutionality. By purporting to preclude direct enforcement by state officials, the statutory
scheme is intended to be insulated from review in federal court.28 The State itself concedes that the
law’s terms proscribe review by the federal courts, limiting review to state court alone. (Resp., Dkt.
43, at 27).29 And even in state court, the opportunities for review are severely constrained. By
limiting the defenses that a defendant may raise in state court, the law’s authors effectively cut off
any hope that a defendant will prevail. See supra at II(A)(3)(b). The State makes much of potential
defendants’ ability to challenge the constitutionality of the statute in state court. (Resp., Dkt. 43, at
27, 36, 45, 50). However, the law itself prohibits defendants from raising the defense that they
believed the law to be unconstitutional. Tex. Health & Safety Code § 171.208(e)(2). And by
preventing defendants from recovering any attorney’s fees in the event that they prevail, the law
winnows down the class of individuals financially able to sustain the litigation—even if they are sure
to prevail. Moreover, the scheme provides no mechanism for suit by pregnant persons seeking
abortions, the individuals most affected by the law. Given these circumstances, the Court finds that
redress at law is likely unavailable in federal court and is likely unavailable through the state courts as

The State’s invocation of United States v. Madison County Board of Education, 326 F.2d 237 (5th Cir. 1964),
misses the point. The issue in that case was not the general authority of the federal government to bring an
equitable action, but the propriety of it doing so when the challenged statute provided a remedy—review in
the federal courts of appeals. Id. at 242. Here, federal judicial review is not merely “inadequate,” id., it is
unavailable.
29 The State also offers the possibility that a suit could make its way to federal court if filed against a federal
officer, who then elected to remove the suit. This possibility is open to only a small subset of potential
defendants, and as such cannot suffice to render review available.
28

43

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 44 of 113
45a
well. Thus, this is a paradigmatic case in which equitable remedies are necessary vindicate a
fundamental constitutional right.
c. The United States as a Plaintiff in Equity
The United States is well within its authority to bring this suit, as “the Constitution
contemplates suits among the members of the federal system” including those “commenced and
prosecuted against a State in the name of the United States[.]” Alden v. Maine, 527 U.S. 706, 755–56
(1999). Such a power is inherent in the very “constitutional duty” of the Executive to “take Care that
the Laws be faithfully executed.” Id. (quoting U.S. CONST. art. II, § 3). The United States may, as
may any private plaintiff with standing, resort to equity to protect its interests. As the Fifth Circuit
wrote in City of Jackson:
[T]here is no reason to restrict the Nation's non-statutory rights of action within the same
limits established for private persons. The Constitution cannot mean to give individuals
standing to attack state action inconsistent with their constitutional rights but to deny to the
United States standing when States jeopardize the constitutional rights of the Nation. Or
that the United States may sue to enforce a statute but not sue to preserve the fundamental
law on which that statute is based. Or that the United States may sue to protect a proprietary
right but may not sue to protect much more important governmental rights, the existence
and protection of which are necessary for the preservation of our Government under the
Constitution.
318 F.2d at 15–16. The State notes that in a subsequent denial of rehearing en banc, two judges
limited their concurrences so that they did “not reach the question whether the United States would
have standing to sue under the Commerce Clause [or the Fourteenth Amendment of the
Constitution] absent all of these enactments of the Congress.” .” (See Resp., Dkt. 43, at 30) (citing
United States v. City of Jackson, Miss., 320 F.2d 870, 872–73 (5th Cir. 1963) (Bootle, J., specially
concurring); accord. id. at 873 (Ainsworth, J., specially concurring)). However, as the United States
correctly notes, that subsequent history does not alter the precedential value of the decision and its
reasoning, even if the judges ultimately relied on different ground in that instance. (Reply, Dkt. 59, at
16). And, as the United States further notes, the Fifth Circuit subsequently relied on City of Jackson as
44

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 45 of 113
46a
support for the constitutional bases for suits by the United States in the public interest. (Id.) (citing
Fla. E. Coast Ry., 348 F.2d at 685).
Where appropriate, as here, federal courts have not hesitated to grant injunctions sought by
the United States to vindicate otherwise unprotected constitutional rights, even when no cause of
action is provided by statute. This relief is premised on the basic principle, articulated in Debs, that
“[e]very government, intrusted by the very terms of its being with powers and duties to be exercised
and discharged for the general welfare, has a right to apply to its own courts for any proper
assistance in the exercise of the one and the discharge of the other . . . .” 158 U.S. at 584. The Court
has recognized the authority of the United States to sue in equity when its own proprietary interests
are at stake. See, e.g., United States v. San Jacinto Tin Co., 125 U.S. 273 (1888); Wyandotte Transp. Co., 389
U.S. at 201 (“Our decisions have established . . . the general rule that the United States may sue to
protect its interests.”). And courts have held that interference with interstate commerce can
constitute a national interest of sufficient weight as to sustain appeals to equity by the United States.
See supra Section IV(B)(1)(a)(iii). Indeed, “[n]o delicate touch is required in weighing unlawful state
action against national policy. This is doubly true in a constitutional area, interstate commerce, in
which the Federal Government has unquestioned paramount interest. . . . Under [the Commerce
Clause] there is authority for the United States to sue without specific congressional authorization.”
City of Jackson, 318 F.2d at 13–14. In Debs, the Court enjoined protests that interfered with interstate
commerce, explaining that “[t]he strong arm of the national government may be put forth to brush
away all obstructions to the freedom of interstate commerce . . .” 158 U.S. at 582;30 see Sanitary
District of Chicago, 266 U.S. at 425–26 (“The United States is asserting its sovereign power to regulate

To the extent that the State claims Debs should be limited as authority to cases involving interstate
commerce, (Resp., Dkt. 43, at 20–21), the Court there made clear that it did not intend its reasoning to be so
limited, cautioning, “[w]e do not care to place our decision upon this ground alone.” Debs, 158 U.S. at 584.
30

45

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 46 of 113
47a
commerce [and uphold its treaty obligations] . . . . [I]n matters where the national importance is
imminent and direct even where Congress has been silent the States may not act . . . .”).
Courts have long embraced the principle that United States can sue in equity to right a
“grievous wrong upon the general public . . . .” United States v. Am. Bell Tel. Co., 128 U.S. 315, 357
(1888); see also Robbins v. United States, 284 F. 39, 46, (8th Cir. 1922) (“[N]ational policy is involved of
protecting the public in traveling within the park, and in such a case, injunction is the proper
remedy.”). This right inheres in such extreme cases where “the wrongs complained of are such as
affect the public at large, and are in respect of matters which by the constitution are intrusted to the
care of the nation, and concerning which the nation owes the duty to all the citizens of securing to
them their common rights . . . .” Debs, 158 U.S. at 586. For example, in Debs, the Court recognized
the authority of the United States to enjoin the Pullman strikes when they constituted a fundamental
threat to interstate commerce, an area of chief federal concern. Id. at 564. The United States may
properly turn to the courts for an injunction “[w]hen a State, not by some sporadic act against a
particular individual but by a law or pattern of conduct, takes action motivated by a policy which
collides with national policy as embodied in the Constitution,” and when “the action of a State
violative of the Fourteenth Amendment conflicts with the Commerce Clause and casts more than a
shadow on the Supremacy Clause . . . .” City of Jackson, 318 F.2d at 14.
The State questions the strength of Debs as authority for this suit, but its objections are
misplaced. It cites Solomon, 563 F.2d at 1127, for the proposition that Debs requires a statutory
interest in order to provide a cause of action. (Resp., Dkt. 43, at 21).31 The State misreads both Debs
and Solomon in so arguing. In Solomon, the controversy involved “no factor of interstate commerce[,]”

The State also cites the concurrence of Judge Tamm in Clark v. Valeo, 559 F.2d 642, 654 (D.C. Cir. 1977),
for the same point. (See Resp., Dkt. 43, at 21). This case is entirely inapposite, as it dealt with interbranch
conflict over the interpretation of election regulations and was dismissed as unripe. The considerations
relevant to executive interference in election administration raise a host of concerns related to separation of
powers and justiciability that are not present here.
31

46

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 47 of 113
48a
nor injury to “the public at large,” nor a “situation that constitutes a national emergency.” Solomon,
563 F.2d at 1129. By contrast, here the offending law implicates interstate commerce. See supra
Section IV(B)(1)(a)(iii). Its harms affect the public at large, as it affects any person with reproductive
capacity, who engages in sexual contact with a person with reproductive capacity, or who can
conceivably be sued under S.B. 8. See supra at II(A)(3)(a). Further, it has, in just over one month, had
a “truly catastrophic” effect. (Gilbert Decl., Dkt. 8-2, at 13). Likewise, the State’s claim that Debs is
limited to claims to abate a public nuisance is incorrect. (Resp., Dkt. 43, at 28). By its own terms,
Debs speaks of a broader federal authority: “The entire strength of the nation may be used to enforce
in any part of the land the full and free exercise of all national powers and the security of all rights
intrusted by the constitution to its care.” Debs, 158 U.S. at 582. When a public nuisance interferes
with “the full and free exercise” of federal power, then an equitable action provides a remedy. But a
public nuisance is far from the only way in which “the security of all rights intrusted by the
constitution” may be imperiled. Debs, 158 U.S. at 582.32
These objections aside, the Court need not go so far as to endorse the broadest reading of
Debs to find a substantial likelihood of success here. First, the United States can be expected to use
its discretion in deciding to commence the significant, and potentially politically damaging,
undertaking of a suit in equity in federal court. See Alden, 527 U.S. at 751 (“When the Federal
Government asserts authority over a State's most fundamental political processes, it strikes at the
This case is also unlike the post Armstrong, 575 U.S. 320, cases, where courts have declined to read in
statutory causes of action where none are provided by the legislature. See Safe Streets All. v. Hickenlooper, 859
F.3d 865, 903 (10th Cir. 2017) (“[T]o determine whether a private plaintiff may enforce the [Controlled
Substances Act], we must first determine whether that plaintiff has substantive rights in the CSA that he or
she is seeking to vindicate.”). Here, the constitutional right to abortion under the Fourteenth Amendment is
firmly established, and is rooted in the Constitution rather than a legislative grant. See infra Section IV(C).
Unlike the statutory grants at issue in the Armstrong line, abortion is a substantive, enforceable right sufficient
to sustain an action for equitable relief for its protection. Similarly, the holding of Armstrong itself, that there is
no independent cause of action under the Supremacy Clause, has no bearing here, where the United States
does not purport to bring suit under that clause. Rather, it moves under the equitable cause of action available
to parties with standing who can show an ongoing violation of federal law—which Justice Scalia recognized
in Armstrong, 575 U.S. at
32

47

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 48 of 113
49a
heart of the political accountability so essential to our liberty and republican form of government.”).
Moreover, the confluence of circumstances here is unlikely to be repeated with such frequency as to
overwhelm the courts. The United States offers three limiting principles to determine when the
United States may bring a suit in equity to vindicate the rights of citizens: (1) a state law violates the
constitution, (2) that state action has a widespread effect, and (3) the state law is designed to
preclude review by the very people whose rights are violated. (See Hr’g Tr., Dkt. 65, at 24). The
Court expresses no opinion as to whether there may be other considerations apparent in future cases
that will call for further limiting the availability of equitable relief. However, under the circumstances
present here, it is substantially likely that the equitable cause of action has firm support, and the
United States may seek an injunction against the State.
The final factor identified by the United States will likely carry the most weight, as states can
be expected not to deliberately deprive their citizens of redress through the courts. It is the rare case
in which direct actions by the state lead directly and indisputably to a deprivation of fundamental
federal rights.33 But in the unlikely event that the state behaves so egregiously that it actively
infringes constitutional protections, then the United States may properly sue to enjoin the offensive
action. The Fifth Circuit has affirmed this principle, granting equitable relief to the United States
“[w]hen a State, not by some sporadic act against a particular individual but by a law or pattern of
conduct, takes action motivated by a policy which collides with national policy as embodied in the
Constitution.” City of Jackson, 318 F.2d at 14; cf. Ex parte Hull, 312 U.S. 546, 549 (1941) (invalidating a
prison regulation requiring court documents to pass through an internal review process before being

The State cites City of Philadelphia, where the Third Circuit declined to allow the Attorney General to enjoin
purportedly unconstitutional policies of the city’s police department based in part on its fear of sanctioning
unconstrained executive interference with local policing. 644 F.2d at 201. The court there worried that to
allow federal enforcement under the circumstances there would endorse “standards . . . so vague as to lack
real content.” Id. By contrast, here there is a clear metric by which to assess the propriety of the United States’
suit: the presence of deliberate state action in violation of the supremacy of the federal government and
Constitution.
33

48

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 49 of 113
50a
filed because “the state and its officers may not abridge or impair petitioner's right to apply to a
federal court for a writ of habeas corpus”); Burton v. Wilmington Parking Authority, 365 U.S. 715, 725
(1961) (“By its inaction, . . . the State, has not only made itself a party to the [challenged action], but
has elected to place its power, property and prestige behind the admitted discrimination. [It] has so
far insinuated itself into a position of interdependence . . . that it must be recognized as a joint
participant . . . .”); Brinkerhoff-Faris Tr., 281 U.S. at 678–79 (where state law administrative remedy
was futile, but state court refused to hear case due to failure to exhaust administrative remedies,
equitable relief in federal court was appropriate; and “[i]f the result above stated were attained by an
exercise of the state's legislative power, the transgression of the due process clause of the Fourteenth
Amendment would be obvious”).
Above all, it is the intentional design of the law by state actors for the chief purpose of
avoiding judicial review that sets it apart—and makes it particularly likely to be appropriate for this
Court to enjoin. Indeed, there have been many examples of unconstitutional state laws attempting to
restrict abortion—not to mention laws in other areas—in which private parties have successfully
challenged through the ordinary operation of judicial review. See, e.g., June Med. Servs., LLC v. Russo,
140 S. Ct. 2103 (2020); Hellerstedt, 136 S. Ct. at 2320; Stemberg v. Carhart, 530 U.S. 914 (2000); Planned
Parenthood of Se. Pa. v. Casey, 505 U.S. 883 (1992); Webster v. Reprod. Health Servs., 492 U.S. 490 (1989);
Thornburgh v. American Coll. of Obstetricians and Gynecologists, 476 U.S. 747 (1986); City of Akron v. Akron
Ctr. for Reprod. Health, 462 U.S. 416 (1983); Colautti v. Franklin, 439 U.S. 379 (1979); Planned Parenthood
v. Danforth, 428 U.S. 52 (1976). The United States has not brought suit over any of these laws, nor
should it have had to. But when the machinations of the state effectively cut off private access to the
federal courts, and the other factors identified by the United States are present, the situation may
warrant resort to an equitable action by the United States.

49

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 50 of 113
51a
There can be no doubt that S.B. 8 was a deliberate attempt by lawmakers, notably its author,
State Senator Bryan Hughes, to “find another way” around resistance to enforcement of laws
criminalizing abortion. (Newman Decl., Dkt. 8-3, at 5) (citing Jenna Greene, Column: Crafty Lawyering
on Texas Abortion Bill Withstood SCOTUS Challenge, REUTERS (Sept. 5, 2021), https://reuters.com
/legal/government/crafty-lawyering-texas-abortion-bill-withstood-scotus-challenge-greene-2021-0905/).34 Hughes has openly described his motivation to avoid judicial review that would invalidate
S.B. 8, stating, “[w]e were going to find a way to pass a heartbeat bill that was going to be upheld.”
(Id. at 9) (citing Jacob Gershman, Behind Texas Abortion Law, an Attorney’s Unusual Enforcement Idea,
THE WALL ST. J. (Sept. 4, 2021), https://www.wsj.com/articles/ behind-texas-abortion-law-anattorneys-unusualenforcement-idea-11630762683). Jonathan Mitchell, who conceived of the bill,
pledged to lawmakers that S.B. 8 would “have a fighting chance, and will have a better chance than a
regular heartbeat law” to avoid, not by its content but by it structure, being invalidated as
unconstitutional. (Id. at 17) (citing Michael S. Schmidt, Behind the Texas Abortion Law, a Persevering
Conservative Lawyer, N.Y. TIMES (Sept. 12, 2021), https://www.nytimes.com/2021/09/12/us/
politics/texas-abortion-lawyerjonathan-mitchell.html). State actors worked deliberately to craft a
statutory scheme that would avoid review by the courts, and thereby circumvent any
pronouncement of its unconstitutionality. The words of the Debs Court are perhaps even more
fitting in this case: “[i]f ever there was a special exigency, one which demanded that the courts

Hughes described the law as “a very elegant use of the judicial system”; others called it “creative lawyering”
on the part of Jonathan Mitchell—the law’s architect. (Newman Decl., Dkt. 8-3, at 5). Hughes and Mitchell
spearheaded a conference call between Hughes, Mitchell, and other legislators at which Mitchell convinced
the group to back the law. (Id. at 17). Beginning with local ordinances designed to ban abortion while
insulating municipalities from footing the bill for litigation, Mitchell set out to “counter the judiciary’s
constitutional pronouncements” protecting the right to abortion (Id. at 14–15). Mitchell was “galvanized” to
formulate the “more radical concepts” underlying the law by what he considers “political branches [that] have
been too willing to cede control of constitutional interpretation to the federal judiciary.” (Id. at 13–14).
Mitchell sought to show “that the states need not adopt a posture of learned helplessness in response to
questionable or unconstitutional rulings.” (Id. at 15).
34

50

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 51 of 113
52a
should do all that courts can do, it was disclosed by this bill . . . .” 158 U.S. at 592. Without
endorsing the breadth of the principle in Debs, equity allows the United States to sue when other
remedies are deliberately withheld by the State.
d. The Lack of Statutory Basis
Finally, equitable remedies need not be rooted in an act of Congress. Defendants make
much of the lack of a statutory cause of action under which the United States may sue. However,
“[t]he principles of equity exist independently of, and anterior to, all congressional legislation.”
United States v. Detroit Timber & Lumber Co., 200 U.S. 321, 339 (1906). As Justice Miller explained,
“[t]he powers of the executive officers of England are . . . vested in the executive officers of the
United States” not automatically but as “defined by law, constitutional or statutory,” such “that to one or
both of these sources we must resort . . . .” San Jacinto Tin Co., 125 U.S. at 307–08 (quoting the case of
The Floyd Acceptances, 7 Wall. 676 (1868)) (emphasis added). And the absence of statutory language
enshrining these equitable principles in law cannot alone diminish their force. The Supreme Court
has “frequently cautioned that [i]t is at best treacherous to find in congressional silence alone the
adoption of a controlling rule of law.” United States v. Wells, 519 U.S. 482, 496 (1997); see Pension Ben.
Guar. Corp. v. LTV Corp., 496 U.S. 633, 650 (1990) (discussing how congressional “inaction lacks
‘persuasive significance’ because ‘several equally tenable inferences’ may be drawn . . . .”) (quoting
United States v. Wise, 370 U.S. 405, 411 (1962)); see Helvering v. Hallock, 309 U.S. 106, 119–20 (1940)
(“To explain the cause of non-action by Congress when Congress itself sheds no light is to venture
into speculative unrealities.”). Thus, the absence of a statutory cause of action should not be equated
with a decision by Congress to withhold a cause of action.
The State makes much of legislative history from the 1950s and 1960s regarding a statutory
cause of action for the Attorney General to bring equitable actions to enforce Fourteenth
Amendment rights. (Resp., Dkt. 43, at 46). In United States v. City of Philadelphia, the Third Circuit
51

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 52 of 113
53a
looked to debates regarding three provisions that Congress considered and ultimately did not pass.
644 F.2d 187, at 193–97 (3d Cir. 1980). It took that history to evince a legislative intent “to deny the
government the right of action here.” Id. at 197. But that history has little bearing on the action here.
City of Philadelphia and the legislative debates it cites must be understood in their respective contexts.
The legislative debates in the 1950s and 1960s were concerned exclusively with enforcement of the
Civil Rights Acts of 1957, H.R. 6127, 85th Cong. (1957), the Civil Rights Act of 1960, H.R. 8601,
86th Cong. (1960), and the Civil Rights Act of 1964, H.R. 7152, 88th Cong. (1964). Those statutes
were addressed at countering racial discrimination specifically, just as the City of Philadelphia litigation
itself concerned racially discriminatory policing practices subject to the civil rights statutes. City of
Philadelphia, 644 F.2d at 190. The legislative debates at issue occurred between 1957 and 1964,
placing them a decade before the Supreme Court first recognized the right to abortion in Roe v.
Wade, 410 U.S. 113 (1973). Congress could not have considered and declined to provide a cause of
action relating to the right to abortion before the right itself had ever been recognized. The
implication that these legislators intended to express any opinion at all regarding a right that did not
yet exist, in discussions relating specifically to the Civil Rights Acts, borders on the absurd.
The legislators there could not have contemplated the possibility, much less intended, that
their discussions regarding civil rights enforcement would have the effect of ousting other
constitutional rights. In considering enforcement of the Civil Rights Acts, Congress took pains to
ensure that adequate procedural mechanisms were available. See, e.g., City of Philadelphia, 644 F.2d at
194 (“[Congress] provided several criminal and civil actions. In s 9 of the Civil Rights Act of 1866, . .
. it even authorized the President to call out the military ‘to prevent the violation and enforce the
due execution of this Act.’”); id. at 197 (“The Judiciary Committee deleted the proposed Title III and
reported H.R. 7152 with a substitute designed to authorize the Attorney General under certain
circumstances to sue to enjoin racial segregation in public facilities owned or operated by a state or
52

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 53 of 113
54a
local government.”). But by providing for enforcement in this single area, it in no way precluded any
mechanisms for constitutional enforcement in other areas. This legislative history cannot stand for
the proposition that there is no cause of action when the state has acted, as it has here, to actively,
aggressively, and deliberately deprive its citizens of a constitutional right.
While the reasoning of City of Philadelphia may be faulty in its breadth—and to the extent that
it purports to speak to all litigation under the Fourteenth Amendment, see id. at 196—the result is
correct. There, unlike here, no freestanding right to relief in equity existed because a remedy was
available at law. Here, no such remedy is available because of the state’s decision to foreclose any
avenue of relief. There, ordinary enforcement mechanisms whereby citizens could vindicate their
federal rights had not been curtailed by the state. Instead, “Congress ha[d] enacted a comprehensive
remedial scheme while deliberately refusing to create the right of action asserted here.” City of
Philadelphia, 644 F.2d at 199–200. A private right of action remained under the Civil Rights Acts. Id.
at 206. Indeed, the Court provided a laundry list of available mechanisms by which the injuries
arising out of unlawful policing practices could be remedied: (1) private suits against “state officials
for damages or injunctive relief under 42 U.S.C. §§ 1981, 1982, 1983, and 1985;” (2) class actions on
the same bases; (3) private actions against the city under Owen v. City of Indep., 445 U.S. 622 (1980),
and Monell v. Dep’t of Soc. Servs. of the City of N.Y., 436 U.S. 658 (1978); (4) private injunctive actions
which had “been maintained successfully against ‘widespread’ violations committed by local law
enforcement officials;” and (5) criminal prosecutions by the United States for constitutional
violations under 18 U.S.C.A. §§ 241 and 242. City of Philadelphia, 644 F.2d at 192–93. There can be
no claim that no remedies at law existed for the injuries there, even if the efficacy of those remedies
is less than clear. The same cannot be said here. And, in particular, it is the deliberate action by the
State to foreclose all private remedies that separates this case from City of Philadelphia. Thus, the

53

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 54 of 113
55a
legislative history discussed in City of Philadelphia cannot be taken as evidence of legislative intent to
foreclose the equitable cause of action here.
Neither does the private right of action under § 1983 foreclose this suit.35 There is no
evidence that § 1983 was meant to displace suits brought by the United States. That mechanism is
designed to empower private plaintiffs in their suits against state officers; it is not a tool for the
United States as plaintiff. See Hernandez v. Mesa, 140 S. Ct. 735, 747 (2020) (“[T]he limited scope of §
1983 weighs against recognition of the Bivens claim” as both provide analogous remedies to private
parties). Section 1983 in no way divests the United States of its existing cause of action in equity, nor
scales back that equitable authority. The equitable cause of action predates the private cause of
action and would have continued to exist whether § 1983 had been enacted. Moreover, it would
have been antithetical to the purposes of § 1983 to, by the same legislative act, restrict the United
States’ ability to protect against the constitutional ills targeted by the private right of action. And if
these principles were ever in doubt, the State provides no evidence whatsoever for its affirmative
defense that Congress intended to supersede preexisting equitable remedies through its enactment of
§ 1983. See, e.g., United States v. Haggerty, 997 F.3d 292, 299 (5th Cir. 2021) (“[A]n affirmative defense .
. . must first be raised by a defendant—i.e., the defendant bears the burden of pleading and
production . . . .”).
Further, under the State’s construction, the United States would have less of a claim to
enforce the Fourteenth Amendment than other parts of the constitution. (See Hr’g Tr., Dkt. 65, at

The United States correctly notes, (see Reply, Dkt. 59, at 10), that the legislative debates at issue in City of
Philadelphia took place were nearly a century after Congress created the § 1983 individual cause of action for
constitutional violations as part of the Ku Klux Klan Act of 1871. See Monroe v. Pape, 365 U.S. 167, 171 (1961).
This substantial gap in time counsels against reading § 1983 together with the debates at issue in Philadelphia as
support for an implicit denial of a cause of action for the United States. See Gomez-Perez v. Potter, 553 U.S. 474,
486 (2008) (“Negative implications raised by disparate provisions are strongest’ in those instances in which
the relevant statutory provisions were ‘considered simultaneously when the language raising the implication
was inserted.”) (quotations omitted).
35

54

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 55 of 113
56a
26). This cannot be the case. The suggestion is particularly troubling given the context in which the
Fourteenth Amendment was passed and ratified. The history of Reconstruction is populated with
instances of states failing to protect the constitutional rights of their citizens. See, e.g., McDonald v.
City of Chi., Ill., 561 U.S. 742, 857 (2010) (Thomas, J., concurring) (chronicling the history of lynching
of Black people following the Civil War); Briscoe v. LaHue, 460 U.S. 325, 337 (1983) (“[Ku Klux]
Klan outrages—arson, robbery, whippings, shootings, murders, and other forms of violence and
intimidation. . . . went unpunished . . . because Klan members and sympathizers controlled or
influenced the administration of state criminal justice.”); Strauder v. State of W. Va., 100 U.S. 303, 310
(1879) (“[T]he statute of West Virginia, discriminating in the selection of jurors, as it does, against
negroes because of their color, amounts to a denial of the equal protection of the laws to a colored
man when he is put upon trial for an alleged offence against the State . . . .”). This abdication of duty
led to the ratification of the Fourteenth Amendment, an attempt to use federal power and
affirmative federal enforcement to protect those abandoned, if not targeted, by the states. Indeed,
the Department of Justice itself was created in this same period to serve these same ends.36 Thus, the
power to sue to vindicate the constitutional rights of citizens against states that would infringe them
strikes at the core of the mandate of the Department of Justice, and the essence of the Fourteenth
Amendment.
As to abortion regulations specifically, the State cites the cause of action provided to the
Attorney General in the Freedom of Access to Clinic Entrances Act of 1993, H.R. 796, 103rd Cong.
(1993) (codified at 18 U.S.C. § 248(c)(2)(A)), as evidence that Congress has contemplated all of the
potential rights of action it could create related to abortion and has “refused to create a broader
cause of action for the Attorney General.” (Resp., Dkt. 43, at 16). Yet this is only one narrow
36

See Bryan Greene, Created 150 Years Ago, the Justice Department’s First Mission Was to Protect Black Rights,
SMITHSONIAN MAG. (July 1, 2020), https://www.smithsonianmag.com/history/created-150-years-agojustice-departments-first-mission-was-protect-black-rights-180975232/.

55

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 56 of 113
57a
provision addressed to a single issue within the much broader field of abortion rights. To suggest
that Congress has given its final word on the subject of abortion through this single statute would
read far more into that enactment than could have plausibly been intended. Abortion is a robust
right, implicating numerous areas of potential regulation. Yet there is remarkably little legislation on
the subject. Indeed, it is the lack of comprehensive federal regulation of abortion that makes the
State’s invocation of statutory causes of action regarding desegregation—a densely regulated area—
particularly inapt. (Resp., Dkt. 43, at 48) (citing 42 U.S.C. §§ 2000b(a), 2000c-6(a)). The absence of a
legislatively created cause of action should not be taken to be more than it is: a lack of Congressional
action one way or the other, with no effect on the preexisting equitable cause of action. Because
Congress has not acted, nothing about this action in equity supersedes any act of Congress. Rather,
it is the State that attempts by this law to supersede the Supremacy Clause and the Fourteenth
Amendment.
The Court finds the United States is substantially likely to establish a cause of action in
equity against the State.
3. Scope of Relief
The State’s deliberate attempts to evade federal judicial review extend to the form and scope
of relief that may be afforded by this Court. The United States seeks a preliminary and permanent
injunction against the State prohibiting the enforcement of S.B. 8. (Compl., Dkt. 1, at 26).
Specifically, the United States seeks to enjoin three categories of obligors: (1) the State, (2) state
actors, and (3) private individuals. (Id.). Based on the analysis below, the Court concludes it has the
authority to enjoin the State, its officials, and private individuals.
a. Application to the State of Texas
Prior to the ratification of the U.S. Constitution, and over the centuries since its ratification,
politicians, scholars, and judges have debated the extent to which federal courts may hear and grant
56

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 57 of 113
58a
relief in a lawsuit against a state. The Constitution and our system of government and laws were
structured to protect state sovereignty for many important reasons, including the desire to uphold
federalism and preclude the national government from “act[ing] upon and through the States.” The
Federalist No. 15 at 109 (Alexander Hamilton). The Eleventh Amendment states: “The Judicial
power of the United States shall not be construed to extend to any suit in law or equity, commenced
or prosecuted against one of the United States by Citizens of another State, or by Citizens or Subject
of any Foreign State.” U.S. CONST. amend. XI. Although the Eleventh Amendment somewhat
minimally protects states from suit, “the Constitution’s structure, its history, and the authoritative
interpretations by [the Supreme] Court make clear, the States’ immunity from suit is a fundamental
aspect of [state] sovereignty.” Alden, 527 U.S. at 755. State sovereignty is not unbounded. States are
“residuary sovereigns,” and “States and their officers are bound by obligations imposed by the
Constitution . . . that comport with the constitutional design.” Id. at 748, 755.
Within that framework, the threshold question in this Court’s sovereign immunity analysis—
whether the State is shielded from an equitable suit brought by the United States—presents virtually
no complications. The Supreme Court has explained in no uncertain terms that “[i]n ratifying the
Constitution, the States consented to suits brought by other States or by the Federal Government.”
Alden, 527 U.S. at 755; see also United States v. Mississippi, 380 U.S. 128 (1965) (“The reading of the
Constitution urged by Mississippi [that a state cannot be sued by the United States] is not supported
by precedent, is not required by any language of the Constitution, and would without justification in
reason diminish the power of courts to protect the people of this country against deprivation and
destruction by States of their federally guaranteed rights.”). For the same reasons, the State is not

57

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 58 of 113
59a
shielded by the principle of sovereign immunity from this equitable lawsuit by the United States,
and, quite reasonably, the State does not contend otherwise.37
Even in the absence of a dispute, this Court briefly examines the rationale for why a state
yields its sovereignty to the federal government as it guides the Court’s analysis. In Alden, the
Supreme Court discussed the history and contours of state sovereign immunity at length. 527 U.S. at
712–30, 41–48. While recognizing Maine’s sovereign powers derive from the structure of our
Constitution, the Supreme Court clarified that the “constitutional privilege of a State to assert its
sovereign immunity in its own courts does not confer upon the State a concomitant right to
disregard the Constitution or valid federal law.” Id. at 754–55. The Court continued: “We are
unwilling to assume the States will refuse to honor the Constitution . . . . The good faith of the
States thus provides an important assurance that ‘[t]his Constitution, and the Laws of the United
States which shall be made in Pursuance thereof . . . shall be the supreme Law of the Land.’” Id. at
755 (quoting U.S. CONST. art. VI). Here, the State—by fashioning S.B.8 to insulate it from federal
judicial review and then enacting it as law despite its apparent deprivation of a recognized
constitutional right—appears to be intentionally doing the very thing the Supreme Court was
unwilling to fathom.
Satisfied that the United States has standing to seek injunctive relief to vindicate the rights of
its citizens, uphold the primacy of the Constitution, and safeguard our republic’s system of law
against the State’s aggressively defiant acts, this Court holds that it has the authority to enjoin the
State of Texas. The State offers virtually no rebuttal, other than to argue that it must understand
“who is supposed to do what” in the face of an injunction.38 (Mot. Dismiss, Dkt. 50-2, 15–16). The

The Court notes that S.B. 8 claims the State “has sovereign immunity . . . in any equitable action that
challenges the validity of [S.B. 8] on constitutional grounds or otherwise.” Tex. Health & Safety Code §
171.211(b).
38 The State’s role demonstrates the United States’ injuries are fairly traceable and redressable by the State as
explained supra Section IV(B)(2), (3).
37

58

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 59 of 113
60a
Court generally agrees. To that end, the Court asked the State during the preliminary injunction
hearing: “[I]f the Court were to enjoin the state of Texas from giving effect to this statute, what
would you believe that would obligate you to do, if anything?” (Hr’g Tr., Dkt. 65, at 89–90). The
State responded:
Honestly, I’m not sure and I think that’s part of the problem. If it just says the state
of Texas standing alone and our position, I think correctly, is that the state of Texas
is not enforcing this, then I would hope that we could get some kind of further
clarity from the Court about what exactly the Court intends. I don’t know if any -- I
don’t mean to suggest that anyone would want to do anything that could lead to
contempt. Again, I’m not sure. It’s hard to imagine what it -- like should I call state
court judges and tell them to be on the lookout for these filings?
(Id. at 90). The State effectively conceded that its employees, like state judges, have a role to play if
the Court were to issue an injunction against the State.
Indeed, the State has its prints all over the statute. The operation and enforcement of S.B. 8
requires the State and its employees to act, whether those acts are the maintenance of a lawsuit or
carrying out a court order regarding the enforceability of S.B. 8. The State enacted S.B. 8 when
Governor Abbott signed it into law; the law represents the State’s pre-viability abortion policy; the
State chose to partially delegate its enforcement authority to private individuals; and the State’s
judiciary accepts and hears S.B. 8 lawsuits. See, e.g., (Resp., Dkt. 43, at 49–50) (explaining how the
State, through S.B. 8, chose to regulate abortion care: “Texas has not banned all pre-viability
abortions,” and “Texas has enacted a private cause of action”). And the State continues to defend
S.B. 8, disclaiming responsibility by pointing the finger at the private individuals who the State
deputized as enforcers. The State’s disavowal of S.B. 8 is unconvincing. Employing a private cause
of action neither relieves the State of its obligations to enforce and maintain its own law nor
exempts the State from this federal court’s authority to impose an injunction.
The Supreme Court recognized that states cannot avoid the preservation of constitutional
rights through a scheme of deflection in Cooper v. Aaron, 358 U.S. 1 (1958). In Cooper, the Little Rock
59

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 60 of 113
61a
schools sought to delay mandated desegregation largely because of the unrest caused by Arkansas’s
governor whose troops blocked Black students from entering a white high school in 1957. Id. at 17.
“Had Central High School been under the direct management of the State itself, it could hardly be
suggested that those immediately in charge of the school should be heard to assert their own good
faith as a legal excuse for delay in implementing the constitutional rights of these respondents, when
vindication of those rights was rendered difficult or impossible by the actions of other state officials.
The situation here is in no different posture because the members of the School Board and the
Superintendent of Schools are local officials; from the point of view of the Fourteenth Amendment,
they stand in this litigation as the agents of the State.” Id. at 15–16. Quoting from Ex parte Virginia,
100 U.S. 339, 347 (1879), the Supreme Court explained that ‘“[a] State acts by its legislative, its
executive, or its judicial authorities . . . . Whoever, by virtue of public position under a State
government, . . . denies or takes away the equal protection of the laws, violates the constitutional
inhibition; and as he acts in the name and for the State, and is clothed with the State’s power, his act
is that of the State. This must be so, or the constitutional prohibition has no meaning.”’ Cooper, 358
U.S. at 16–17. The Supreme Court concluded: “Thus the prohibitions of the Fourteenth
Amendment extend to all action of the State denying equal protection of the laws; whatever the
agency of the State taking the action, or whatever the guise in which it is taken.” Id. at 17.
Likewise, the State’s scheme to disguise its enforcement role and disclaim accountability
collapses upon cursory inspection. The State enacted S.B. 8 and created a private enforcement
scheme that clothes private individuals with the State’s enforcement power. See id. at 17. That
delegation alone would have been sufficient to show state action. The practical operation of an S.B.
8 lawsuit in Texas courts deepens the State’s enforcement role. As set out above, the State plays a
role at every step of an S.B. 8’s lifecycle in Texas courts. A private cause of action enforcement
scheme is meaningless without state action. Yet, the State endeavors to use it as a sword (to
60

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 61 of 113
62a
effectuate its regulation of abortion) and a shield (to insulate those regulations from federal review).
The State cannot pin the enforcement of S.B. 8 solely on the backs of private individuals and avoid
federal judicial review or injunctive relief. An injunction properly runs against the State.
The United States also asks this Court to stay all state court proceedings brought under S.B.
8. (Reply, Dkt. 56-1, at 26). The Anti-Injunction Act provides that federal courts generally are
prohibited from enjoining state court proceedings. 28 U.S.C. § 2283. That restriction does not apply
when the United States seeks the injunction. In re Grand Jury Subpoena, 866 F.3d 231, 233 (5th Cir.
2017). Federal courts, in suits brought by the United States, have enjoined state court proceedings.
See, e.g., United States v. Texas, 356 F. Supp. 469, 473 (E.D. Tex. 1972), aff’d, 495 F.2d 1250 (5th Cir.
1974) (“Accordingly, it is . . . [o]rdered that the District Court of Dallas County, 162nd Judicial
District of the State of Texas, is permanently enjoined from further proceedings in the case.”).
Given that the State does not argue otherwise, this Court finds that it also can enjoin the state
judiciary without running afoul of the Anti-Injunction Act.39
b. Application to State Officers
In addition to sovereign immunity not shielding the State from this suit, the doctrine of
sovereign immunity also offers no protection to state actors when the United States sues a state in
an equitable action like this. Typically, a person, rather than the United States, sues a state official for
a violation of a constitutional right, and the Court starts from the premise that the state has
sovereign immunity and looks to whether the Ex parte Young exception to sovereign immunity
applies. In Ex parte Young, the Supreme Court held that lawsuits may proceed in federal court when a
plaintiff requests prospective relief against state officials in their official capacities for ongoing

The State contends that an injunction against it would not bind its courts from hearing S.B. 8 lawsuits with
a strained analogy to Muskrat, 219 U.S. at 362. (Resp., Dkt. 43, at 12–13). While the Muskrat Court expressed
a concern about advisory opinions, Muskrat has no bearing on whether an injunction prohibiting the State
from maintaining S.B. 8 lawsuits also binds the judges and court clerks who oversee and administer S.B. 8
lawsuits.
39

61

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 62 of 113
63a
federal violations. 209 U.S. 123, 159–60 (1908). The exception “rests on the fiction . . . that because
a sovereign state cannot commit an unconstitutional act, a state official enforcing an
unconstitutional act is not acting for the sovereign state and therefore is not protected by the
Eleventh Amendment.” Okpalobi v. Foster, 244 F.3d 405, 411 (5th Cir. 2001). Because state officials
lack sovereign immunity protection in a suit brought by the United States, this Court need not
address whether their conduct falls within the Ex parte Young exception.40 Even so, the Supreme
Court’s reasoning for creating the Ex parte Young exception informs this Court’s determination. The
exception “is based in part on the premise that sovereign immunity bars relief against States and
their officers in both state and federal courts, and that certain suits for declaratory or injunctive relief
against state officers must therefore be permitted if the Constitution is to remain the supreme law of
the land.” Alden, 527 U.S. at 747. It is rooted in the “supreme authority of the United States.” Young,
209 U.S. at 167.
Lacking the protections of sovereign immunity, an injunction against the State also would
run as to people who act as an arm of the state, such as state judicial officials like judges and court

In Jackson, Chief Justice Roberts noted in his dissent that the procedural posture of that case before the
Supreme Court required the Supreme Court to address “particularly difficult” questions like “whether the
exception to sovereign immunity recognized in Ex parte Young . . . should extend to state court judges in
circumstances such as these” in the “course of two days.” 2021 WL 3910722, at *2 (Roberts, C.J., dissenting).
In addition to having a brief but longer period of time than two days for consideration, this Court not
required to conduct an Ex parte Young analysis by virtue of the United States bringing this equitable lawsuit
and eliminating the State’s claim to sovereign immunity. This also is not a case brought by individuals against
a state like the abortion providers who sued the Louisiana governor and attorney general in Okpalobi. 244
F.3d at 409. There, the Fifth Circuit, sitting en banc, was confronted with whether the Ex parte Young
exception protected Louisiana from suit by individuals when no enforcement connection existed between the
abortion statute and the two state officials. Id. at 416–17. Similarly, this Court is not constrained by the
concerns expressed by the Fifth Circuit in Jackson, when it found no enforcement connection between the
judges and court clerks and S.B. 8 under the rubric of an Ex parte Young analysis. Whole Woman’s Health v.
Jackson, No. 21-50792, 2021 WL 4128951, at *4 (5th Cir. Sept. 10, 2021) (“Plaintiffs fail to show any
enforcement connection between any of the State Defendants and S.B. 8, and therefore cannot satisfy either
understanding of Ex parte Young.”).
40

62

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 63 of 113
64a
clerks. Given that it is the threat of S.B. 8 lawsuits that deters providers from offering abortion care
services, see supra Section IV(B)(1)(a)(i), an injunction must halt existing S.B. lawsuits and prevent
new suits from being maintained by the state judiciary. Even though private individuals file S.B. 8
lawsuits, the state judiciary plays a role in the lawsuits through several official actions including
docketing, maintaining, hearing, and rendering relief in an S.B. 8 lawsuit.41 The State cannot claim
that its state court judges and court clerks are not “officers, agents, servants, [or] employees” of the
State. Fed. R. Civ. P. 65(d)(2); see, e.g., Tex. Gov’t Code § 411.201 (‘“Active judicial officer’ means . . .
a person serving as a judge or justice of the supreme court, the court of criminal appeals, a court of
appeals, a district court, a criminal district court, a constitutional county court, a statutory county
court, a justice court, or a municipal court[.]”). When they act in their official capacities, state district
court judges and court clerks generally act as an arm of the state as a state official. See Clark v. Tarrant
Cty., Tex., 798 F.2d 736, 744 (5th Cir. 1986) (stating that Texas “district judges . . . are undeniably
elected state officials.”); Holloway v. Walker, 765 F.2d 517 (5th Cir. 1985) (recognizing that Texas
state judges are state elected officials), cert. denied, 474 U.S. 1037 (1985); see also Davis v. Tarrant Cty.,
Tex., 565 F.3d 214, 228 (5th Cir. 2009) (“[In cases brought by individuals,] Texas judges are entitled
to Eleventh Amendment immunity for claims asserted against them in their official capacities as
state actors.”).
The Fifth Circuit’s opinion in Jackson, 2021 WL 4128951, reinforces what S.B. 8 already
makes clear: Texas courts are a necessary component to the operation of S.B. 8. In Jackson, the Fifth
Circuit considered whether to stay this Court’s proceedings in a related case challenging the

Even taking into account the Fifth Circuit’s pronouncement that because S.B. 8 states that it ‘“shall be
enforced exclusively through the private civil actions[,]’” Jackson, 2021 WL 4128951, at *4 (quoting Tex.
Health & Safety Code § 171.207(a)), “exclusive means exclusive,” id., and therefore state judges and clerks
have no connection to the enforcement of S.B. 8 actions, this Court is not bound by the Fifth Circuit’s Ex
parte Young analysis in Jackson regarding sovereign immunity since the state actors in this case have no claim to
sovereign immunity.
41

63

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 64 of 113
65a
constitutionality of S.B. 8. Id. at *1. In deciding to stay the proceedings in the district court, the Fifth
Circuit recognized the sovereign immunity claim of state officials, including a state district judge and
court clerk, id. at *3, and did not shy away from the notion that state judicial officials act as an arm
of the state, referring to state district “court clerks who act under the direction of judges acting in
their judicial capacity.” Id. at *5. In this case, the United States seeks to enjoin the State “including all
of its officers, employees, and agents.” (Compl., Dkt. 1, at 26). Just like Jackson, this lawsuit
challenges the constitutionality of the same law and revolves around the same operative facts. One
significant, material difference between this case and Jackson is that the United States is the plaintiff
here. In both cases, the courts have determined that state officials like judges and clerk act as an arm
of the State, but the legal conclusions drawn from that determination differ: there, being a state actor
potentially protects judges and clerks from suits brought by individuals whereas, here, being a state
actor provides no protection to judges and clerks from a suit brought by the United States. In other
words, “Texas’s scheme to insulate its law from judicial review by deputizing private parties to carry
out unconstitutional restrictions on the State’s behalf” unravels in the face of a lawsuit by the United
States. Jackson, 2021 WL 3910722, at *5 (Kagan, J., dissenting). In Jackson, clinging to sovereign
immunity was a (thus far) successful strategy; in this case, it is the judges and clerks’ very role as state
officials that leaves them vulnerable to an injunction.
The State’s main argument seems to be that, even if state judges and court clerks act as an
arm of the state, S.B. 8’s language divorces the State from enforcement of the law—“the State does
not enforce [S.B. 8],” (Resp., Dkt. 43, at 17)—and relies on individuals to bring private causes of
action. The law states:
[T]he requirements of this subchapter shall be enforced exclusively through the
private civil actions described in Section 171.208. No enforcement of this
subchapter, and no enforcement of Chapters 19 and 22, Penal Code, in response to
violations of this subchapter, may be taken or threatened by this state, a political
subdivision, a district or county attorney, or an executive or administrative
officer or employee of this state or a political subdivision against any person.
64

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 65 of 113
66a

Tex. Health & Safety Code § 171.207. S.B. 8’s enforcement provision states that only private
individuals can bring an S.B. 8 suit. It is a fallacy to allow the State to disclaim an enforcement role.
See Shelley v. Kraemer, 334 U.S. 1 (1948); (see supra Section IV(B)(3)(a); see infra Section IV(B)(3)(c)). A
lawsuit’s very existence requires state action; it cannot be filed, maintained, heard, or resolved
without state action. Indeed, S.B. 8 expressly states that an individual who files an S.B. 8 lawsuit
relies on state action: a person “may bring a civil action,” may “prevail in [the] action,” “the court
shall award[] injunctive relief[,] statutory damages[,] and . . . costs and attorney’s fees.” Tex. Health &
Safety Code § 171.208(a), (b). S.B. 8 further dictates when courts cannot award damages. Id. §
171.208(c). S.B. 8 mandates when courts cannot award attorney’s fees and costs. Id. § 171.208(i). S.B.
8 instructs when courts may not award relief. Id. § 171.209(f). S.B. 8 even explicitly grants “official
immunity” to “each [state] officer and employee” who is sued in a challenge to S.B. 8. Id. §
171.211(b). Any argument that the State, through its judicial system and judges, is not involved in
the enforcement of S.B. 8 lawsuits is contradicted by the plain language of the statute and by the
reality of how state courts operate as an arm of the state to enforce the law, especially when the State
has intentionally crafted a statute to employ private citizens as its proxy. Put simply, the State’s
participation in enforcing S.B. 8 lawsuits amounts to actionable state action. See Shelley, 334 U.S. at
18 (“[I]t has never been suggested that state court action is immunized from the operation of [the
Fourteenth Amendment] simply because the act is that of the judicial branch of the state
government.”).
Finally, federal courts have the authority to specifically enjoin state judicial officials should
this Court enjoin natural persons in addition to the State. The Supreme Court has instructed that
“judicial immunity is not a bar to prospective injunctive relief against a judicial officer acting in her
judicial capacity.” Pulliam v. Allen, 466 U.S. 522, 541–42 (1984); see Mireles v. Waco, 502 U.S. 9, 10 n.1
(1991) (stating that while a judge is generally immune from a suit for money damages, a “judge is not
65

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 66 of 113
67a
absolutely immune from criminal liability . . . or from a suit for prospective injunctive relief”). In
Pulliam, the Supreme Court considered judicial immunity in Section 1983 actions but, in its
reasoning, it relied, in part, on the “common law’s rejection of a rule of judicial immunity from
prospective relief.” 466 U.S. at 536. Because its reasoning sounded partly in the common law, the
Pulliam’s Court reasoning and its conclusion that prospective relief is available against state court
judges undermines the State’s argument that Article III prohibits federal court relief against state
judges acting in their Article III capacity.
c. Application to Private Individuals
The United States also asks this Court to enjoin those “private parties who bring suit under
S.B. 8.” (Compl., Dkt 1, at 26). The private individuals, like the state officials, are themselves acting
as an arm of the state. The State entrusted part of its enforcement authority to private individuals by
deputizing them to bring S.B. 8 lawsuits. Jackson, 2021 WL 3910722, at *3 (Sotomayor, J., dissenting)
(“[T]he Texas Legislature has deputized the State’s citizens as bounty hunters, offering them cash
prizes for civilly prosecuting their neighbors’ medical procedures.”). In Jackson, the Fifth Circuit’s
analysis of its appellate jurisdiction over a private individual who might sue under S.B. 8 hinged on
the fact that the “connection between judges, clerks, and [the private individual are] impossible to
miss.” Jackson, 2021 WL 4128951, at *7. So much so that the Fifth Circuit determined that the
private individual’s “jurisdictional issues [under S.B. 8] are ‘inextricably intertwined’ with the same
issues in the State Defendants’ appeal . . . .” Id. (quoting Swint v. Chambers Cty. Comm’n, 514 U.S. 35,
51 (1995)). S.B. 8 vests private individuals with the authority to enforce the statute, “a traditionally
exclusive state power.” (Mot. Prelim. Inj., Dkt. 8, at 40). The Chief Justice of the Supreme Court has
himself described the statutory scheme as “unprecedented” and noted that it “delegated
enforcement . . . to the populace at large. . . . to insulate the State from responsibility for

66

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 67 of 113
68a
implementing and enforcing the regulatory regime.” Jackson, 2021 WL 3910722, at *1 (Roberts, C.J.,
dissenting).
As such, private individuals enforcing S.B. 8 are properly regarded as state actors.
“Individuals suing under S.B. 8 are not suing ‘for violation of distinct legal duties owed’ to them as
individuals, but instead are suing ‘for violation of legal duties owed the public.’” (Mot. Prelim. Inj.,
Dkt. 8, at 40) (quoting Texas v. Dep’t of Labor, 929 F.3d 205, 213 (5th Cir. 2019)). Courts have
characterized private parties as state actors where a state allows or is involved with conduct that
would be unconstitutional should the state itself engage in that conduct.42 See also Edmonson v. Leesville
Concrete Co., 500 U.S. 614, 621–22 (1991) (“Our precedents establish that, in determining whether a
particular action or course of conduct is governmental in character, it is relevant to examine the
following: the extent to which the actor relies on governmental assistance and benefits; whether the
actor is performing a traditional governmental function; and whether the injury caused is aggravated
in a unique way by the incidents of governmental authority.”) (internal citations omitted). Apt is
Shelley, a 1948 case brought by the Kraemers, a white couple, against the Shelleys, a Black couple, to
stop the Shelleys from moving into the house they had just purchased in a St. Louis neighborhood.43
334 U.S. at 4–6. The Kraemers sought to enforce the terms of a restrictive covenant that specifically
excluded Blacks from occupying the property. Id. Before the Supreme Court, the Shelleys, who were
unaware of the restrictive covenant when they purchased their home, argued that they had been
denied equal protection of the laws. Id. at 8. Confident that racial restrictive covenants violate the

See, e.g., Reitman v. Mulkey, 387 U.S. 369, 380–81 (1967) (finding state action where law “authorize[d] . . .
racial discrimination in the housing market”); Smith v. Allwright, 321 U.S. 649, 663–64 (1944) (holding that a
state’s establishment of primary system made party that set up an all-white primary “an agency of the state”);
Nixon v. Condon, 286 U.S. 73 (1932) (state’s conferral of authority to party committee to determine who may
vote in primary created state action); Skinner v. Ry. Lab. Execs. Ass’n, 489 U.S. 602, 615–16 (1989) (finding
state action where the government removed “all legal barriers” to private conduct at issue and “made plain . .
. its strong preference” that private parties engaged in the conduct).
43 Before the Supreme Court were a bundle of cases, the first of which that came to the Supreme Court on
certiorari was the dispute arising from the Shelleys’ purchase of their home. Shelley, 334 U.S. at 4.
42

67

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 68 of 113
69a
Fourteenth Amendment when they involve “action by state legislature or city councils,” the Court
considered whether “agreements among private individuals” to discriminate removed the state
action necessary to invoke the Fourteenth Amendment. Id. at 12–13. Noting that a restrictive
covenant standing alone would not violate the Constitution, the Supreme Court concluded that
“here there was more. These are cases in which the purposes of the agreements were secured only
by judicial enforcement by state courts of the restrictive terms of the agreements.” Id. at 13–14. The
Supreme Court imputed the unconstitutional acts of the private individuals to the state because the
state “grant[ed] judicial enforcement” of the unconstitutional act. Id. at 20. Likewise here, the State
has granted judicial enforcement of private causes of action brought under S.B. 8. and has done
more. In addition to allowing its judiciary to enforce a likely unconstitutional S.B. 8, the State
designed S.B. 8’s private cause of action enforcement mechanism and authorized private individuals
to bring suit on its behalf, and the private individuals who bring an S.B. 8 suit “make extensive use”
of the state judicial system. Edmonson, 500 U.S. at 622 (“Although private use of state-sanctioned
private remedies or procedures does not rise, by itself, to the level of state action, our cases have
found state action when private parties make extensive use of state procedures with ‘the overt,
significant assistance of state officials.’”) (internal citations omitted). The fact that the enforcement
of S.B. 8 begins with a private individual does not immunize the State. See Shelley, 334 U.S. at 20
(“Nor is the Amendment ineffective simply because the particular pattern of discrimination, which
the State has enforced, was defined initially by the terms of a private agreement.”).
While this Court is convinced that private individuals who bring an S.B. 8 lawsuit act as an
arm of the State in this case, this Court also examines whether it has the authority to enjoin them
separately for being in active concert with the State. Under Federal Rule of Civil Procedure 65, an
injunction may bind the parties, the parties’ “officers, agents, servants, employees, and attorneys,”
and “other persons who are in active concert or participation” with the parties or the parties’
68

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 69 of 113
70a
officers. Fed. R. Civ. P. 65(d)(2)(A)-(C). To avoid the likely insurmountable challenge of providing
actual notice to all people who can bring an S.B. 8 suit—if such notice would be necessary—the
Court must be satisfied that the private individuals who sue under S.B. 8 act in active concert with
the State in order to issue an injunction as to them as nonparties. Most courts look to whether the
nonparty is in privity with the parties or the nonparty’s “interest [was] represented adequately by a
party in the original suit.” Texas, 929 F.3d at 211. Deputizing private individuals to sue abortion
providers creates the necessary privity and obviates the need for individualized notice.
The private individuals who bring S.B. 8 lawsuits are in active concert with the State to
enforce S.B. 8. As the State acknowledged, Rule 65(d)(2) was intended to prevent defendants from
‘“nullify[ing] a decree by carrying out prohibited acts through aiders and abettors[.]”’ (Resp., Dkt. 43,
at 24) (quoting Regal Knitwear Co. v. NLRB, 324 U.S. 9, 14 (1945)). Private individuals who file S.B. 8
lawsuits help effectuate the State’s blueprint to potentially deprive Texans of their constitutional
rights. Before S.B. 8, these individuals would have had neither a cause of action to obtain relief in a
suit against abortion care providers nor standing to bring such a suit. The State chose to deputize
them; the State chose to remove any requirement that they suffer an injury to bring suit (an injury is
almost always required to bring suit); and the State chose to incentivize them by automatically
awarding them damages of at least $10,000 if their suit is successful. Tex. Health & Safety Code §
171.208(a), (b).
This Court’s conclusion that private individuals are either state actors or in active concert
with the State is bolstered by the positions of the intervenors in this case. In their Motion to
Intervene, which this Court granted, (Dkt. 40), the Texas Intervenors stated that they intend to sue
people and entities that violate S.B. 8 for conduct that is “clearly unprotected by the Constitution.”
(Mot. Intervene, Dkt. 28, at 2). The Texas Intervenors carefully tried to argue they are not state
actors, but their declared intent to enforce S.B. 8 speaks the loudest. For example, Jeff Tuley
69

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 70 of 113
71a
(“Tuley”) intends to bring S.B. suits for (1) non-physician abortions, (2) self-administered abortions,
and (3) post-viability abortions. (Id. at 3; Tuley Decl., Dkt. 28-1, at 7). To explain why he sought
intervention in this case, Tuley stated: “Preserving this enforcement mechanism is important to Mr.
Tuley because several district attorneys in Texas refuse to enforce these laws.” (Mot. Intervene, Dkt.
28, at 3). Tuley admitted that he seeks to stand in place of district attorneys in abortion cases where
the district attorney does have the enforcement right to bring a lawsuit, like for a post-viability
abortion that is already prohibited by the State and enforced by the State. The Texas Intervenors
want to use the procedural mechanisms of S.B. 8 to enforce abortion restrictions that are not
substantively prohibited by S.B. 8. But those abortion restrictions are already enforced by the State.
Adding private causes of action to the mix either duplicates or supplants the enforcement work
being done by the State. Whether duplicating the efforts of the State or supplanting the State, the
Texas Intervenors are acting in active concert with the State or acting as an arm of the State.
More broadly, the Intervenors as a group believe that the State granted them a roving
commission to enforce the State’s abortion laws. The fact that the Texas Intervenors understand
that their interests would be impacted if this Court enjoins enforcement of S.B. 8 drives home the
point that the Texas Intervenors recognize that they are carrying out state policy and enforcement
and that an injunction of S.B. 8 would interfere with their rights to enforce state laws. The other
intervenor, Oscar Stilley (“Stilley”), an Arkansas resident who filed an S.B. 8 lawsuit against an
abortion provider, spells it out: “The State of Texas in enacting [S.B. 8] has delegated power that it
does have to people it does not know.” (Stilley Resp., Dkt. 48, at 2, 8). He continues: “We are told
that doctors don’t have standing to raise the constitutional rights of their patients – but Oscar Stilley
somehow has standing to sue people he’d probably like if he knew them, for things he doesn’t
disagree with, which caused him no damage or injury whatsoever.” (Id.). Stilley has sued an abortion
provider and wants to continue suing abortion providers and health insurance companies solely to
70

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 71 of 113
72a
make money. (Id. at 5–7). His strategy is to sue and then offer a cheap settlement of “perhaps as low
as $100 per abortion”—versus $10,000 or more in statutory damages. (Id. at 6). His is a volume
business. Setting aside the absurdity and perversity of a law that incentivizes people who do not
disagree with abortion care to sue abortion providers to make a quick buck, Stilley explicitly states
his perception that the State delegated part of its enforcement power, i.e., bringing suits, to him. (Id.
at 2).
The State’s concern that private individuals should not be enjoined because they have not
been heard by the Court conflates persons who are enjoined through an injunction with persons
who may be in contempt for violating an injunction. The State relies on Zenith Radio Corp. v. Hazeltine
Rsch., Inc., in which the party subsidiary company and its nonparty parent company were enjoined.
395 U.S. 100, 109 (1969). The Supreme Court vacated the judgment against the nonparty parent
company. Id. at 110. The State wrongly assumes that a federal court cannot enjoin a person or entity
without first providing every possible obligor with notice and an opportunity to be heard. In fact,
the Supreme Court, in Arizona v. United States, upheld an injunction against Arizona that governed
the conduct of its state and local law enforcement officers who had not first been given notice or an
opportunity to be heard regarding the injunction. 567 U.S. 387, 410 (2012). What the Zenith Court
held was that “a nonparty with notice cannot be held in contempt until shown to be in concert or
participation.” 395 U.S. at 112. Since the question of contempt is not before this Court, the Court
takes no position on whether it can hold in contempt a person who has not received notice of or
been heard on an injunction.
C. Motion for Preliminary Injunction
1. Likelihood of Success on the Merits
The Court’s findings of fact, together with its analysis of the parties’ submissions, lead it to
conclude that the United States is substantially likely to succeed on the merits of its claims. It is
71

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 72 of 113
73a
substantially likely that S.B. 8 violates the Fourteenth Amendment, whether as an unconstitutional
pre-viability abortion ban, or as an unconstitutional undue burden on pre-viability abortion. It is also
substantially likely that S.B. 8 unconstitutionally interferes with principles of preemption and
intergovernmental immunity.
a. Whether S.B. 8 Violates the Fourteenth Amendment
The United States argues that S.B. 8 purports to deny Fourteenth Amendment substantive
due process rights to pre-viability abortions, in contravention of binding precedent. S.B. 8 prohibits
any “abortion on a pregnant woman if the physician detected a fetal heartbeat . . . or failed to
perform a test to detect a fetal heartbeat.” Tex. Health & Safety Code § 171.204(a). It allows for an
exception only in the case of a documented “medical emergency[.]” Id. § 171.205. When the
Supreme Court heard a preliminary challenge to S.B. 8 in Jackson, the comments on the law’s
substance ranged from “serious questions regarding [its] constitutionality,” 2021 WL 3910722, at *1,
to concerns that it “threatens to invade a constitutional right,” id. at *3 (Breyer, J., dissenting), to
incredulity at the “flagrantly unconstitutional law engineered to prohibit women from exercising
their constitutional rights and evade judicial scrutiny . . . .” id. (Sotomayor, J., dissenting). Even at
that preliminary stage, before the constitutional issues were even before the court, the “clear, and
indeed undisputed, conflict with Roe and Casey” was plain to see. Id. at *5 (Kagan, J., dissenting). As
Justice Sotomayor wrote in dissent, “[t]he Act is clearly unconstitutional under existing precedents.
The [state] respondents do not even try to argue otherwise. Nor could they: No federal appellate
court has upheld such a comprehensive prohibition on abortions before viability under current law.”
Id. at *4 (Sotomayor, J., dissenting).
i. Unconstitutionality of Pre-Viability Abortion Bans
Indisputable, binding precedent holds that pre-viability bans on abortions are
unconstitutional. Indeed, the Supreme Court has long held that “a State may not prohibit any
72

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 73 of 113
74a
woman from making the ultimate decision to terminate her pregnancy before viability.” Casey, 505
U.S. at 879; see also Roe, 410 U.S. at 163 (“[F]or the period of pregnancy prior to [viability], the
attending physician, in consultation with [her] patient, is free to determine, without regulation by the
State, that, in [her] medical judgment, the patient’s pregnancy should be terminated.”). In recent
years, the Fifth Circuit has repeatedly confirmed that outright bans on pre-viability abortions are
“unconstitutional under Supreme Court precedent without resort to the undue burden balancing
test.” Jackson Women’s Health Org. v. Dobbs, 951 F.3d 246, 248 (5th Cir. 2020); see also Jackson, 945 F.3d
at 274 (“Until viability, it is for the woman, not the state, to weigh any risks to maternal health and
to consider personal values and beliefs in deciding whether to have an abortion.”). Seen in light of
the nearly half-century of precedent in this line, “the Act is a breathtaking act of defiance—of the
Constitution, of this Court's precedents, and of the rights of women seeking abortions throughout
Texas.” Jackson, 2021 WL 3910722, at *4 (Sotomayor, J., dissenting).
The State contends that S.B. 8 does not constitute an outright “ban” on pre-viability
abortions; rather it attempts to characterize the law as a regulation that poses “mere obstacles” to
pre-viability abortion access. (Resp., Dkt. 43, at 49). But there can be no question that S.B. 8
operates as a ban on pre-viability abortions in contravention of Roe v. Wade, and “equates to a nearcategorical ban on abortions beginning six weeks after a woman’s last menstrual period, before many
women realize they are pregnant, and months before fetal viability.” Jackson, 2021 WL 3910722, at *3
(Sotomayor, J., dissenting). The State analogizes to Gonzales v. Carhart, in which the Court upheld a
law prohibiting the intact dilation and evacuation method of abortion. 550 U.S. 124, 135 (2007). But
the law in question there was limited exclusively to a single method; it had no effect whatsoever on
abortions, at any stage of pregnancy, performed using any other method. Indeed, “the Act allow[ed],
among other means, a commonly used and generally accepted method, so it [did] not construct a
substantial obstacle to the abortion right.” Id. at 165. As such, it could not accurately be considered
73

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 74 of 113
75a
an abortion ban. In contrast, S.B. 8 effectively forecloses all abortions, by any method, that occur
after approximately six weeks of pregnancy. In this way, S.B. 8 reaches far more widely than did the
law at issue in Gonzales—so far, in fact, that it can properly be considered a ban subject to the
constitutional requirements of Roe v. Wade.
June Medical, 140 S. Ct. at 2112–13, is similarly illustrative. The State suggests that the impact
of the law at issue there was so extensive as to render it effectively a ban, and, whether or not a ban,
to render it comparable to S.B. 8. But again, the two laws should not be equated. Though the Court
in no way intends to minimize the consequences had the law at issue in June Medical been upheld, its
reach was still far more limited than that of S.B. 8—a law that prohibits all abortions, by any
method, by any doctor, that occur after cardiac activity is detected. The former is a regulation that
poses an undue burden on obtaining abortion services; the latter is a categorical ban. Indeed, faced
with patients showing embryonic cardiac activity earlier than six weeks LMP, who “are incredibly
frustrated because they feel like they did everything ‘right’ under the law by trying to get to the
abortion clinic as soon as possible,” Planned Parenthood physicians “explain to patients that S.B. 8
is effectively a near total ban on abortion.” (Linton Decl., Dkt. 8-5, at 11).
The credible declarations from providers make clear the extent to which S.B. 8 has cut off
abortion access.44 The recent statistics at the two Planned Parenthood Center for Choice, Inc.
(“PPCFC”), facilities in Houston and Stafford are illustrative. Ordinarily, the clinics provided an
“Before S.B. 8 took effect, Southwestern [Women’s Surgery Center (“Southwestern”)] provided medication
abortion up to 10 weeks from the first day of a patient’s last menstrual period (“LMP”) and procedural
abortions through 21 weeks and 6 days LMP. Since September 1, 2021, Southwestern has provided only
procedural abortions up until detection of a “fetal heartbeat” as defined under S.B. 8 and described below. In
a typical year, prior to S.B. 8 taking effect, the clinic performed approximately 9,000 medication and
procedural abortions, and I personally performed between 2,000 and 3,000 abortions at Southwestern over
the last year.” (Gilbert Decl., 8-2, at 4-5). In addition, “[i]n 2020, the four [Whole Women’s Health
(“WWH”)]/[Whole Women’s Health Alliance (“WWHA”)] clinics in Texas provided approximately 9,200
abortions. Of these patients, less than 10% were at gestations less than 6 weeks LMP.” (Hagstrom Miller
Decl. I, Dkt 8-4, at 3–4). The various Planned Parenthood centers and affiliates in Texas (comprising 11 of
the 24 licensed facilities in the state) provided, as a low estimate, 14,184 abortions last year. Between 90% and
93.4% of these abortions were provided at 6 weeks LMP or later. (See Linton Decl., Dkt. 8-5, at 4–6).
44

74

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 75 of 113
76a
average of 25 abortions per day. In the week preceding S.B. 8 going into effect, that number
ballooned to 205 daily, with 184 for Texas residents. (Linton Decl., Dkt. 8-5, at 10). Between
September 1 and September 10, PPCFC performed 123 ultrasounds at the first appointments
required under state law to take place at least 24 hours before an abortion. The clinics had 63
patients scheduled for abortions in the next ten days but could only perform 52 because “some
patients had embryonic activity by the time they returned.” (Id.).45 Thus, the clinics went from
performing approximately 25 abortions per day to approximately 5 per day, all at less than six weeks
LMP. 46 For the approximately 20 women per day who, but for S.B. 8, would have received abortion
care at PPCFC, the Court can only speculate as to the hardships they had to endure. Since
September 1, 2021, these providers ceased performing abortions after detection of embryonic

“Unfortunately, we have had to inform some patients at their second visit that they were barred under S.B.
8 from having an abortion. At their first visit, there was no embryonic cardiac activity on the ultrasound, but
when they came back the next day after the state-mandated waiting period, there was embryonic cardiac
activity and we were not able to provide the abortion. This means patients can lose their ability to access
abortion in Texas literally overnight. As a result, our physicians have to caution patients that even though
cardiac activity is not shown at the ultrasound appointment, it could occur on the day of the abortion, which
causes patients significant stress. Another patient was found to be about five weeks pregnant without
embryonic cardiac activity, so she could have qualified for an abortion, but at the same visit, she also learned
she had COVID-19. By the time she would finish the mandatory quarantine, she would be too far along in
her pregnancy to get an abortion in Texas.” (Linton Decl., Dkt. 8-5, at 9).
46 “The vast majority of abortion patients at Southwestern before S.B. 8 took effect were 6 or more weeks
LMP. In 2020, Southwestern performed only 936 abortions for patients up to 5 weeks, 6 days LMP—only
10% of the 8,623 abortions the clinic provided in total that year.” (Gilbert Decl., Dkt. 8-2, at 5).
45

75

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 76 of 113
77a
cardiac activity.47 One provider, who oversees four Texas clinics, stated that between September 1
and September 14, “[w]e have already turned away more than 100 patients . . . , and every day the
law is in effect, we are forced to turn away the majority . . . .” (Hagstrom Miller Decl. I, Dkt 8-4, at
4). Indeed, “S.B. 8 bans approximately 90% of the abortions . . . previously performed” at those four
clinics.” (Id. at 7). This credible evidence establishes that “S.B. 8 has had an immediate and
devastating effect on abortion care in Texas.” (Id.).
Although “[m]ost patients obtain an abortion as soon as they are able[,]” many do not know
they are pregnant at the point when embryonic cardiac activity becomes detectable. (Gilbert Decl.,
Dkt. 8-2, at 8). Most people are at least six weeks LMP into pregnancy when they make their first
abortion appointment, and so are permanently precluded from obtaining an abortion in Texas. (Id.).
Clinics have stopped providing both procedural and medication abortions, as “in the rare instance
where the medication fails to complete the abortions, the clinic would be unable to provide the
medically appropriate procedure to complete the abortion.” (Gilbert Decl., Dkt. 8-2, at 4–5).48
(See Gilbert Decl., Dkt. 8-2, at 4) (“Since September 1, 2021, Southwestern has provided only procedural
abortions up until detection of a ‘fetal heartbeat’ as defined under S.B. 8.”); (Hagstrom Miller Decl. I, Dkt. 84, at 4) (“Since S.B. 8 took effect on September 1, 2021, all four WWH/WWHA clinics in Texas have
stopped offering both medication and procedural abortions for patients whose pregnancies have cardiac
activity, meaning that our clinics are only providing abortions to patients with gestational ages under
approximately 6 weeks LMP.”); (Id. at 7) (I have had personal conversations with the majority of independent
abortion clinics in Texas regarding S.B. 8 and can affirm that the independent abortion providers in Texas are
all complying with S.B. 8. All of these clinics continue, for now, to provide abortions only for pregnant
people without any embryonic or fetal cardiac activity, meaning that we are forced to turn away the majority
of patients seeking abortion in Texas.”); (Linton Decl., Dkt. 8-5, at 7) (“The risk of civil liability, damages,
and certain cost of litigation if a provider offers abortion in violation of S.B. 8 (as well as the possibility of a
court order stopping the provider from providing abortions) means that none of the Planned Parenthood
providers—and, to my knowledge, no other abortion provider in Texas—has offered services after
embryonic cardiac activity is detected since September 1. . . . Because of the real possibility that [Planned
Parenthood South Texas] Surgical Center and its physicians and staff will be sued for providing any
abortions, and be forced to defend against these meritless lawsuits, it has suspended all abortion services as of
September 1.”).
48 Another provider addresses the same concerns: “We have seen at least two patients who obtained
medication abortions before September 1 and returned at their follow-up visits after September 1 with
ongoing pregnancies—meaning they were in the very small fraction of patients for whom the
medication abortion was unsuccessful. In the past, we would have provided these patients with
procedures to complete their abortions, as that is the medical standard of care, but because of S.B. 8
47

76

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 77 of 113
78a
According to one provider’s credible description, “[m]edication abortion is thus not an option we
feel we can provide patients in light of S.B. 8’s restrictions, even though it is medically preferred for
many patients.” (Gilbert Decl., Dkt. 8-2, at 4–5). The provider describes how, because of S.B. 8, she
“had two patients . . . who are minors, who had never had a pelvic exam before, and who both
preferred a medication abortion that I was unable to provide.” (Id. at 15). As that provider credibly
summarized, “[a]s a practical matter, S.B. 8 is a near total ban on abortion. It prohibits abortion care
at the earliest moments that a pregnancy may be detected and often before a patient has any reason
to suspect that they may be pregnant.” (Id. at 8).
ii. Undue Burden
Even if S.B. 8 is more properly characterized as a regulation, it is nonetheless
unconstitutional because it places an “undue burden” on individuals seeking an abortion. Casey, 505
U.S. at 874. More specifically, “an undue burden is a shorthand for the conclusion that a state
regulation has the purpose49 or effect of placing a substantial obstacle in the path of a woman
seeking an abortion of a nonviable fetus.” Casey, 505 U.S. at 877. Since the Court set out this
standard, it has invalidated state laws that impose far lower burdens on access to abortion care than
does S.B. 8. In Hellerstedt, it held unconstitutional a Texas law (H.B. 2) requiring that doctors who
perform abortions have active admitting privileges at a hospital no more than 30 miles from the
abortion facility, and that such facilities meet the state-law standards “ambulatory surgical centers.”
136 S. Ct. at 2299. These requirements led approximately half of the abortion clinics in Texas to
close, meaning that women forced into the few remaining clinics faced longer wait times, crowding,
and longer distances to travel to providers. Id. at 2313. Based on the “substantial obstacle” the

we were forced to turn these patients away. One of these patients was only 18 years old. Our physician was so
upset that a staff member had to help the doctor break the news to the patient.” (Hagstrom Miller Decl., Dkt.
8-4, at 10).
49 See supra Section IV(B)(2)(c).

77

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 78 of 113
79a
regulations “[e]ach place . . . in the path of women seeking a previability abortion, each constitutes
an undue burden on abortion access . . . , and each violates the Federal Constitution.” Id. And in June
Medical, the Court invalidated an almost identical Louisiana law, again explaining that “the burdens
[the law] imposes far outweigh any . . . . benefit, and thus the Act imposes an unconstitutional undue
burden.” 140 S. Ct. at 2121.
While the laws at issue in those cases surely created severe impediments to abortion access,
they pale in comparison to the obstacles at issue here. For, as one provider credibly described:
Even under the best circumstances, if a Texan determines they are pregnant as soon as they
miss their period, they would have roughly two weeks to decide whether to have an
abortion, comply with state-mandated procedures for obtaining an abortion, resolve all
financial and logistical challenges associated with abortion care in Texas, and obtain an
abortion. As a result of S.B. 8, the many pregnant people who do not learn that they are
pregnant until after 6 weeks LMP may never access abortion in Texas.
(Gilbert Decl., Dkt. 8-2, at 8). Moreover, under S.B. 8, a doctor must be willing to pay no less than
$10,000 for every abortion she performs. See Tex. Health & Safety Code § 171.208(i). Nor does the
deterrent stop there: so too must every nurse, security guard, insurer, or rideshare driver. This law is
not a question of a one-time, excessive, and unnecessary resource investment needed to comply with
a law. It is an ongoing, wide-ranging, and debilitating burden on anyone associated with providing
abortions, sufficient to effectively cut off access to the medical procedure entirely. (See Hagstrom
Miller Decl. I, Dkt. 8-4, at 7; Gilbert Decl., Dkt. 8-2, at 16–17). If any provider does take the
extraordinary step of proceeding with an abortion in the face of the law, she will be saddled with
litigation extending potentially for years, and in which she is precluded from even raising the
unconstitutionality of the law as a defense and must also contend with repercussions from

78

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 79 of 113
80a
professional licensing boards.50 And even if the provider ultimately prevails, the law prohibits her
from ever recovering attorney’s fees from her opponent. See Tex. Health & Safety Code § 171.208(i).
Given the unlikelihood of any provider having the financial wherewithal to overcome under these
financial obstacles, the effect of S.B. 8 is to force all abortion providers in Texas to cease performing
constitutionally protected medical procedures.
These provisions operate—and were intended to operate—as an effective deterrent to
provision of pre-viability abortion services in Texas, precluding the vast majority of individuals from
accessing this constitutional right. One provider lamented that, “[n]ow that abortion is almost
entirely inaccessible in Texas, patients have few options and each of their stories is more
heartbreaking than the last.”51 Indeed, it is the dismantling of the provider network that constitutes
the undue burden on access to abortion.52 The same provider noted credibly that “S.B. 8 is like no
other abortion restriction or abortion ban we have dealt with before,” and its “immediate impact . . .

The Court finds credible the provider’s description that “our physicians, particularly the ones that travel
from out of state, are concerned that if lawsuits are filed against them, they will be required to report these
lawsuits to their professional licensure boards and hospitals in every state where they are licensed, and that
they will ultimately lose their professional privileges and credentials. For most of our physicians, the risk was
too great to even come to work.” (Hagstrom Miller Decl. I, Dkt. 8-4, at 11).
51 Declarant and abortion provider Amy Hagstrom Miller describes some of these “heartbreaking” cases:
“The first patient we saw at our Fort Worth clinic on September 1 was ineligible under S.B. 8. She had a 3month-old daughter and had just started a new job. She had just left an unsupportive partner and moved in
with her parents and feared that if she told them about her pregnancy, they would kick her out. Similarly, we
saw a patient on September 1 at our Austin clinic who was so stunned to learn she was 10 weeks LMP and
ineligible for abortion in Texas that she was in too much shock to process our suggestions for where to turn
for care. We saw another patient last week with consistent periods who had no signs of pregnancy other than
a positive pregnancy test. The patient thought she was likely 4-5 weeks LMP but was shocked to learn that
her ultrasound showed that she was beyond 13 weeks. The patient already has a young infant at home, less
than a year old. We have not heard from any of these patients since they left our clinics.” (Id.).
52 (See Gilbert Decl., Dkt. 8-2, at 13) (“Southwestern has weathered short-term abortion bans in Texas before
and barely survived. Last year, when Southwestern was shut down for approximately three weeks due to the
COVID-19 executive order shutdown, the impact was severe. Repeatedly having to stop and restart services,
as various court orders allowed us to reopen only to be shut down again hours later, created absolute chaos
for our patients and staff. The COVID-19 shutdown took an immense emotional toll on our staff and drove
our clinic to the financial brink. . . . [I]t took us months to work through the patient backlog. Even then, we
were unable to see every patient who needed our services.”).
50

79

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 80 of 113
81a
on our patients, staff, and physicians has been truly catastrophic.” (Gilbert Decl., Dkt. 8-2, at 13).
Indeed, as a Planned Parenthood Provider credibly described the state of affairs:
both practically and emotionally, abortion providers and their staff are now barely hanging
on due to S.B. 8. Our staff are doing all they can to help patients navigate this awful law,
including working long hours to get patients in as quickly as possible for their appointments.
They are doing their best to provide as many ultrasounds on a daily basis as they can in order
to catch those few patients where cardiac activity will not be detected, but there are only so
many working hours in a day and our staff are still dedicated to providing high-quality care.
This experience has also been traumatic for our physicians and staff as they must tell patient
after patient that they cannot care for them, despite that, medically, they should be able to
and, indeed, went through significant medical training to provide the very medical care that
their patients are asking them to provide and are entitled to receive. They are essentially
being forced to inflict trauma on their patients.
(Linton Decl., Dkt. 8-5, at 14–15). The law appears to be having the desired chilling effect: the
provider describes a staff “plagued by fear and instability” who “remain seriously concerned that
even providing abortions in compliance with S.B. 8 will draw lawsuits from anti-abortion vigilantes
or others seeking financial gain under S.B. 8’s bounty hunting scheme.” Id.53 As one provider aptly
observed, the days since the ban went into effect “have been nothing short of agonizing for our
staff. No one should be forced to risk overwhelming costs of litigation and crushing penalties to

Gilbert continues, “I am one of only two physicians, out of the eight physicians that typically provide care
at our clinic, who is currently providing abortions at Southwestern. While our other physicians are willing to
provide S.B. 8-compliant abortions, we feel constrained to limit the potential liability of our physicians to
lawsuits brought under S.B. 8 by having fewer physicians providing abortions. Bringing in additional
providers also adds to the clinic’s costs at a time when Southwestern confronts an unknown period of higher
security costs and significantly reduced patient volume.” Id. Further, “[b]ecause S.B. 8 allows almost anyone
to sue me, Southwestern, and the staff who work with me, I continue to worry that just by coming to work, I
risk exposure to multiple lawsuits . . . .” (Id. at 17–18).
53

80

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 81 of 113
82a
provide safe and common health care. No one should be subject to state-directed harassment for
caring for patients in need.” (Linton Decl., Dkt. 8-5, at 12).54
Providers understand that “[e]ven if there is no basis for the suits [they] know will be filed, . .
. [their] physicians, nurses, and staff will be forced to travel to the claimant’s home county, hire a
lawyer, and spend months, if not years, defending themselves.” (Hagstrom Miller Decl. I, Dkt. 8-4,
at 7).55 Indeed, “The costs of defending against what could be a flood of lawsuits in every county in
Texas would be impossible for abortion providers to absorb, even if they were to win each case.”
(Linton Decl., Dkt. 8-5, at 8). The threats are not limited to litigation itself—“almost immediately

“Abortion providers deal with relentless harassment from abortion opponents, including as they come into
work each day, which has increased since S.B. 8 took effect. For example, Texas Right to Life (‘TRTL’)
launched a ‘whistleblower’ website to recruit S.B. 8 claimants, as well as ‘informants’ to support S.B. 8
enforcement suits by providing information about abortion providers’ and support networks’ perceived
violations. Though the website, which could previously be found at www.prolifewhistleblower.com, is
currently down, TRTL has expressed its intention to quickly restore it. The website stated that ‘[a]ny abortion
performed in violation of the Texas Heartbeat Act is a criminal offense, and any individual or entity that aids
or abets an abortion on a child with a detectable heartbeat in Texas is violating the law as well.’ It further
provided that ‘[TRTL] will ensure that these lawbreakers are held accountable for their actions’ and invited
visitors to ‘[j]oin the Team of Pro-Lifers working to enforce’ S.B. 8 and ‘[s]end an anonymous tip or
information about potential violations’ of the Act. Recruits who clicked on the button inviting them to
become a ‘team member’ by submitting contact information were asked: ‘How are you interested in enforcing
the Texas Heartbeat Act?’ with response options of ‘Litigating,’ ‘Plaintiff,’ ‘Data Collection,’ and ‘Other’ and
they were also asked to provide the ‘best time for a TRTL team member to call you to talk about enforcing’
S.B. 8. Individuals who selected the option to send an anonymous tip were asked to provide ‘as much detail
as possible’ on ‘how [they thought] the law ha[d] been violated,” as well as “how [they] obtain[ed] this
evidence’ and the ‘Clinic or Doctor this evidence relate[d] to.’ Our staff have also had to endure protestors
trespassing; conducting drone surveillance; blocking roads, driveways, and entrances; yelling at staff and
patients; using illegal sound amplification; video recording staff, staff vehicles, and license plates, as well as
surreptitiously recording inside the health center; trying to follow staff home; and more. On the first day S.B.
8 went into effect, we had to call the police because a protestor was blocking the driveway with his vehicle.
He came back the next day, and even had a porta-potty delivered. The next day, someone trespassed on the
property and vandalized a few of our signs. We are also aware that someone created a forum on Reddit where
numerous individuals posted discussions on how they could be bounty hunters under S.B. 8 and turn doctors
into the police, which has since been taken down.” (Linton Decl., Dkt. 8-5, at 13–14).
55 One provider notes credibly, “[w]hile we generally have low staff turnover, ever since S.B. 8 started
receiving public attention, staff began to express serious fears that their jobs would no longer exist . . . . [W]e
have lost around one staff member every week, including two of our clinic directors. . . . Our physicians in
particular, many of whom are licensed in multiple states and travel to Texas to provide patient care, are
extremely concerned about their potential personal and professional liability under S.B. 8. Our physicians and
nurses worry that lawsuits under S.B. 8 might trigger investigations and other repercussions, including loss of
licensure, that will follow these professionals for the rest of their careers, even if they choose to practice
outside Texas.” (Hagstrom Miller Decl., Dkt. 8-4, at 10–11).
54

81

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 82 of 113
83a
after” S.B. 8 was signed into law, vigilantes began harassing providers based on their newfound
enforcement authority.56 The deterrent effect of the law has translated directly to a “devastating”
impact as clinics must “turn away patients in droves . . . .” (Gilbert Decl., Dkt. 8-2, at 14–15).
Providers are “only able to help a fraction of the patients [they] ordinarily would see and treat, as
most patients . . . are beyond the gestational limit imposed by S.B. 8.” Indeed, one provider stated
that “[i]f the law is not struck down soon, [her] clinic in Dallas will inevitably close.” Id. at 14.57

“In late May, an individual snuck into the Austin Clinic by following a patient through the front door to
evade our security. Once inside, the individual distributed a letter about S.B. 8 to our Austin Clinic staff and
those present in the reception area. . . . The individual was asked to leave, but once outside, the individual was
joined by another person and both individuals continued to distribute the letter to staff outside, still on the
clinic’s private property. The letter gives a phone number and email address for individuals to use to report
violations of S.B. 8 and states: ‘please call or send us a text at any time.’ The threats have continued despite
our public statements that we would be and now are in compliance with S.B. 8. On the day before S.B. 8 took
effect, our Fort Worth clinic opened at 7:30 am and was working until 11:56 pm to serve as many patients as
possible before the law took effect at midnight. Our physician and staff were in tears, terrified that they
would not be able to see every patient who was still sitting in the waiting room before the deadline. All the
while, our clinic was under surveillance from anti-abortion activists stationed outside. Protesters flooded the
areas around our clinic, shining flashlights into the cars of patients as they entered and exited the parking lots.
After nightfall, the protesters brought in giant lights and shined them at the clinic, illuminating the parking lot
and the building in order to track our every move. The protesters called the fire and police departments
multiple times throughout that day in an attempt to stop our work or slow down the last abortions we would
be able to provide after six weeks LMP. Since September 1, the threats have only gotten worse. Several days
before S.B. 8 took effect, my staff brought to my attention a website run by Texas Right to Life called
prolifewhistleblower.com. . . . The website requests information from individuals interested in enforcing S.B.
8, including those interested in “litigating” or becoming a “plaintiff.” . . . My staff also identified a subreddit
called ‘TexasBountyHunters’ where individuals have posted plans to enforce S.B. 8. In addition, WWH and
WWHA have seen an uptick in protester activity at our clinics, and threatening calls, emails, and social media
posts. For example, one message we received read: ‘It's a shame we can no long murder innocent babies in
their mother's womb. If your women are so about ‘Their body, their choice’ then let's make the law say this:
As long as a woman is willing to die along with her unborn child we'll allow her to get rid of it. You see? It's
not about her body at all, it's about the body of the unborn child which is a human at conception. Thank God
for the sane people that still exist in this world. You should be in prison for life.’” (Hagstrom Miller Decl. I,
Dkt. 8-4, at 10–11).
57 Another provider expressed that “[i]f we are not able to resume providing abortion services soon, I am
worried about our ability to retain staff. Even before S.B. 8 took effect, the Act was already taking a negative
toll on our ability to recruit new staff. PPCFC has already had two prospective staff members decline job
offers specifically because of fear of S.B. 8.” (Linton Decl., Dkt. 8-5, at 14).
56

82

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 83 of 113
84a
With all the turmoil and uncertainty caused by S.B. 8, “[p]atients are panicked, both for
themselves and their loved ones.” (Gilbert Decl., Dkt. 8-2, at 15).58 Even those who attempt to
comply with the law may be harmed. For example, one provider describes seeing a patient “who has
been taking the same contraception consistently for a decade and nonetheless found herself
pregnant. She was only 5.4 weeks LMP but had detectible cardiac activity, so I had to turn her
away.” Id. The 24-hour waiting period required under state law “is also compounding the burden of
S.B. 8” as patients “become ineligible for abortion care between their first and second
appointments.” Id. at 16.59 One provider describes patients “devastated to learn that after two
appointments, . . . their only option for abortion care is to leave Texas, which not all can do.”60
Moreover, “because under S.B. 8 patients only have a very limited window of time after discovering
they are pregnant to decide that they want an abortion, S.B. 8 is forcing some patients to make a
decision about their abortion before they are truly ready to do so.” (Gilbert Decl., Dkt. 8-2, at 17).61
One provider credibly describes “particular[] concern[s] about the unaccompanied migrant teenagers
Gilbert continues, “I saw a patient for counseling who was eligible for an abortion under S.B. 8 but
nonetheless broke down in tears because she was so scared that her sister, who was planning to drive her to
the clinic the next day for her procedure, would be sued under S.B. 8 for aiding and abetting. Other patients
are making appointments before they have received a positive pregnancy test, seeking unnecessary blood tests
and procedures, for fear that if they are pregnant, they will be unable to access care.” (Id.)
59 The Court finds credible Gilbert’s statement that one in fifteen patients becomes ineligible for abortion
under S.B. 8 between their first and second appointments. Id. Further, according to a provider, Planned
Parenthood “call centers also inform patients that if there is embryonic cardiac activity, they will have to seek
abortion out of state, and so if they think the pregnancy is greater than six weeks LMP, they may come in for
an ultrasound to help them determine the gestational age of their pregnancy, but we will not be able to
perform their abortion. Explaining the new law to people and the fact that it means we cannot provide them
an abortion, and then helping them navigate a way to get out of state and get to another provider, means that
calls with patients are taking twice as long as they used to. As a result, our hold times have increased
significantly, which in turn makes it harder for us to reach and schedule those people who may still be eligible
for an abortion but have a short window to get in for an appointment before they are banned.” (Linton Decl.,
Dkt. 8-5, at 9).
60 “One patient, for example, showed cardiac activity when she arrived for her abortion and upon learning she
was ineligible for an abortion, she broke down in tears.” (Id.)
61 A provider notes that one of her clinics “already had a woman who came to one of our health centers
reporting that because she had no money or resources, she said she had turned to the internet where she
found some ‘abortion tea.’ She took it, and it didn’t work. The ultrasound showed embryonic cardiac activity,
and so we had to tell her that her only option was to try and travel out of state.” (Linton Decl., Dkt. 8-5, at
12).
58

83

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 84 of 113
85a
who often present at our . . . clinic, as the logistical barriers to these patients’ care mean that they are
unable to reach us for treatment prior to 9 weeks LMP,” at least in part because “the judicial bypass
process [for minors] usually takes at least 2 weeks. The majority of these patients do not become
pregnant through consensual sex and tend to be much younger than other minor patients we treat.”
(Hagstrom Miller Decl., Dkt. 8-4, at 8-9).
Even though the ban has been in effect for just over a month, necessarily limiting the data
available, this harm is still far from speculative. One provider stated that S.B. 8 “shut down about 80
percent of the abortion services we provide.” (Newman Decl., Dkt. 59-1, at 4–6) (citing Alan Braid,
Opinion: Why I Violated Texas’s Extreme Abortion Ban, Wash. Post (Sept. 18, 2021), https://www.
washingtonpost.com/opinions/2021/09/18/texas-abortion-provider-alan-braid/). Others place the
figure higher: between 85% and 95% of all abortions previously provided in Texas are now
prohibited by law. (See Hagstrom Miller Decl. I, Dkt. 8-4, at 3-4; Gilbert Decl., Dkt. 8-2, at 5; Linton
Decl., Dkt. 8-5, at 6). This burden is far more extreme than that created by H.B. 2 in Hellerstedt,
which caused half of abortion facilities to close, doubled the number of women living more than 50
miles from a clinic, and increased the number of women living more than 150 miles from a clinic by
more than 350%. Hellerstedt, 136 S. Ct. at 2296.62 The law thus has both the “purpose” and the

As a whole, the situation is even more dire for minors: “[n]ow that the school year has begun, minors who
cannot confide in their families about their pregnancies or desire for an abortion are unable to explain a
protracted absence from school. Thus, S.B. 8 condemns minors to carry to term or take matters into their
own hands.” (Rupani Decl, Dkt. 8-8, at 8). Indeed, “[t]he near impossibility of obtaining an abortion within
the time permitted by the Act is all the more clear for our minor patients. Minor patients without a history of
pregnancy may be less likely to recognize early symptoms of pregnancy than older patients who have been
pregnant before. In addition, some of these patients cannot obtain written parental authorization for an
62

84

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 85 of 113
86a
“effect of placing a substantial obstacle in the path of a woman seeking an abortion of a nonviable
fetus.” Casey, 505 U.S. at 877. If this situation does not constitute an undue burden, it is hard to
imagine what would.
The State makes a half-hearted attempt to establish that pregnant persons are still able to
access abortions since S.B. 8 went into effect on September 1. But its assertions only illustrate how
effective the ban has been. The State cites only one case of an abortion being performed in post-S.B. 8
Texas. (Resp., Dkt. 43, at 50) (“Even as everyone is adjusting to the new law, women have been able
to obtain post-heartbeat abortions. Dr. Alan Braid, for example, reports that at least one of his
patients received an abortion ‘beyond the new legal limit[.]’”)). With this claim, the State appears to
argue that abortion services remain available because providers are willing to act in violation of S.B.
8—in other words, the law is constitutional because people will violate it. The absurdity of this
reasoning speaks for itself. Moreover, the abortion in question was a unique case, as it was seemingly
performed to invite publicity of the unconstitutional law. (Newman Decl., Dkt. 59-1, at 4–6) (citing
Alan Braid, Opinion: Why I Violated Texas’s Extreme Abortion Ban, Wash. Post (Sept. 18, 2021),
https://www. washingtonpost.com/opinions/2021/09/18/texas-abortion-provider-alan-braid/);
(Hagstrom Miller Decl. II, Dkt. 59-2 at 2 (“To my knowledge only one abortion in violation of S.B.
8 has occurred since September 1.”)). Even if this was not the only prohibited abortion to take place,

abortion as required by state law and must obtain a court order permitting them to receive care. Tex. Fam.
Code §§ 33.001–33.014. A court may take up to five business days to rule on a patient’s petition to bypass the
state’s parental-consent law for abortions, id. § 33.003, not including any time that may be necessary for a
minor patient to appeal an unfavorable decision. That process cannot realistically happen before a patient’s
pregnancy reaches 6 weeks LMP.” (Linton Decl., Dkt. 8-5, at 7). According to Linton, “the law is having a
particularly burdensome effect on minors who need a judicial bypass. We have already seen minors who do
not show embryonic cardiac activity at their initial ultrasound appointment, but will inevitably show cardiac
activity by the time that they come back for the abortion because it will take them days to get a judicial
bypass. These patients are so desperate, and we are worried that they will do something unsafe because the
only alternative for them to get an abortion is to go out of state, which is incredibly difficult for a minor to do
on their own. It is also our experience that some minors seeking a judicial bypass do so because they cannot
tell their parents about their pregnancy and abortion decision for fear of violence. We worry S.B. 8 will force
them into a dangerous situation.” (Linton Decl., Dkt. 8-5, at 11).

85

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 86 of 113
87a
the absence of other examples in a state which ordinarily would have seen thousands of abortions in
a month’s time makes clear the immediate chilling effect of the law.63
iii. Out-of-State Recourse
The State further asserts that Texas residents can still travel to other states to access abortion
care, which nullifies the likely unconstitutionality of the ban. (Resp., Dkt. 43, at 51). It argues that
the fact that people are travelling across state lines to obtain abortions, which may ultimately force
other states to expand their capacity, proves that abortion is still accessible and will remain so. (See
Tong Decl., Dkt. 8-6, at 3–5). But forcing people to make expensive and otherwise unnecessary
journeys to secure abortions cannot render this law constitutional.64 And even if they try to
accommodate the influx, other states may not be able to expand their capacity to keep pace.65 The

To be clear, the claim of constitutional infirmity does not arise out of the existence of a state tort law on its
own, as the State suggests with its puzzling analogy to New York Times v. Sullivan, 376 U.S. 254 (1964) and
Snyder v. Phelps, 562 U.S. 443 (2011). (See Resp., Dkt. 43, at 69; Hr’g Tr., Dkt. 65, at 70). It is the chilling effect
of the state law that creates the grave constitutional concern here, in contrast to the comparatively innocuous
defamation and other tort laws at issue in the cases the State cites. Here, review of the tort law is unavailable
through the ordinary process available in those cases because the abortion services that would result in civil
actions have been coerced out of existence.
64 (See Hagstrom Miller Decl. I, Dkt 8-4, at 8) (“Based on our prior experiences with clinic shutdown laws, we
know that the majority of our patients will not be able to travel out of state to obtain an abortion due to their
work, school, family, or childcare responsibilities and the high costs. In addition, many of our patients have
cited fears about travel during the COVID-19 pandemic or an inability to travel due to COVID-19 as one of
the many reasons they cannot travel out of state for care.”); (Gilbert Decl., Dkt. 8-2, at 16) (“I talked to a
colleague in Alabama who saw a patient last week from Dallas who drove ten hours to get to her, only to be
forced to wait several days for her procedure due to Alabama’s 48-hour waiting period.”).
65 A provider in Oklahoma and Kansas explained that her staff were “working hard to expand our capacity
and increase the number of patients we can serve at both clinics. . . . [by] working toward adding more clinic
days at both locations. Hiring and scheduling physicians and other support staff is no simple feat, though. In
both Kansas and Oklahoma, it is difficult to find in-state physicians who are willing to provide abortion care
because of the documented stigma, harassment, and violence abortion providers face. As a result, we must
recruit doctors from other states who will travel to our clinics. These physicians work with us on a part-time
basis and maintain medical practices and personal lives in their home states. It is challenging to find out-ofstate abortion providers willing to travel to our clinics, and even when we do find them, they must become
licensed in Kansas or Oklahoma before they can provide there. Our clinics also have a critical need for
additional support staff. In particular, we need more nurses . . . . Hiring this medical staff during a pandemic
is challenging to do. Trust Women Oklahoma City has already asked its physicians to increase their clinic days
to provide abortions three days each week. Some doctors are able to make this arrangement, but others
cannot. If S.B. 8 is not blocked, we will work toward providing abortions four days per week (up from two
days), but such a move is entirely dependent on our ability to hire and schedule new physicians and staff. But
63

86

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 87 of 113
88a
State’s examples only serve to illuminate just how unduly burdensome this ban is in practice. Indeed,
“[w]hile some patients have been able to pull together the resources to travel out of state for medical
care, many others cannot do so and are being forced to carry their pregnancy to term against their
will or to seek ways to end their pregnancies on their own.” (Linton Decl., Dkt. 8-5, at 5). And this
says nothing of the burden on patients and providers in other states. The Court finds, as one
provider credibly described, “[a]bsorbing thousands of Texas residents will have a domino effect on
access and wait times, and will interfere with our ability to provide timely reproductive and sexual
health care to the communities we currently serve. Thus, patients living in [other states] must delay
preventative care or go without . . . .” (Cowart Decl., Dkt. 8-7, at 8).
Many patients are unable to travel to other states for any number of reasons, from
immigration status to dangerous family situations to financial constraints.66 Indeed, “[t]raveling out
of state for abortion care presents significant, if not insurmountable, logistical and financial
challenges” such that “even the lucky ones able to travel are both delayed in obtaining care and need
to travel hundreds more miles to reach an abortion provider.” (Hagstrom Miller Decl., Dkt. 8-4, at
9).67 And delay is more than a minor inconvenience: patients must “continue to cope with the
physical symptoms of pregnancy, which for many include debilitating nausea and vomiting[;]” face
the risk that “others will discover the pregnancy, including abusive partners or family members[;]”
even if the two Trust Women clinics do expand their capacity, I fear that we still will not be able to serve
Texans and other out-of-state patients affected by S.B. 8.” (Tong Decl., Dkt. 8-6, at 8–9).
66 (See Hagstrom Miller Decl. I, Dkt. 8-4, at 4) (“A majority of patients at the McAllen Clinic are Spanish
speakers, and many face immigration-related restrictions on traveling outside of the Rio Grande Valley. For
example, while many of the patients are in this country legally, their visas prohibit them from traveling
outside of the Rio Grande Valley, so they cannot travel to New Mexico or even to San Antonio for any
reason, including to access abortion services.”); (Gilbert Decl., Dkt. 8-2, at 14–15) (“[T]here have been
multiple undocumented patients who were ineligible for an abortion under S.B. 8, but who stated that
traveling out of state was not an option for fear of being stopped by border patrol and deported. Another
patient said she could not travel out of state because she could not tell her unsupportive family that she was
having an abortion and ‘disappear for a few days’ without an explanation.”).
67 “For example, we saw one patient in McAllen who had already made a backup appointment in Oklahoma,
an 11-hour drive away. I have also spoken to colleagues in Michigan, Florida, New York, New Mexico, and
Georgia who have all seen patients from Texas in the last week.” (Hagstrom Miller Decl. I, Dkt. 8-4, at 9).

87

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 88 of 113
89a
deal with increasing costs and medical risks of both pregnancy and abortion with increasing
gestational age; and “cope with the fear of not being able to obtain abortion care in time (based on
other states’ gestational age limits, as most of the states surrounding Texas ban abortion after 22
weeks LMP)—and of the life-altering consequences of having to go through childbirth against their
will.” (Hagstrom Miller Decl., Dkt. 8-4, at 9). The increased travel burdens have forced more Texans
to turn to practical support organizations for financial and other support.68 The director of one non-

One out of state provider credibly described some of the practical obstacles: “We have also seen patients
who are homeless and face tremendous difficulties navigating how to travel a long distance to get an abortion.
One Texas patient, for example, told us that by the time they realized they were pregnant, they could not have
an abortion under S.B. 8 but they did not have any funds to travel out of state. The patient told us they felt
defeated, but knew that having an abortion was the best choice for them for a number of reasons.
Fortunately, we were able to get them an appointment at our health center in Colorado and provide assistance
for them to get there. Sadly, this level of personal and individualized support will simply not be possible for
everyone who contacts us (and there are so many more who will never contact us). Carless individuals trying
to find transportation to our health centers from Texas are also experiencing numerous obstacles to travel.
For example, we recently provided care to a Texas patient who was 7 weeks pregnant, but who did not have
her own credit card to rent a car (which many rental companies require) in order to travel to New Mexico for
an appointment. Although the patient is employed full-time, saving the funds to rent the car and pay for gas
(in addition to the cost of the abortion) was difficult for her. The patient told us she was ultimately able to
secure a rental car by using a friend’s credit card, and drove alone out and back to her appointment in the
same day—over 1000 miles round trip—because she didn’t have paid time off work and couldn’t afford to
miss the hours.” (Cowart Decl., Dkt. 8-7, at 5).
68

88

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 89 of 113
90a
profit has witnessed the challenges her clients must face,69 all while contending with potential liability
under S.B. 8, and dwindling funds available to support patients in need.70

“The number of callers seeking assistance . . . has shot up from approximately ten per week to ten to fifteen
per day. All but one has been unable to obtain an abortion in Texas because no abortion provider is offering
abortion care in the state after approximately six weeks of pregnancy, and virtually all our clients are past six
weeks. As a result, our callers are frantically trying to secure the resources needed to attend abortion
appointments out of state. By driving virtually all Texas residents out of state for abortion care and saddling
abortion facilities closer to various areas of Texas with long wait times, S.B. 8 has forced our callers to secure
appointments in farther and farther locations, including Tulsa and Oklahoma City, Oklahoma; Wichita,
Kansas; Santa Fe and Albuquerque, New Mexico; Denver, Colorado; and Seattle, Washington. Traveling to
any of these locations from Texas has been much more expensive, logistically demanding, and nervewracking for our clients than traveling within the state, particularly during the COVID-19 pandemic. . . . The
out-of-state travel precipitated by S.B. 8 has also required lodging spanning multiple days, added food costs,
extended time away from work depriving clients of critical wages and jeopardizing their jobs, extended time
away from children requiring alternate care arrangements, extended time away from home making it difficult
to conceal a pregnancy or abortion from an abuser, and extended time away from school compromising
minors’ confidentiality before their parents.
One of our clients obtained an ultrasound . . . only to learn there was cardiac activity and she would
be unable to obtain an abortion in Texas. To do so, she traveled almost 200 miles roundtrip within the state.
Since then, she has struggled to secure enough time off of work to leave Texas. The client’s appointment is
not for another three weeks, in Oklahoma City, Oklahoma, which will require her to make close to a 1,000mile round-trip for abortion care. . . . Another client has an appointment today in Albuquerque, New Mexico
and called us in a panic yesterday because, despite fighting tooth and nail, she had been unable to come up
with the funds for a hotel or any ground transportation. Fortunately, we were able to work with another
practical support organization to make sure she could obtain her abortion. . . . Another consequence of S.B. 8
is that most of our current clients must end their pregnancies without the support of loved ones, who can
rarely make lengthy trips without substantial financial and practical support either. . . . [O]ur clients now have
to choose between obtaining earlier appointments in even more distant locations or delaying their abortion
care even longer to get an appointment closer (but not close) to home. Most of our clients attempt to travel
farther because they are committed to ending their pregnancies as soon as possible. . . . One Texan faced with
this dilemma, piled her children into her car and drove over 15 hours overnight to obtain a medication
abortion in Kansas rather than struggle to patch together the money needed for air-fare and childcare or
remain in limbo. Another Texan traveled 12 hours round-trip to Oklahoma during the day to get her
procedure because she did not want her partner to know and was scared he would find out if she was not
home overnight.” (Rupani Decl., Dkt. 8-8, at 2).
70 “S.B.8 has constrained [the organization’s] ability to increase its budget to match the surge in callers and
greater scope of their needs. In the seven business days thus far in September, we have already spent $10,000.
We estimate that we will expend at least $25,000 before October, or a minimum of $10,000 more than usual.
Yet, at least fifteen potential donors have expressed fear that funding . . . . could be understood as aiding or
abetting under the statute. Accordingly, we have been unable to increase the number of callers we help since
S.B. 8 took effect.” When [the organization] lacks the resources to help a caller leave the state for abortion
care, we refer them to other practical support organizations throughout the country. Because these
organizations are serving the same influx of Texans, however, they too are often at capacity. Several callers
have been unable to obtain assistance from any of us and thus unable to leave Texas for an abortion.
Notably, almost all of them have at least one child at home and have expressed that they cannot afford to
care for their existing children if they are forced to have another. In my experience, these callers will carry to
term against their will if S.B. 8 remains in effect.” (Id. at 7–8)
69

89

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 90 of 113
91a
Texas residents forced to leave the state must also contend with the abortion restrictions and
backlogs in other states. The Court finds credible the evidence showing that the inundation of Texas
patients overburdens abortion services in other states, many of which are already stretched to the
breaking.71 For example, one provider in Oklahoma described the debilitating pressure on that
state’s limited abortion care resources. Before S.B. 8 went into force, her clinic provided abortions to
approximately ten Texas patients per week, totaling about one quarter of their patients. (Tong Decl.,
Dkt. 8-6, at 4). Since September 1, however, there has been a “dramatic increase in patient volume”:
“the clinic’s call volume has more than doubled from approximately 15 patient appointment calls
per day to 30 to 40. About two-thirds of our patient appointment calls now come from Texas
patients seeking abortions that are unavailable throughout their home state.” (Id.). The clinic is
scheduling at capacity but can accommodate no more than 40 patients per day and 80 per week.
Less than two weeks after the law went into effect, the clinic “has been forced to delay patients’
abortions because of the volume of appointments needed.” (Id.).72 A provider at two Planned
Parenthood facilities in Oklahoma credibly expressed similar sentiments:
I have treated numerous individuals who reside in Texas and who have been forced to travel
to Oklahoma to terminate their pregnancies. The surge of Texans that we have provided
abortions to in our Oklahoma health centers since September 1 is unprecedented, and the
demand only continues to grow. . . . [T]his is causing our schedules to become very
In neighboring Oklahoma, only one clinic in the state provides abortions after approximately 18 weeks
LMP. (Tong Decl., Dkt. 8-6, at 3). As Tong describes, “[d]ue to Oklahoma’s burdensome anti-abortion
restrictions, there are only four abortion clinics in the state, all of which are located in Oklahoma City and
Tulsa. Pregnant people in rural areas of Oklahoma, including the panhandle and southwestern corner of the
state, must travel hundreds of miles to reach the nearest abortion provider. Very few doctors who live in
Oklahoma are willing to provide abortion care. The regulatory requirements are extremely burdensome, and
physicians who do provide abortions are subject to discrimination in the medical and local communities,
harassment, and threatened and actual violence. . . . Trust Women Oklahoma City is therefore staffed entirely
by Oklahoma-licensed physicians based in other states who travel to Oklahoma City to provide abortion care.
. . . As a result, Trust Women Oklahoma City is able to offer abortion appointments only two days each
week.” (Id. at 2–3).
72 “Before September 1, if a patient called on Monday for an appointment, the clinic would generally be able
to schedule the patient for an abortion on a Thursday or Friday of the same week (with the mandatory 72hour delay required by Oklahoma law). Now, the clinic is scheduling patients for appointments three weeks in
advance—a significant delay for a time-sensitive medical procedure, and a delay that was extremely rare
before September 1.” (Id.).
71

90

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 91 of 113
92a
backlogged and I fear that we will not be able to continue to serve our existing patient
population in Oklahoma in a timely manner given the overflow of patients coming from
Texas. I believe this will force many patients to have abortions later in pregnancy, pressure
patients from communities in Oklahoma to scramble to seek care in other states farther
away, influence some patients to attempt to terminate their pregnancies outside the medical
system altogether in unsafe ways, or result in people carrying unwanted pregnancies to term.
(Yap Decl., Dkt. 8-9, at 3).73 The provider also notes credibly that, among the obstacles to obtaining
an abortion in Oklahoma, the state has a 72-hour waiting period, making the travel prohibitively
burdensome or expensive for some. (Yap Decl., Dkt. 8-9, at 5).74 The impact on the Oklahoma
clinics is stunning:
Since S.B. 8 took effect twelve days ago, I was the sole provider at our Tulsa and Oklahoma
City health centers . . . and treated 69 patients who reside in Texas. In the days leading up to
S.B. 8’s effective date, I also treated many patients from Texas who had heard about the law
in the news and were already scared . . . . [I]n the first six months of 2021 we treated a total
of 175 Texas residents. . . . [W]e saw 40% of the total number of patients from Texas that
we would normally see in six months in just twelve days. And since S.B. 8 took effect, we
have seen an overall staggering 646% increase of Texan patients per day compared to the
first six months of the year. Currently, people who are traveling from Texas to get an
abortion in Oklahoma are taking up at least 50% (and on some days nearly 75%) of the
appointments we have available at our Oklahoma health centers. . . . Indeed, there are over
240 Texans that have made appointments to . . . this week and next week.75
The declarant is “the only abortion provider at our Tulsa health center” and must “occasionally travel to
Oklahoma City to provide abortions when not other provider can.” The Oklahoma City Planned Parenthood
facility relies on “out-of-state doctors who each travel to Oklahoma to provide care a few days per month.”
(Id. at 4). The facilities have provided more than 1,300 abortions in 2021. (Tong Decl., Dkt. 8-6, at 3).
74 “We have had at least two patients from Texas make appointments to have a medication abortion but after
they had traveled to our Tulsa health center, we determined that they were ineligible for a medication
abortion and had to be rescheduled for another day to get a procedural abortion. This meant they had to
travel back to Texas, and then make another round trip from Texas to Oklahoma—traveling hundreds of
miles to get an abortion. We had to reschedule one of these patients for one week later because—due to her
work schedule—the only day she could make the long trip to Oklahoma was the following Saturday. This is a
concern we have heard from other Texas patients, too. Our schedule was already booked but we made an
exception because otherwise this patient would have had to wait two weeks, forcing her to have a more
expensive procedure, which she said she could not afford.” (Tong Decl., Dkt. 8-6, at 7).
75 The provider continues his credible description, “on Saturday, September 10, I provided abortions at our
Tulsa health center and of the 28 patients that received abortions, 17 were from Texas. The day before when
I provided abortions in Oklahoma City, of the 30 patients who received abortions, 23 of those patients were
from Texas. We expect this trend to only worsen over the coming weeks. . . . Specifically, for the week of
September 13, there are 101 people scheduled to have abortions at our Tulsa health center, of which 52 are
from Texas. And at our Oklahoma City health center, there are 219 people scheduled to have abortions, of
which 137 are people who live in Texas.” (Yap Decl., Dkt. 8-9, at 6). Further, “[b]ecause our schedules in
Oklahoma are quickly filling up, we have also begun telling people that they can travel to our health centers in
Kansas, or even Arkansas, to get an appointment sooner.” (Id. at 9).
73

91

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 92 of 113
93a

This provider echoes the concern that “[p]regnant people from Texas are scared and are frantically
trying to get appointments. They are doing everything they can to get to a state that will allow them
to terminate their pregnancies.” (Id. at 5).76
Similarly, in Kansas, a clinic that previously provided 20-40 abortions per week, and few to
Texas residents, has seen a crushing increase in patients.77 Since S.B. 8 took effect, “the clinic’s total
call volume has doubled, and approximately half of our calls now come from Texas patients seeking
abortions that they are no longer able to obtain in their home state. That clinic, Trust Women
Wichita is scheduling as many abortion procedures as it can—approximately 30 patients per clinic
day, or 60 patients per week.” (Id. at 5). About half of its patients now are from Texas, traveling
from as far as San Antonio and Houston—some travel 600 miles each way simply to obtain the pills

The provider continues, “What I have seen unfold since S.B. 8 took effect has been absolutely devastating.
The patients that are able to make it to Oklahoma to get their abortion are having to make substantial
sacrifices and overcome numerous obstacles, including struggling to come up with the funds to make the trip
to Oklahoma. They are also scared that someone may find out that they had an abortion when they go back
home to Texas and are unsure of what could happen to them under S.B. 8. Those patients who are seeking
abortions in the context of intimate partner violence or other family violence are risking more than they
already do in order to travel out of state to end their unwanted pregnancies. People are also worried about
having to travel long distances in the middle of a pandemic and what that could mean for the health and
safety of themselves and their families. And I too fear that this increased travel puts myself, our staff, and our
patients at greater risk of contracting COVID-19.
I also know that we are seeing only a fraction of the people in Texas who are seeking to have an
abortion, with some finding care in other states and others who simply cannot travel out of state or are afraid
to do so. I fear that many people, especially those with the fewest resources, will not be able to obtain safe
abortion care at all and will either seek to terminate their pregnancies themselves outside the medical system,
or be forced to carry unwanted pregnancies to term. Abortion is one of the safest medical procedures, but by
forcing patients to travel long distances and likely delay their procedures, Texas is endangering its citizens.
Not only is there no medical basis for this ban, but it is already inflicting serious hardship and trauma on
patients who are making very personal decisions that are right for them and their families.” (Id. at 10).
77 “Trust Women Wichita provides abortion care to approximately 1500 patients per year. . . . There are only
four abortion clinics in Kansas, serving the state’s nearly three million residents, and all four clinics are in the
Wichita or Kansas City metropolitan areas. Trust Women Wichita currently schedules patients for abortions
two days each week. Our schedule is limited by the availability of our physicians, nearly all of whom fly into
Wichita from out of state to perform abortions and have other practices in their home states, and the capacity
of our nurses and our staff. . . . [I]n 2019, Kansas abortion providers cumulatively provided abortions for
only 25 patients from Texas. . . . In 2020, that number soared to 289 because many abortions were
unavailable in Texas and Oklahoma for approximately one month.” (Tong Decl., Dkt. 8-6, at 5).
76

92

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 93 of 113
94a
for a medication abortion. (Id. at 5–6).78 This influx has resulted in scheduling delays for “most or
all” patients seeking abortion services at the clinic, increasing the risks and anxieties associated with
the process. (Tong Decl., Dkt. 8-6, at 6) (“Delays can result in adverse mental health consequences
for pregnant people who are forced to carry their pregnancies longer than they desired or
intended.”). And with the overlapping state regulation regimes, a delayed abortion can mean the
difference between a medication abortion—only available up to 11 weeks LMP in Kansas—or a
procedural abortion, if a patient is able to obtain an abortion at all. (Id. at 6–7).79 The provider was
“extremely concerned about [the Oklahoma and Kansas clinics’] ability to provide abortion care to
all pregnant people who contact us.” (Id.).80

An Oklahoma provider relates the same phenomenon: “While historically (before S.B. 8 took effect) the
patients we treated from Texas tended to live near the border, we are now seeing patients in Oklahoma who
are traveling from all across Texas. I treated one patient, for example, who got in her car at midnight in Texas
so that she could drive through the night and make it to Oklahoma in the morning for her abortion
appointment, and then she had to turn around the same day to travel back to Texas. Another patient
traveled six hours (one way) to get to Oklahoma and said she drove alone because she was worried about
asking someone to accompany her in case they could get in trouble under S.B. 8. Just since S.B. 8 took effect,
I have treated patients who have traveled from as far as Austin, Houston, Round Rock and San Antonio,
which means patients are traveling anywhere from 5 to 8 hours (one way) to get to our health centers in Tulsa
or Oklahoma City. . . . I can think of at least one patient who got a last minute ticket to come by plane, and
returned back to Texas the same day.
I also treated a patient from Texas who found someone to give her a ride to Tulsa, Oklahoma for her
appointment, but the trip took longer than expected and they arrived too late for her to get an abortion that
day. We managed to accommodate her on the Oklahoma City schedule for the next day, but she had to
scramble to find a hotel in Oklahoma for the night and get assistance to be able to pay for the hotel.
Unfortunately, her ride could not spend the night in Oklahoma so she had to also find help to get to
Oklahoma City from Tulsa, and then we had to help her with a bus ticket to get back to Texas. There was
only one bus that she could take, so we had to get her in and out of the abortion clinic with enough time to
make it to the bus station. . . . And while we are going to extraordinary measures to accommodate patients
due to S.B. 8, this is not a sustainable way to operate our health centers.” (Yap Decl., Dkt. 8-9, at 5–7).
79 “Additionally, although abortions at any gestational age are very safe, delays will push patients towards
more complicated procedural abortions in their second trimester. Later-stage procedural abortions carry
increased medical risks, may involve multiple visits to the clinic over two days, and involve significantly more
financial cost to patients—creating even more hardship for the economically and medically vulnerable
populations we serve. Most alarmingly, delays in abortion care might prevent some pregnant people from
obtaining an abortion altogether. Although we are working to mitigate that possibility, the need to
accommodate so many additional patients will mean that Trust Women may become unable to see some
patients before they reach the legal gestational limit for abortion in Kansas.” (Tong Decl., Dkt. 8-6, at 7).
80 Further, the clinics “have direct experience with abortion bans in neighboring states and know that the
influx of patients in Kansas and Oklahoma will require capacity we do not have. For example, during the
78

93

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 94 of 113
95a
Clinics in Colorado, New Mexico, and Nevada have also seen an increase in Texas patients
since S.B. 8 went into force. Ordinarily, Planned Parenthood facilities in these states provide an
average of 8.8 abortions for Texas residents per week. (Cowart Decl., Dkt. 8-7, at 3). “Yet, in a oneweek period (9/3/21–9/9/21), [the facilities] provided abortion services to 20 Texas patients—
which is 53% of [the] typical monthly patient volume [in] less than a third of the month” and “at
least 64 Texas residents who have scheduled appointments . . . in the coming weeks . . . .” (Id.).81 To
be clear, of these states, only New Mexico shares a border with Texas. Patients are thus undertaking
significant travels, in the midst of a pandemic, to access abortion care.82 In these states too, the
constant stream of Texas patients has created backlogs that in some places prevent residents from
accessing abortion services in their own communities. As the Planned Parenthood provider explains
credibly, a “significant percentage of the appointments available in our relatively small New Mexico
health centers are going to Texas residents. . . . [O]n August 31, the day prior to the law taking
effect, all of our online abortion appointments for [the] Albuquerque health center were made by
COVID-19 emergency in 2020, when both Texas and Oklahoma had executive orders preventing pregnant
people in those states from accessing abortions, Trust Women Wichita provided abortions to 200 Texans.
Both of those abortion bans were short-lived but taught us that we do not have the capacity to accommodate
large numbers of out-of-state patients in addition to the patients living in the communities we typically serve.”
(Id. at 8).
81 According to the credible provider, “this number may be an underestimation as we don’t require patients to
provide their address or location when making an appointment.” (Cowart Decl., Dkt. 8-7, at 4).
82 Patients from Texas travel incredibly long distances to reach our health centers in New Mexico and
Colorado; one patient even traveled all the way to one of our Southern Nevada health centers. For example,
we have had Texas patients travel from Fort Worth to Boulder, CO (approximately 790 miles one way); San
Antonio to Park Hill, CO (approximately 930 miles one way); and Houston to Fort Collins, CO and Aurora,
CO (approximately 1000 miles one way). Even those Texas patients who have come from cities that are
closer to the New Mexico border (such as El Paso and Amarillo) are having to make 4-hour drives (one way)
to reach our Albuquerque, NM health center. When faced with longer wait times at their “nearest” location
within our states, some patients have had to travel longer distances to access the care they need. On average,
the Texas patients we have seen since S.B. 8 went into effect have traveled approximately 650 miles (one way)
to access abortion out of state.” (Id. at 4). Moreover, “for patients who are experiencing intimate partner
violence, seeking an out-of-state abortion poses numerous challenges. For example, one patient told us that
she is discreetly attempting to leave Texas without her husband finding out because he is abusive and she
does not want to carry this pregnancy to term. She has told our staff that she is desperate, and is going to
extraordinary lengths to scrape together the funds (including selling personal items) to be able to make the
additional expenses of an out-of-state trip, but is very worried that her husband will find out given all the
logistical planning that she is doing.” (Id.).

94

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 95 of 113
96a
Texas residents.” (Id. at 5). Further, “[f]rom September 1 to September 11, Texas patients made up
close to one-third (29%) of the total abortion patients we saw at our New Mexico health centers.”
(Id.). When New Mexico clinics were similarly overwhelmed by Texas patients following Governor
Abbot’s shutdown of clinics early in the pandemic, providers were forced to refer New Mexico
patients to Colorado clinics, “negatively impacting their ability to seek care closer to their homes in
New Mexico.”83 According to credible calculations by a provider, “[i]f we averaged the number of
patients seen over the 5-week COVID-19 ban in Texas and assumed the current ban would follow a
similar pattern, [we] would expect to see 2,080 patients from Texas per year, up from 458 . . . . This
would be 4.5 times as many patients as [we] usually see[] from Texas.” (Id. at 7). But these smaller
clinics simply cannot cope with such an increase in demand;84 “[e]ven before the pandemic, this
would have strained operations and impacted patients from across our region. But . . . the pandemic
has put significant strain on our operations and we are not operating today at the same capacity . . .
.” (Id. at 7). Among other complications, the pandemic has created staffing shortages that further
burden abortion care resources.85 “Thus, despite sound operations, exhausting effort, and deep

“During the approximately five weeks when Texas deemed abortion services non-essential (3/22/20–
4/25/20), [Planned Parenthood facilities in the three states] saw 198 patients from Texas where we would
have expected only 44 patients based on prior monthly averages. This was a 350% increase over expected
patient volume from Texas and is a relevant case study for what we can anticipate since the State’s ban on
abortions after 6 weeks went into effect. During the time that the COVID-19 executive order was in place,
we were referring patients from New Mexico to our Colorado health centers in Durango and Cortez . . . . At
its peak during the COVID-19 ban, PPRM saw double the Texas patients in one week (64) than would
typically be observed in an entire month. Naturally, the numbers from this five-week period only captured
Texas patients who had the means, funding, and could take time away from school, work and other
responsibilities to facilitate travel outside of Texas for abortion care and undercounts the true demand for
services. For a host of reasons, many people will be unable to make the long out-of-state trips to bordering
states at all.” (Cowart Decl., Dkt. 8-7, at 6–7).
84 “[A]ccording to the most recent publicly available data, in 2019, there were 55,966 abortions performed in
Texas on Texas residents, whereas in 2019, the total number of abortions performed in New Mexico was
2,735. In 2020, there were 10,368 total abortions performed in Colorado.” (Id. at 7).
85 “Currently, we are at 75% staff capacity with significant shortages of licensed providers and support staff.
Indeed, right now due to staffing shortages, two New Mexico sites are sharing providers as we work to
increase staffing. Dealing with an influx of patients traveling long distances from another state also adds to
the stress and concerns our staff have about their own health and safety in avoiding contracting COVID-19.”
(Id. at 8).
83

95

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 96 of 113
97a
dedication to all patients regardless of their zip code, there is simply no way we can increase capacity
by that sort of magnitude to absorb tens of thousands Texas patients seeking their important, legal
health care.” (Id. at 8). These circumstances “will inevitably lead to scheduling delays[,]” as the
facilities were already scheduling two weeks in advance by mid-September. (Id. at 6). Moreover, the
clinics in New Mexico and Nevada do not provide abortions after 18 weeks LMP, meaning wait
times are even longer for those at later gestational stages.86 According to the Amici, similar effects
are expected to be felt in California and Illinois as well, underscoring the vast geographic reach of
S.B. 8’s implications. (Br. of Amici, Dkt. 9-1, at 10).
All this is to say that the State does not exist in a vacuum. Indeed, if Texas’s neighbors,
much less every other state, were to pass laws similar to S.B. 8—which if S.B. 8 is constitutional—
they are free to do—there would be no other states to which pregnant people could travel to obtain
an abortion. (See Newman Decl., Dkt 59-1, at 2) (citing Kurtis Lee & Jaweed Kaleem, The New Texas
Abortion Law Is Becoming a Model for Other States, L.A. TIMES (Sept. 18, 2021), https://www.latimes.
com/world-nation/story/2021-09-18/texas-abortionunited-states-constitution) (“From the Deep
South to the Upper Midwest, legislators in many conservative states have started to explore how
similar laws could be put in place in the months ahead.”). Underscoring the national scope of the
harm, Kansas clinics are now struggling to cope with an influx of patients from Louisiana who, prior
to the passage of S.B. 8 would have traveled to Texas for abortions, but now must find another,

The provider continues credibly, “[u]nderstandably, people are devastated that they cannot access health
care closer to home and that they are having to wait longer and face tremendous barriers than if Texas had
not forced abortion providers to shut down. One Texas patient had planned her pregnancy but recently
learned that the fetus had an anomaly incompatible with life. She was told by her doctor in Texas that there is
no exception under S.B. 8 for her circumstances, and that her only options were either to carry to term with
the fetus dying after birth, or to leave the state to receive the needed care to terminate the pregnancy.
Understandably, she was stricken with grief in dealing with this added burden. Our patient does not want to
incur the trauma of being forced to carry the pregnancy to term, and is hoping to move past this loss to
continuing planning her family. Faced with this heartbreaking “option,” she decided to make the long trip to
Colorado to seek care out of state.” (Id. at 6).
86

96

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 97 of 113
98a
more hospitable state among the ever-dwindling number. (Tong Decl., Dkt. 8-6, at 6). And laws
recently enacted in Oklahoma will, if they take effect, further burden the region’s abortion care
resources.87 Even now, an Oklahoma provider “had one woman from Texas who made an
appointment . . . but by the time she was scheduled, completed the consult appointment, and made
it in for the abortion appointment, . . . learned she was past the gestational age limit by which we
could provide an abortion at our clinic[,]” meaning the provider “regrettably had to refer that Texas
patient to a health center hours away in Colorado.” (Yap Decl., Dkt. 8-9, at 7). Indeed, states across
the country have enacted record numbers of abortion restrictions in recent years, including laws that
purport to ban all or most abortion services. (See Br. of Amicus, Dkt. 9-1, at 26). Given this trend,
there are increasingly few places for Texas residents to turn. State lines only provide a refuge so long
as different laws exist across them. But the constitutionality of a Texas law surely cannot turn on the
policy choices of its fellow states.
iv. Other Provisions of S.B. 8
The “undue burden” affirmative defense also fails to save the law, in the event that the law is
understood as a regulation rather than a ban, and assuming that the deterrent effect of the law has
not succeeded to the extent that a provider can still be found to perform the procedure. The Casey
court was clear in defining an “undue burden,” explaining, “Because we set forth a standard of
general application to which we intend to adhere, it is important to clarify what is meant by an
undue burden. . . . To the extent that the opinions of the Court or of individual Justices use the
undue burden standard in a manner that is inconsistent with this analysis, we set out . . . the
controlling standard.” 505 U.S. at 876–77. The affirmative defense written into S.B. 8 “bears no

“Oklahoma has passed five anti-abortion laws, all of which will take effect on November 1, 2021, unless
blocked by court order. At least two of those laws would decimate abortion access in the state: (1) H.B. 1102,
which is essentially a total ban on abortion that declares provision of abortion to be unprofessional conduct
by physicians that carries a penalty of, at a minimum, suspension of medical licensure for one year, and (2)
H.B. 2441, which bans abortion at approximately six weeks LMP.” (Tong Decl., Dkt. 8-6, at 9).
87

97

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 98 of 113
99a
resemblance” to the Casey standard, (Mot. Prelim. Inj., Dkt. 8, at 15), and so cannot bring an
otherwise unconstitutional law into compliance with that precedent. Further, it is implausible that
this obscure and somewhat unclear provision in the law will be sufficient to convince providers to
continue to provide abortions in the face of all of the obstacles discussed above. And unless it has
this effect, the affirmative defense—despite its name—does nothing to lessen the undue burden
imposed by S.B. 8.
Having found that Section 3’s post-embryonic cardiac activity ban is likely unconstitutional,
the remaining provisions of S.B. 8 must also be found facially invalid, as this Court declines to comb
through S.B. 8 “in piecemeal fashion” after determining that “the statutory provisions at issue [are]
facially unconstitutional.” Hellerstedt, 136 S. Ct. at 2318–19, as revised (June 27, 2016). Sections, 6 ,7
and 9 of S.B. 8 are unconstitutional in that they serve no purpose aside from implementing and
punishing non-compliance with the six-week ban. For example, the Court need not assess separately
S.B. 8’s mandate that physicians test for cardiac activity in an embryo before performing an abortion
because this requirement has no cognizable state interest aside from “the prohibition on abortion
after detection of cardiac activity.” See Planned Parenthood S. Atl., 2021 WL 672406, at *1; SisterSong
Women of Color Reprod. Just. Collective v. Kemp, 472 F. Supp. 3d 1297, 1324 (N.D. Ga. 2020) (remaining
provisions of Georgia abortion law invalid where “mutually dependent” on section found
unconstitutional). Similarly, the remaining sections of Section 3 that purport to create scheme to
enforce the six-week ban have no meaning in the absence of any prohibition of abortions under S.B.
8. See S.B. 8 § 171.208(a)(2) (limiting liability to those who aid or abet an abortion “performed or
induced in violation of” S.B. 8). As such, Sections 3, 6, 7, and 9 of S.B. 8 are facially invalid in their
entirety, and accordingly their enforcement must be enjoined. The same must be true for the entirety
of S.B. 8, for “[t]he provisions are unconstitutional on their face: Including a severability provision
in the law does not change that conclusion. Hellerstedt, 136 S. Ct. at 2319.
98

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 99 of 113
100a
The State argues that, should the Court find any provision of S.B. 8 to be unconstitutional, it
should sever such provisions from the law and leave the remaining provisions intact. In support of
this request, the State cites the severability provision of the law, which confirm that the Texas
legislature “intended all provisions . . . to be severable,” that it “would have enacted any and all
provisions . . . regardless of whether any provisions are subsequently determined to be
unconstitutional,” and that “each provision is severable.” (Resp., Dkt. 43, at 55). However, as the
Supreme Court wrote in Hellerstedt, “our cases have never required us to proceed application by
conceivable application when confronted with a facially unconstitutional statutory provision.” 136 S.
Ct. at 2319. Such an approach would be “quintessentially legislative work” outside the bounds of the
court’s ordinary review. Ayotte v. Planned Parenthood of N. New England, 546 U.S. 320, 329 (2006). The
State attempts to distinguish the law and its severability provision from those at issue in Hellerstedt,
but such a distinction cannot stand, because the severability provision of the very same law is at issue:
Texas Health and Safety Code Chapter 171. In that case and here, the State has attempted to insulate
its amendments to that law with substantially the same severability provisions. Compare Hellerstedt,
136 S. Ct. at 2318–19 (“The severability clause says that ‘every provision, section, subsection,
sentence, clause, phrase, or word in this Act, and every application of the provision in this Act, are
severable from each other.’. . . It further provides that if ‘any application of any provision in this Act
to any person, group of persons, or circumstances is found by a court to be invalid, the remaining
applications of that provision to all other persons and circumstances shall be severed and may not
be affected.’”) (citing H.B. 2, § 10(b), with Resp., Dkt. 43, at 70 (“In section 171.212 . . . , the Texas
Legislature explicitly stated that (1) it intended all provisions of chapter 171, in which the heartbeat
provisions are located, to be severable, and (2) it would have enacted any and all provisions of
chapter 171 regardless of whether any provisions are subsequently determined to be

99

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 100 of 113
101a
unconstitutional.”)). Here, as there, the Court “reject[s] Texas’ invitation to pave the way for
legislature to immunize their statutes from facial review.” Hellerstedt, 136 S. Ct. at 2319.
b. Whether S.B. 8 Violates Preemption and Intergovernmental Immunity Principles
The United States also separately asserts as-applied challenges based on S.B. 8’s interference
with federal officers and programs that provide or facilitate abortions for those under the programs’
ambits. (Compl., Dkt. 1, at 15–24; Mot. Prelim. Inj., Dkt. 8, at 16–22). As the Court has already
established the United States’ likelihood of success in establishing the unconstitutionality of S.B. 8
broadly, it need not dwell extensively on as-applied challenges to S.B. 8’s impact on federal
programs. However, it will briefly address this point as it finds the United States has a high
likelihood of success in demonstrating that S.B. 8 violates constitutional principles of preemption
and intergovernmental immunity. Under the doctrine of preemption, “state laws are preempted
when they conflict with federal law.” Arizona, 567 U.S. at 399 (2012). State laws are also preempted
when they “stand as an obstacle to the accomplishment and execution of the full purposes and
objectives of Congress.” Aldridge v. Miss. Dep’t of Corrections, 990 F.3d 868, 875 (5th Cir. 2021)
(quotations omitted). This doctrine includes cases where “compliance with both federal and state
regulations is a physical impossibility.” Arizona, 567 U.S. at 399 (quotations omitted). In order for a
state law to be preempted, it must be in “sharp conflict” with the federal law. Williams, 987 F.3d at
198.88
Regarding intergovernmental immunity, states cannot “control the operations of the
constitutional laws enacted by Congress” nor directly impede the Executive Branch’s “execution of
those laws.” Trump v. Vance, 140 S. Ct. 24124, 2425 (2020). States may not subject federal officers to
liability by states for carrying out their federal duties. In re Neagle, 135 U.S. 1, 62 (1890) (noting that

The preemption doctrine applies to federal regulations as well as statutes. See, e.g., Fla. Lime & Avocado
Growers, Inc. v. Paul, 373 U.S. 132, 138, 141 (1963).
88

100

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 101 of 113
102a
the Supremacy Clause protects the right of the United States and its officers to enforce federal law
without state interference). Further, a state law violates intergovernmental immunity if it “interferes
with a federal contractor’s ability to discharge” its contractual obligations to the federal government.
Student Loan Servicing, 351 F.Supp.3d at 73–74.
In response to the United States’ arguments that S.B. 8 is preempted by federal law and
violates principles of intergovernmental immunity, the State’s primary argument is that “Texas
courts are unlikely to interpret the Act to apply the federal government . . .” (Resp., Dkt. 43, at 39).89
However, this argument is ineffective for two reasons: First, S.B. 8 does not explicitly disclaim its
applicability to the federal government. And second, without an explicit disclaimer, the doctrines of
preemption and intergovernmental immunity are violated, regardless of whether anyone actually sues
the United States to enforce S.B. 8. The United States has sufficiently established that S.B. 8
conflicts with the laws and regulations governing the abortion-related services of its agencies, as it
would subject them to liability for carrying out their mandates to provide or facilitate pre-viability
abortions. (See, e.g., McLearen Decl., Dkt. 8-10, at 4–5; Sheehan Decl., Dkt. 8-11, at 6; Matz Decl.,

The State argues this Court should not decide the applicability of S.B. 8 to the federal government because
of the Pullman abstention doctrine. (Resp., Dkt. 43, at 40). The Pullman abstention doctrine is appropriate only
when “(1) there is a substantial uncertainty as to the meaning of the state law and (2) there exists a reasonable
probability that the state court’s clarification of state law might obviate the need for a federal constitutional
ruling.” See Hawaii Hous. Auth. v. Midkiff, 467 U.S. 229, 236 (1984). The doctrine “is an extraordinary and
narrow exception to the duty of a District Court to adjudicate a controversy properly before it.” Southwest
Airlines Co. v. Texas Inter. Airlines, Inc., 546 F.2d 84, 92 (1977) (citing Alleghany Cty. V. Frank Mashuda Co., 360
U.S. 185, 188–89 (1959)). “[A]bstention is inappropriate when the United States seeks to assert in federal
court a superior federal interest.” United States v. Composite State Bd. Of Medical Examiners, State of Ga., 656 F.2d
131, 135 (1981). As discussed supra in Section IV(B)(1)(a)(ii), the United States has a significant federal
interest in ensuring its agencies are able to follow the laws and regulations governing their provision of
abortion-related services. This interest is superior to that of the State’s in supporting the validity of S.B. 8, as
S.B. 8 likely violates the Supremacy Clause, preemption, and principles of intergovernmental immunity. As
such, this Court does not find that this case fits within Pullman’s “extraordinary and narrow exception” to this
Court’s jurisdiction.
89

101

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 102 of 113
103a
Dkt. 8-14, at 5; Bodenheimer Decl., Dkt. 8-15, at 3).90 For example, S.B. 8 permits liability for
providing abortion services in cases of rape, incest, and assault, see Tex. Health & Safety Code §
171.208(j), while federal regulations require BOP to assume all costs for an individual who requests
an abortion if the pregnancy resulted from rape or incest. (McLearen Decl., Dkt. 8-10, at 6, 25); 28
C.F.R. § 551.23. This type of direct conflict between S.B.8 and federal law easily constitutes a case
where “compliance with both federal and state regulations is a physical impossibility.” Arizona, 567
U.S. at 399 (quotations omitted).
The State additionally goes through each of the federal programs cited by the United States
as being impacted by S.B. 8 and, in doing so, makes three main arguments. First, the State asserts
that BOP, USMS, ORR, OPM, DOL, and Medicaid are only required to perform abortion-related
services when they are able to do so in line with the applicable state law regarding abortions, and as
such, should be able to accommodate S.B. 8. (Resp., Dkt. 43, at 40–42). But, of course, the
requirement that abortion provision be consistent with state law assumes the constitutionality of the
state law. Requiring federal programs providing mandated abortion services to suffer liability based
on a state law that is likely unconstitutional “subject[s] federal officers to liability . . . for carrying out
their federal duties” and is thus most likely violation of intergovernmental immunity. See In Re
Neagle, 135 U.S. at 62.

The Texas Intervenors argue that any federal obligations to arrange for post-heartbeat abortions can be
“fulfilled by having those abortions performed in other states.” (Int. Resp., Dkt. 44, at 16). The State itself
made this argument during the October 1, 2021 hearing on the preliminary injunction. (Hr’g Tr., Dkt. 65, at
86). But that is precisely the issue—in order for these agencies to comply with their responsibilities under
federal statutes, regulations, and case law, they must expend considerable resources. (McLearen Decl., Dkt. 810, at 5–6; Sheehan Decl., Dkt. 8-11, at 4–5; De La Cruz Decl., Dkt. 8-12, at 7; Torres Decl., Dkt. 8-13, at 5–
6; Matz Decl., Dkt. 8-14, 5–6). The agency directors have stated they are unsure of how to comply with their
federal law obligations and S.B. 8 simultaneously, and whether providing services that purport to violate S.B.
8 will subject them to liability. (See, e.g., McLearen Decl., Dkt. 8-10, at 4). This is sufficient to demonstrate that
S.B. 8 is, at the very least, “an obstacle to the accomplishment and execution of” these agencies’ obligations
under the law. See Aldridge, 990 F.3d at 875.
90

102

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 103 of 113
104a
The second argument the State makes is that DoD and ORR are not themselves responsible
for coordinating abortion services but must instead simply “step out of the way” when individuals in
their care or custody request such services. (Resp., Dkt. 43, at 41–42; see also Hr’g Tr., Dkt. 65, at 57).
However, the evidence before this Court does not support this conclusion. ORR regulations state
that the agency “must provide access to abortion services when requested and permitted by law.”
(Def. Hr’g Exh., Dkt. 67-11, at 44–46; De La Cruz Decl., Dkt. 8-12, at 5). Further, the DoD has the
authority to use federal funds to provide abortions to individuals in its care when “the life of the
mother would be endangered” or where the pregnancy resulted from “rape or incest.” S.B. 8
explicitly. 10 U.S.C. § 1093(a). But S.B. 8 allows suits based on “rape, sexual assault, [or] incest,” and
the law provides only a very narrow exception for abortions during a “medical emergency,” which
may not be interpreted by providers working with DoD to encompass an abortion any time the
mother’s life might be endangered. See Tex. Health & Safety Code § 171.205(a).91 As such, the
regulations and statutes governing the ORR and DoD are in conflict with S.B. 8 and likely violate
the preemption doctrine.
Finally, regarding DOL, the State makes the curious argument that there is no violation of
intergovernmental immunity since only one or two participants in Texas’s Job Corps centers
requested abortion services between 2019-21. (Resp., Dkt. 43, at 41, 43–44). It appears the State
believes there is some sort of volume requirement when it comes to the number of people that must
be affected by a law to find a violation of intergovernmental immunity. This requirement, of course,
does not exist. See Elk Grove Unified Sch. Dist. v. Newdow, 124 S. Ct. 2301, 2323 (2004) (“There are no
de minimis violations of the Constitution—no constitutional harms so slight that the courts are
obliged to ignore them.”). S.B. 8 has already changed the way DOL provides healthcare for their

This same conclusion applies to Medicaid, which must, when medically necessary, provide abortion-related
services for pregnancies resulting from rape or incest, or to save the life of the pregnant person. (Costello
Decl., Dkt. 8-16, at 4).
91

103

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 104 of 113
105a
participants by increasing costs and limiting opportunities for these individuals to access abortions,
should they request one. (See Torres Decl., Dkt. 8-13, at 5–6; Matz Decl., Dkt. 8-14, 5–6).92 The law
plainly conflicts with the agency’s obligations to facilitate services for any present or future Job
Corps participants seeking an abortion beyond the timeline allowed by S.B. 8. As such, there is a
high likelihood S.B. 8 violates intergovernmental immunity.
Given the propriety of the United States as plaintiff, the State as defendant, the nature of the
equitable action, and the apparent constitutional violations, the Court finds that the United States is
substantially likely to succeed on the merits of its claims.
2. Irreparable Harm
The party seeking a preliminary injunction must prove that irreparable harm is likely, not
merely possible. Winter, 555 U.S. at 22. Irreparable harm “consists of harm that could not be
sufficiently compensated by money damages or avoided by a later decision on the merits.” Canon,
Inc. v. GCC Int’l Ltd., 263 F. App’x 57, 62 (Fed. Cir. 2008). The State urges that a preliminary
injunction would not prevent irreparable harm, as “[t]he threat of liability would remain given the
significant possibility that a preliminary injunction would be stayed, reversed, or not turned into a
permanent injunction . . . .” (Resp., Dkt. 43, at 60). What the State fails to understand, or chooses
not to acknowledge, are the stakes of this injunction in the lives of its citizens. The cases it cites
address monetary penalties, funding regulations, and arbitration procedures. See, e.g., American Postal
Workers Union, AFL-CIO v. U.S. Postal Service, 766 F.2d 715 (2d Cir. 1985); Buckingham Corp. v. Karp,
762 F.2d 257, 262 (2d Cir. 1985); Ohio v. Yellen, No. 1:21-cv-181, 2021 WL 1903908, at *14 (S.D.
Ohio May 12, 2021); Chiafalo v. Inslee 224 F. Supp. 3d 1140, 1147 (W.D. Wash. 2016); Oxford Capital

Job Corps administrator Rachel Torres testified during a deposition that the North Texas Job Corps center
does not pay costs related to abortion services for its participants. (Def. Hr’g Exh. 12, Dkt. 67-12, at 36–38).
This is in line with her sworn declaration, which explained how three of the four Job Corps sites in Texas do
in fact pay for abortion-related costs. (Torres Decl., Dkt. 8-13, at 5).
92

104

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 105 of 113
106a
Ill., L.L.C. v. Sterling Payroll Fin., L.L.C., No. 1:01-cv-1173, 2002 WL 411553, at *5 (N.D. Ill. Mar. 15,
2002). At the most basic level, these cases do not present the same fundamental and immediate
threats to the lives and wellbeing of citizens as seen here. Attempts to analogize to those cases are of
course valid to understand the legal principles, but this exercise cannot be allowed to overshadow
the reality that real people are being denied the constitutionally protected right to make decisions
about their pregnancies. The State attempts to distance the law from its consequences, but let us be
clear: S.B. 8 prevents individuals from exercising their right to obtain abortions in Texas, and an
injunction will restore that right. The Court finds credible the appraisal of the current state of affairs
by one provider:
Every day that S.B. 8 is in effect, our patients are in jeopardy. Draconian laws like S.B. 8 do
not stop people from needing abortions, and they don’t stop abortions from happening—by
eliminating safe and legal options, they only force abortion care underground with
potentially devastating consequences. This cruel and dangerous law is causing irreparable
harm to our patients and the communities we serve.
(Linton Decl., Dkt. 8-5, at 15).
The State attempts to argue that a preliminary injunction will provide no redress to the
harms caused by S.B. 8, claiming that the deterrent effect of S.B. 8 will remain even if the law is
preliminarily enjoined. (Resp., Dkt. 43, at 61). This claim rests on the section of S.B. 8 providing that
“reliance on any court decision that has been overruled on appeal or by a subsequent court” is “not
a defense.” Tex. Health & Safety Code § 171.208(e)(3). The State claims it is unlikely providers will
be willing to resume abortion procedures upon an injunction, given that the retroactivity provision
in S.B. 8—of questionable legality itself—extends future liability to abortions facilitated during the
operation of any preliminary injunction. There is no reason to assume providers will be so deterred.
Indeed, the President and Chief Executive Officer of Whole Women’s Health and Whole Women’s
Health Alliance (which collectively operate four clinics in Texas) has represented that the clinics
under her authority will resume providing those abortions prohibited under S.B. 8 “if and when a
105

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 106 of 113
107a
preliminary injunction is entered in this case[,]” and has received personal confirmation that other
clinics will do the same. (See Hagstrom Miller Decl. II, Dkt. 59-2, at 2).93 But even if the desired
chilling effect of this provision does materialize, such speculation is no reason for the Court to tie its
own hands.
Despite the State’s attempts to obscure the question, the irreparable harm inquiry is in reality
quite clear: people seeking abortions face irreparable harm when they are unable to access abortions;
these individuals are entitled to access to abortions under the U.S. Constitution; S.B. 8 prevents
access to abortion; a preliminary injunction will allow—at least for some subset of affected
individuals—abortions to proceed that otherwise would not have.94 The harm from S.B. 8 has
already materialized, as “[t]he civil penalties and burdens of litigation threatened by this ban are
severe and . . . . have already prevented abortion providers from carrying out [their] medical and
ethical duties.” (Gilbert Decl., Dkt. 8-2, at 15). It is clear that, absent an injunction, “[t]he majority of
pregnant Texans who want an abortion will be forced to carry those pregnancies to term and face
the risks—medical and financial—attendant with childbirth.” (Hagstrom Miller Decl. I, Dkt. 8-4, at
8). Moreover, the Court finds credible the existential threat to abortion clinics, and thus to the

Hagstrom Miller further attests, “this week our physicians have been using their discretion to provide
patients whose pregnancies are found to have cardiac activity with all state mandated information to comply
with Texas’s 24-hour mandatory delay, so that if and when a preliminary injunction is entered, we will be
ready to call those patients to come in for abortions. . . . I have had personal conversations with the majority
of independent abortion clinics in Texas regarding S.B. 8. I can affirm that like WWH/WWHA, many
providers will resume pre-viability abortion services to patients with cardiac activity up to the legal limit in
Texas (17.6 weeks LMP or 21.6 weeks LMP, depending on the type of clinic) if and when a preliminary
injunction is entered in this case. While we continue to have concerns about liability under S.B. 8 if the
injunction is later reversed, neither we nor our patients can wait the months or even years for completion of
all S.B. 8 litigation to resume services. If this Court issues an injunction, we intend to follow the Court’s order
and resume services.”) (Id. at 2-3).
94 (See Rupani Decl., Dkt. 8-8, at 8) (“Despite our staff working 12- to 14-hour days, however, [a practical aid
organization] cannot meet the level and scope of need we are seeing since S.B. 8 took effect. Indeed, no
network of organizations can serve the untold number of Texans seeking abortions whose only option now is
to leave the state, but who cannot afford to or are practically unable to do so. Currently, the relatively
fortunate clients are those who are able to leave Texas, subject nonetheless to delayed abortion care, lengthy
travel, and significant time away from work and home. In these ways, S.B. 8 has triggered an unprecedented
crisis that will persist until the statute is invalidated.”).
93

106

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 107 of 113
108a
constitutional right to abortion, as articulated by the President and Chief Executive Officer of
Whole Women’s Health and Whole Women’s Health Alliance:
If the law remains in effect for an extended period of time, and we are only able to serve a
fraction of our patients with a fraction of our staff, we will have to shutter our doors and
stop providing any healthcare to the communities we serve. I believe that, without courtordered relief in the next couple of weeks, S.B. 8 will shutter most if not all of the remaining
abortion clinics in Texas. . . . We simply cannot stay open if we are only providing a fraction
of patient services.
(Hagstrom Miller Decl. I, Dkt. 8-4, at 11). Therefore, an injunction is appropriate and warranted to
prevent irreparable harm to the United States’ interest in protecting the constitutional rights of its
citizens.
3. Balance of Equities and Public Interest
When the United States is a party to a preliminary injunction motion, the final two factors of
the inquiry—balance of the equities and public interest—merge. Nken, 556 U.S. at 435. Here it is
abundantly clear that the harm to the plaintiff and the public interest “are one and the same, because
the government’s interest is the public interest . . . .” Pursuing Am.’s Greatness v.
Fed. Election Comm’n, 831 F.3d 500, 511 (D.C. Cir. 2016). The State argues that, to the extent S.B. 8
causes any harm to individual citizens, it is not within the United States’ purview to rectify those
harms, and that the harm to the United States itself is merely “de minimis” financial costs. (Resp.,
Dkt. 43, at 54). However, the United States’ interest in vindicating the constitutional rights of its
citizens is a sovereign interest, as “our National Government is republican in form and . . . national
citizenship has privileges and immunities protected from state abridgement by the force of the
Constitution itself.” U.S. Term Limits, Inc. v. Thornton, 514 U.S. 779, 842 (1995) (Kennedy, J.,
concurring). The United States is charged with protecting those “privileges and immunities.” See
Brackeen, 994 F.3d at 292 n.13 (stating that the federal government, and not the state, is the ultimate
protector of the constitutional rights of its citizens). Defending the constitutional rights of citizens is

107

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 108 of 113
109a
always in the public interest. G&V Lounge, Inc. v. Mich. Liquor Control Comm’n, 23 F.3d 1071, 1079
(6th Cir. 1994) (citing Gannett Co., Inc. v. DePasquale, 443 U.S. 368, 383 (1979)).
Included within the United States’ interest in upholding the legitimacy of the Constitution is
the federal government’s interest in defending against schemes that offer state governments an
opportunity to do an end run around the Constitution. See infra Section V (discussing how the model
of S.B. 8 could be replicated to impede upon other types of constitutional rights). The United States
has demonstrated that it is in its interest—and therefore the public’s interest—to prove that the
Constitution is not only as strong as one state’s thinly veiled attempt to restrict constitutional rights
and preclude judicial review. “[T]here is the highest public interest in” preserving
“constitutional guarantees, including those that bear the most directly on private rights. United States
v. Raines, 362 U.S. 17, 27 (1960). Conversely, the State can have no interest in enforcing a law that is
likely unconstitutional on its face, nor can it have any valid interest in shielding an arguably
unconstitutional law from judicial review. See Velazquez, 531 U.S. at 546 (noting that a statute written
with the intent to limit judicial review “threatens severe impairment of the judicial function”).
V. THE PRELIMINARY INJUNCTION AND ITS EFFECT
Based on the foregoing, this Court holds that a remedy in equity is warranted and will enter a
preliminary injunction that comports with the well-established principles of equity. The State insists
that this Court should examine the individual provisions of S.B. 8 and sever only portions of it.
(Resp., Dkt. 43, at 70–71); Tex. Health & Safety Code § 171.212. While S.B. 8’s severability clause
“express[es] the enacting legislature’s preference for a narrow judicial remedy,” its severability clause
does not require this Court to perform legislative work.95 Hellerstedt, 136 S. Ct. at 2319. Like the
Hellerstedt Court, this Court will not attempt the legislative exercise of picking and choosing what

While S.B. 8 states that “[n]o court may decline to enforce the severability requirements . . . on the ground
that severance would rewrite the statute or involve the court in legislative or lawmaking activity,” this Court
follows the Supreme Court’s instructions.
95

108

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 109 of 113
110a
portions of S.B. 8 could remain in effect, if any, to avoid the substantial risk of causing the
“inconsistent application of only a fraction of interconnected regulations” in Chapter 171 of the
Texas Health and Safety Code. Id. at 2320.
Despite the Texas Attorney General’s lack of clarity about what the State would do in the
face of a preliminary injunction, this Court trusts that the State will identify the correct state officers,
officials, judges, clerks, and employees to comply with this Order. The Court relies on the Texas
Attorney General’s representation that the State “would [not] want to do anything that could lead to
contempt.” (Hr’g Tr., Dkt. 65, at 90).
IT IS ORDERED that the State of Texas, including its officers, officials, agents,
employees, and any other persons or entities acting on its behalf, are preliminarily enjoined from
enforcing Texas Health and Safety Code §§ 171.201–.212, including accepting or docketing,
maintaining, hearing, resolving, awarding damages in, enforcing judgments in, enforcing any
administrative penalties in, and administering any lawsuit brought pursuant to the Texas Health and
Safety Code §§ 171.201–.212. For clarity, this Court preliminarily enjoins state court judges and state
court clerks who have the power to enforce or administer Texas Health and Safety Code §§
171.201–.212.
As set out above, this Court has the authority to enjoin the private individuals who act on
behalf of the State or act in active concert with the State, including the Intervenors, and that
injunction would be commensurate in scope with S.B. 8’s grant of enforcement power. However,
the Court need not craft an injunction that runs to the future actions of private individuals per se,
but, given the scope of the injunctions discussed here and supported by law, those private
individuals’ actions are proscribed to the extent their attempts to bring a civil action under Texas
Health and Safety Code § 171.208 would necessitate state action that is now prohibited.

109

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 110 of 113
111a
IT IS ORDERED that the State of Texas must publish this preliminary injunction on all of
its public-facing court websites with a visible, easy-to-understand instruction to the public that S.B. 8
lawsuits will not be accepted by Texas courts. IT IS FURTHER ORDERED that the State of
Texas shall inform all state court judges and state court clerks of this preliminary injunction and
distribute this preliminary injunction to all state court judges and state court clerks. The Court
recognizes that it may not be in the best position to dictate the particulars. Accordingly, the State
may propose different means of disseminating this information—that still achieve the goals of
informing the state judiciary and plainly informing the public of this preliminary injunction and its
effect—for this Court’s review and approval.
In reaching the conclusion that a preliminary injunction is necessary here, the Court has
attempted to carefully and thoughtfully weigh the important interests of the parties in this case and
be mindful of the larger principles at play. In particular, the Court acknowledges the State’s concern
that this decision could increase the number of suits brought by the United States against states. The
Court is satisfied that this is an exceptional case and likely will remain an exceptional case for several
reasons. First, historically, the United States does not file many suits against states. In the last
decade, the United States sued a state fourteen times under a theory of preemption or
intergovernmental immunity. (Hr’g Tr., Dkt. 65, at 105). And, “those were actions brought by
administrations of different political parties.” (Id.). Second, the United States acts when state law
violates the Constitution and has a widespread effect. (See id. at 24). Third, and this what makes this
case exceptional, the United States seeks to enjoin the State in this case not only because the United
States believes S.B. 8 violates the constitutional rights of Texas citizens and is causing widespread,
significant injuries, but also because the United States alleges that the State “designed [S.B. 8] to
preclude the ability of those whose rights are being violated from vindicating their rights.” (Hr’g Tr.,
Dkt. 65, at 24).
110

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 111 of 113
112a
The United States, in response to this Court’s questioning about limiting principles,
explained:
[T]he reason that the United States had to file this action is not just that Texas
enacted legislation that was designed unconstitutionally to impose restrictions on
abortion rights. Other states have done the same things. And women who have
wanted to pursue abortions or clinics that provide abortions have succeeded in
challenging those laws [through] the ordinary procedures.
What’s unique and what’s different about this law is that it specifically deprives those
who are affected by the law of an ability to obtain the redress that is necessary in
order to defend the Constitution. It’s because of this system of deterrence that Texas
is trying to effectively do an end run around the supremacy clause. And that
limitation, the equitable principle that if other easier remedies are available that
equity will not create a remedy, that is a limiting principle; and it’s a limiting principle
that doesn’t come into effect here only because Texas has devised this scheme that
the chief justice described as unprecedented.
(Hr’g Tr., Dkt. 65, at 25). The Court further observes that this case is exceptional because it is the
rare intersection where the United States has standing and a cause of action to vindicate its citizens’
rights. To the extent that this Court’s holding leads to more lawsuits like this one, this Court would
rely on the Congress and higher courts to narrow the scope of the cause of action.
Moreover, had this Court not acted on its sound authority to provide relief to the United
States, any number of states could enact legislation that deprives citizens of their constitutional
rights, with no legal remedy to challenge that deprivation, without the concern that a federal court
would enter an injunction. As has been reported, “legal scholars fear that the law in Texas will lead
to a rush of similar efforts in other states, prompting local legislators to pursue new measures on
gun rights, immigration[,] and other divisive political issues, all in an effort to sidestep the federal
government. From the Deep South to the Upper Midwest, legislators in many conservative states
have started to explore how similar laws could be put in place in the months ahead.” (The New
Texas Abortion Law Is Becoming a Model for Other States, L.A. Times, Supp. Dec. Newman, Dkt.
56-2, at 10–11). Equally plausible is that states at the other end of the political spectrum could use a
similar tactic to ban or impermissibly limit another constitutional right, like a right grounded in the
111

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 112 of 113
113a
Second Amendment, to further a political agenda. This Court’s preliminary injunction, should it
stand, discourages states from doing so: if legislators know they cannot accomplish political agendas
that curtail or eliminate constitutional rights and intentionally remove the legal remedy to challenge
it, then other states are less likely to engage in copycat legislation. Thus, rather than increase the
number of suits by the United States, this Court’s preliminary injunction maintains the status quo of
very few such suits and preserves this cause of action for exceptional cases like this one.
Finally, the State has requested, in the event the Court preliminarily enjoins enforcement of
S.B. 8, that the Court stay any injunction until the State has the opportunity to seek appellate review.
The State has forfeited the right to any such accommodation by pursuing an unprecedented and
aggressive scheme to deprive its citizens of a significant and well-established constitutional right.
From the moment S.B. 8 went into effect, women have been unlawfully prevented from exercising
control over their lives in ways that are protected by the Constitution. That other courts may find a
way to avoid this conclusion is theirs to decide; this Court will not sanction one more day of this
offensive deprivation of such an important right.
VI. CONCLUSION
Based on the Court’s findings of fact and conclusions of law:
IT IS ORDERED that the United States’ Emergency Motion for Temporary Restraining
Order or Preliminary Injunction, (Dkt. 8), is GRANTED as set out above in Section V.
IT IS FURTHER ORDERED that the States of Texas’s Motion to Dismiss, (Dkt. 54), is
DENIED.
IT IS FURTHER ORDERED that Amici States’ Unopposed Motion for Leave to File
Brief as Amici Curiae, (Dkt. 9), is GRANTED.
IT IS FURTHER ORDERED that the United States’ Opposed Motion for a Protective
Order of Audiovisual Recordings, (Dkt. 36), is DENIED.
112

Case 1:21-cv-00796-RP Document 68 Filed 10/06/21 Page 113 of 113
114a
IT IS FURTHER ORDERED that the State of Texas’s Objections to the United States’
Declarations, (Dkt. 55), are DENIED.
IT IS FINALLY ORDERED that the Texas Intervenors’ motion to strike, lodged at the
preliminary injunction hearing, (Hr’g Tr., Dkt. 65, at 96), is DENIED.
SIGNED on October 6, 2021.
_____________________________________
ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

113

